<html>
<title> - A FRESH START FOR HAITI? CHARTING THE FUTURE OF U.S.-HAITIAN RELATIONS</title>
<body><pre>[Senate Hearing 108-544]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-544

                        A FRESH START FOR HAITI?
                         CHARTING THE FUTURE OF
                         U.S.-HAITIAN RELATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
94-920                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

                   NORM COLEMAN, Minnesota, Chairman

LINCOLN CHAFEE, Rhode Island         CHRISTOPHER J. DODD, Connecticut
GEORGE ALLEN, Virginia               BARBARA BOXER, California
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        JOSEPH R. BIDEN, Jr., Delaware
                                     JOHN F. KERRY, Massachusetts

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page
Boxer, Hon. Barbara, U.S. Senator from California................     4

Coleman, Hon. Norm, U.S. Senator from Minnesota, Chairman of the 
  Subcommittee...................................................     1

Cummings, Hon. Elijah, U.S. Representative from Maryland.........    12

DeWine, Hon. Mike, U.S. Senator from Ohio........................     5

Dobbins, Hon. James, Director, International Security and Defense 
  Policy Center, RAND............................................    67
    Prepared statement...........................................    70

Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........    18

Franco, Hon. Adolfo, Assistant Administrator, Bureau for Latin 
  America and the Caribbean, U.S. Agency for International 
  Development....................................................    27
    Prepared statement...........................................    28

Graham, Hon. Bob, U.S. Senator from Florida......................     7
    Prepared statement...........................................    10

Heinl, Michael, Co-Author, ``Written in Blood, The Story of the 
  Haitian People 1492-1995, Washington, DC.......................    75

Maguire, Robert, Director, Programs in International Affairs, 
  Trinity College, Washington, D.C...............................    77
    Prepared statement...........................................    79

Noriega, Hon. Roger, Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, Department of State........................    21
    Prepared statement...........................................    23

Pezzullo, Hon. Lawrence, Former U.S. Special Envoy to Haiti 
  (Retired), Washington, D.C.....................................    72
    Prepared statement...........................................    73

Waters, Hon. Maxine, U.S. Representative from California.........    14
    Prepared statement...........................................    16

                                Appendix

Responses to Additional Questions Submitted for the Record by 
  Members of the Committee.......................................   101

    Responses to Questions Submitted by Senator Dodd to Assistant 
      Secretary of State Roger Noriega...........................   101

    Responses to Questions Submitted by Senator DeWine to 
      Assistant Secretary of State Roger Noriega.................   103

    Responses to Questions Submitted by Senator DeWine to 
      Assistant Administrator Adolfo Franco, USAID...............   104

Additional Information Submitted for the Record..................   106
    Joint Proposal & Position Paper: The Haiti Reconstruction 
      Fund, prepared March 2, 2004 by The National Organization 
      for The Advancement of Haitians............................   106

                                 (iii)

  

 
                        A FRESH START FOR HAITI?
             CHARTING THE FUTURE OF U.S.-HAITIAN RELATIONS

                              ----------                              


                       Wednesday, March 10, 2004

                               U.S. Senate,
                Subcommittee on Western Hemisphere,
                Peace Corps, and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:31 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Norm Coleman, 
Chairman of the subcommittee, presiding. Present: Senators 
Coleman, Dodd, Boxer, and Bill Nelson.

            OPENING STATEMENT OF HON. NORM COLEMAN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Coleman. This hearing of the Senate Foreign 
Relations Subcommittee on Western Hemisphere, Peace Corps, and 
Narcotics Affairs will come to order.
    I'd like to thank our witnesses for coming to this 
important hearing, and Congressman Cummings, for being so on 
time. And I certainly would like to acknowledge the tremendous 
interest in this topic.
    Haiti is the second-oldest republic in the hemisphere, a 
country of great promise. Unfortunately, that promise has not 
yet borne fruit. Haiti is the most impoverished nation in our 
hemisphere, has the highest AIDS rate, and a very, very 
troubled 200-year history.
    The title of this hearing, ``A Fresh Start for Haiti? 
Charting the Future of U.S.-Haitian Relations,'' was chosen 
very carefully. I believe there is a moment of opportunity here 
to come together to think about lending a hand to Haiti to 
support a future that is an improvement over Haiti's past. I 
look forward to hearing, from our witnesses, practical and 
specific ideas to put Haiti on track for a more promising 
future.
    I know there has been considerable debate in Washington 
over the issue of Haiti, and with Aristide's departure, that 
division has only intensified. Let me lay out my own view on 
President Aristide.
    He may have come to office through elections that had the 
trappings of democracy, but that does not mean he governed like 
a democrat. Aristide broke and politicized the Haitian police, 
chose to rely instead on a paramilitary group of supporters to 
harass and even kill opponents. He has been accused of drug 
trafficking and corruption. Rigged parliamentary elections in 
2000 were never resolved. Having lost the trust of the Haitian 
people, Aristide decided to resign from the Haitian presidency. 
I trust the statements of Secretary of State Powell, and I do 
not believe Aristide was kidnapped or overthrown by a coup 
d'etat.
    There is an important point here. Fair elections are very 
important, but democracy has got to mean something more than 
just periodic elections. Democracy needs honest governance, 
freedom of expression and assembly, protection of human rights. 
President Aristide fell short in all these measures, and I 
believe the people of Haiti can do better.
    There is a legitimate concern regarding U.S. policy toward 
a faltering democracy, such as Haiti. What is our international 
responsibility to stand with democratically elected governments 
that have lost the trust of their people? But our challenge and 
focus now is, how do we meet the needs of the Haitian people 
today and tomorrow? While Congress has an essential role in 
holding the administration accountable on foreign and domestic 
policy, I believe we do a disservice to the people of Haiti if 
we spend too much time turning their latest crisis into a 
political rallying cry in this country. I think there is an 
incredible moment of opportunity here for the U.S. and the 
international community to join together to make a sustained 
and long-term investment in Haiti. Haiti needs our help. It 
does not need our bickering.
    The deployment of international forces and the distribution 
of emergency humanitarian aid is a good start to deal with 
Haiti's short-term crisis. I hope the witnesses will shed some 
light on how many troops are going to be needed and what is 
going to be the role of the U.N., CARICOM, and other 
multilateral groups. I also hope the witnesses will discuss 
efforts to get food and medical supplies to Haiti's neediest 
hospitals and orphanages. I also want to express my hope that 
our embassy will get to work on the many pending international 
adoption cases.
    There is a political process unfolding in Haiti. As 
stipulated in Haiti's constitution, the Chief Justice of the 
Supreme Court became interim President upon Aristide's 
departure. And according to the principles set out in the 
CARICOM plan yesterday, a council of seven Haitians appointed 
former Minister Gerard Latortue as interim President.
    In the long term, I believe the U.S. needs to make an 
investment in the new Haitian Government. We must, however, 
keep this government accountable to put our assistance to good 
use and to uphold the principles of human rights and good 
governance that matter to Americans. I was proud to work with 
Senator Nelson on an amendment that sends a message about this 
financial commitment, but I believe we need to begin to develop 
specific plans. To that end, I will have some specific 
questions for our witnesses.
    I would like to place into the record an op-ed, which 
appeared in the Minneapolis Star Tribune today, by Brian 
Atwood, former director of USAID and now dean of the Humphrey 
Institute of Public Afairs at the University of Minnesota, 
someone my colleagues may remember well. Mr. Atwood appeals to 
us to work in a bipartisan way, rather than finger-pointing, to 
give Haiti a better future.

    [The information referred to follows:]

        U.S. Needs To Stop Playing Partisan Politics With Haiti

     [by j. brian atwood--minneapolis star tribune, march 10, 2004]
    Even an optimist has a hard time being positive about Haiti's 
future. After more than a decade of experimentation with democracy, 
Haiti is today a failed state. Haiti's elected president is once again 
seeking asylum, forced out by armed thugs and major international 
powers who lost patience with him.
    The controversy today is whether the United States forced President 
Jean-Bertrand Aristide out of power, participating in what he has 
called a ``coup d'etat.'' One can only believe the denials the Bush 
administration has offered, though for reasons unrelated to Haiti, many 
will not. No, if Aristide was forced out, it was not at the end of an 
American gun. He was instead the victim of longstanding American 
neglect.
    It may be a very long while before Aristide ever sees Haiti again. 
But that is less important than knowing whether Haiti will ever again 
be a viable nation state. Will this island, just off the coast of 
Florida, end up being an inhospitable prison for its 8 million 
inhabitants? Will it become a safe-haven for drug traffickers or 
terrorists? Or will it become a stable, functioning polity with an 
economy viable enough to satisfy its people's needs?
    These are vital questions for our political leaders, for the 
answers have serious national security implications--and not just for 
the people of Florida. A policy of treating Haiti as if it were 
Alcatraz prison may satisfy our need to protect Florida from a huge 
influx of refugees, but it will not protect our Nation from the threats 
that could emanate from a failed state.
    We never did give Haiti's democratic government the support it 
needed. We in the Clinton administration tried very hard to support the 
new democracy. We made choices that seemed reasonable given the 
constraints in Washington, but in retrospect some of those choices came 
to undermine that goal.
    We insisted, for example, that Aristide serve out the remaining 
part of his term rather than staying in office long enough to 
compensate for his years of asylum. The consequence was that a popular 
president had to leave office after about a year. The subsequent 
election placed in office a man widely believed to be an Aristide 
puppet. This served neither the new government nor Aristide, as it 
undercut confidence in the new president and made Aristide look like a 
behind-the-scenes manipulator.
    We offered $100 million a year in foreign assistance--a generous 
amount--but the needs were closer to $1 billion. Our expectation was 
that the World Bank would provide large soft loans to help repair and 
create much-needed infrastructure. These resources were never 
forthcoming. The great dividend democracy was to provide never became a 
reality and disillusionment set in.
    Aristide was reelected in 2001 and took office just after President 
Bush entered the White House. The Bush administration made it clear 
from the beginning that it would not be very friendly. Aristide, after 
all, was the president that Bill Clinton restored to power. The 
Aristide election was messy. His Lavalas Party claimed national 
assembly seats that it most likely stole through ballot-box fraud. 
While Aristide's margin of victory put his popular election beyond 
dispute, opposition complaints about stolen assembly seats soured the 
relationship with the new U.S. administration. Soon, direct aid to the 
Haitian government was cut off; the administration used Haiti's 
political stalemate as an excuse to do nothing.
    It is often said in the democracy-promotion business that elections 
do not make a democracy. The institutions and values of democracy take 
years to build. When the backdrop is abject poverty, the challenge 
becomes immense. New leaders are expected to change these conditions 
overnight. In the case of Haiti, the international community, with the 
United States in the lead, provided too little help at first and then 
turned its back.
    Thus, Aristide, an imperfect leader but a man thoroughly capable of 
empathy for the poor, was denied the wherewithal to respond to their 
plight. It was only a matter of time before the clash between warlords 
would fill the political vacuum. This is not unique to Haiti. Conflict 
is common in the world's poorest nations.
    Yet, there is always hope, even for failed states. Uganda is a 
perfect example of a nation that resurrected itself after two civil 
wars and years of despotic leadership. Uganda is halfway around the 
world, Haiti is not.
    There is no question that our leaders in Washington have played 
politics with Haiti. Republicans criticized Clinton for sending in the 
military and then abandoned a democratically elected president because 
they did not like his politics. Democrats saw the constraints more 
clearly than the opportunities and were too quick to excuse Aristide's 
failures of governance.
    It is time to stop playing partisan politics with Haiti and to 
start seeing it as a potential national security threat. If our 
political parties can work together on this problem, the United States 
can help turn Haiti around. It may take a large investment and a 
generation, but one thing is certain: We cannot afford a failed state 
of 8 million people just off our shore.

    Senator Coleman. We have a lot of people who want to speak 
this afternoon, so I must ask the panelists to keep their 
remarks to just five minutes. Logistics dictate that we need to 
be strict on this point if we're ever going to make it through 
these three panels and 11 witnesses.
    With that, I would acknowledge that my good friend and 
colleague, Senator Dodd, will be here later; at that time he 
will have an opportunity to make opening remarks.
    I would, then, defer to my colleague, Senator Boxer, if she 
has any opening remarks.

                STATEMENT OF HON. BARBARA BOXER,
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you very much, Mr. Chairman.
    I am just so pleased to see the Honorable Elijah Cummings 
here, the Honorable Maxine Waters here, because I've spoken to 
them, I've heard from them on this issue. Mr. Chairman, I think 
we're going to benefit from their wisdom. Congresswoman Maxine 
Waters was in Haiti.
    And I'm just going to make a few statements here, 
observations. And I hear, in your remarks, that you're looking 
ahead, and you're saying we need to help the people, and I'm 
with you a hundred percent. But I have to tell you, we'd better 
spend a couple of minutes looking back, because the 
ramifications of what has happened, I think, are huge.
    And let me start by saying, I have great respect for 
Secretary of State Colin Powell. And before the U.S. helped 
Aristide flee the country--or some would say, told him if he 
didn't flee, he's a dead man, in so many words--Colin Powell 
said the following, ``Aristide is the democratically elected 
President of Haiti, and we cannot allow a situation to come 
about where he is thrown out of power by thugs or by some rebel 
movement or the opposition.'' This is what he said. That was 
February 18th.
    The next day, this is what he said, ``In many cases, it's 
just a few thugs that are dominating a particular town or city, 
and so what we have to try to do now is stand with President 
Aristide--he is the elected President of Haiti--and do what we 
can to help him.'' He was still with Aristide on that next day.
    But by February 28th, the administration changed its tune. 
This is ten days later. An official White House statement that 
Aristide's, ``failure to adhere to democratic principles has 
contributed to the deep polarization and violent unrest that we 
are witnessing in Haiti today. His own actions have called into 
question his fitness to continue to govern Haiti. We urge him 
to examine his position carefully,'' whatever that means, ``to 
accept responsibility, and to act in the best interest of the 
people of Haiti.''
    So, Mr. Chairman, ten days before, Colin Powell is saying, 
he's the elected President and we stand by him. We're going to 
do what we can to help him. And ten days later, a signal is 
being sent--a very clear signal--that he's got to get out of 
the country, obviously calling for his resignation.
    Now, my understanding is, Aristide had agreed to power-
sharing plans, he agreed to political compromise. So I need to 
understand, from this administration--and I know the witnesses 
before us, at this panel, can't answer for the administration--
but I want to know what, in ten days, changed that they would 
say, on one day, you're the democratically elected President, 
and then, ten days later, send a signal to the thugs there, 
don't worry, the United States is with you. And why do I say 
that? We have people, like Guy Philippe and Louis Jodel 
Chamblain--and I know that our witnesses here know them better 
than I. My understanding is--and they've been called murderous 
thugs. They've been called murderous thugs. And according to 
news reports, Mr. Chamblain shouted, ``We're grateful to the 
United States.'' And Mr. Philippe said, ``The United States 
soldiers are like us. We're brothers. We're grateful for their 
service to our nation and against the terrorists of Aristide.''
    So, here we have this situation. Now, who's suffering the 
most? The people of Haiti. And that's where I join in with your 
comments, that clearly we have to help the people of Haiti. But 
we cannot allow what has occurred to go by as if it was just 
nothing. Because it was something, something that makes me very 
confused about whether we believe it when we tell countries in 
the world that if you're democratically elected, you'll have us 
to stand with you, and then, all of a sudden, send these 
signals out. Whether Aristide was good, bad, indifferent, he 
was elected. And the question is, What made that ten-day 
change? And that's why I'm really here--two reasons--to find 
out what happened that we made this U-turn, and to see what can 
we do now to make sure that thugs and murderers don't take over 
this country?
    Thank you.
    Senator Coleman. Thank you, very, very much, Senator Boxer.
    I've asked my colleagues, Senator DeWine and Senator 
Graham, to participate. This is the first opportunity the 
Senate has had to explore this issue, and I felt it important 
to get their perspectives.
    With that, I would turn to my colleague, Senator DeWine.

                 STATEMENT OF HON. MIKE DeWINE,
                     U.S. SENATOR FROM OHIO

    Senator DeWine. Mr. Chairman, thank you very much for 
allowing me to be here today. And I congratulate you for 
holding this hearing, as well as Senator Dodd.
    I don't pretend to be an expert on Haiti. I've had the 
opportunity to travel there, I think, 13 times in the last 10 
years, since I have been in the Senate. There is really no 
other nation like Haiti in our hemisphere. Haiti is different. 
Haiti is unique. No other nation in our hemisphere is as 
impoverished. Today, at least 80 percent of all Haitians live 
in dire poverty, with at least 75, 85 percent either unemployed 
or under-employed. Per capita annual income is less than $400, 
although those figures are really, frankly, irrelevant when you 
travel to Haiti, see the unbelievable poverty.
    No other nation in our hemisphere has a higher rate of HIV/
AIDS. AIDS is the number-one cause of all adult deaths in 
Haiti, killing at least 30,000 Haitians annually, and orphaning 
200,000 children. No other nation in our hemisphere has a 
higher infant-mortality rate or a lower life-expectancy rate. 
No other nation in our hemisphere is as environmentally 
strapped. Haiti is really an ecological disaster today, with a 
98 percent deforestation rate and extreme topsoil erosion.
    But despite its radical differences from other countries in 
this hemisphere, Haiti remains in our backyard. It is 
intrinsically linked to the United States by history, by 
geography, by humanitarian concerns, by the illicit drug trade, 
and by the ever-present possibility of waves of incoming 
refugees.
    Haiti's problems, Mr. Chairman, are our problems, and we 
aren't going to be able to do anything about any of these 
problems unless Haiti, the United States, and the international 
community are all willing to, today, take bold and radical 
steps. Business as usual in regard to how we deal with Haiti is 
just not going to get it anymore. If we do not want to be in a 
position, Mr. Chairman and my colleagues, where we see marines 
back on the shores of Haiti every two or three years from now 
on, we're going to have to do things differently.
    I have several ideas I'd like to share with the 
subcommittee.
    First, I believe the international community must help 
Haiti to restore a democratically elected government, one free 
of corruption and the influence and involvement of violent 
human-rights-abusing thugs and killers. That obviously means 
that the rebels, who we've already heard referenced today by 
some of my colleagues, simply cannot be part of this new 
government.
    Second, I believe that the international community must 
free Haiti of its $1.17 billion in foreign debt. And I think 
the United States should take the lead in that. That is a debt 
that has been passed down from government to government. It is 
a debt that burns the Haitian people, that will continue to 
keep them in poverty. And it should be done away with, and we 
should take the lead in that. I believe that we can set 
conditions on that, that we can set conditions of good 
governance, and set that over a period of time. But we should 
make it clear that that debt should be done away with, and we 
should go and work with the international community to do that.
    Third, we must increase trade and create jobs, and help the 
Haitians work. These are people, Mr. Chairman, who are very 
energetic people. They're a hardworking people. They want 
nothing more than what we want, and that is to feed their 
families. I have introduced, along with Congressman Clay Shaw, 
in the House, a trade bill. In the Senate, it is S. 489. If 
this bill were enacted, it would help restore jobs and create 
new ones. Haiti, at one time in the not-too-distant past, had 
at least 100,000 assembly jobs, very simple assembly jobs that 
people could take pride in and that fed many, many families. 
Today, Haiti has less than 30,000 of these assembly jobs. The 
passage of this bill would lead to, very quickly, the creation 
of at least another 70,000 to 80,000 of these jobs.
    Fourth, we must help Haiti develop a self-sufficient system 
of agriculture, and stop the influx of people into Cap-Haitien 
and Port-au-Prince, into the slums of these two cities, where 
they cannot make a living.
    Fifth, we must help Haiti restore the rule of law. The 
international community needs to resume programs for mentoring 
magistrates and judges, and the new Haitian Government needs to 
create a functioning disciplinary body to oversee the entire 
judiciary.
    Sixth, we must help Haiti establish an independent, 
professional national police force, one capable of quelling the 
violence of the armed thugs who threaten the streets of Haiti 
with abandon.
    And, seventh, and finally, the international community 
should immediately restore the direct aid to the government 
that was suspended under President Aristide so Haiti can 
rebuild much-needed institutions and infrastructure for the 
delivery of food, humanitarian aid, and healthcare.
    Just to put this in perspective, in 1994, prior to 
Aristide's reinstatement of power during a time of military 
dictatorship under Cedras, our assistance to Haiti was far 
greater than it is today. In 1994, we provided, Mr. Chairman, 
$69 million. The current budget is for $54 million. We have, at 
one time, provided up to $235 million. If we are to make a real 
difference--and I don't want to suggest any particular figure, 
but we're going to have to be at, at least, the $150 million 
that the Foreign Relations Committee reported out last week.
    Finally--and I know the bell has rung; let me just make one 
final, if I could, comment, and that pertains to the current 
situation in Haiti. It is abundantly clear, from the people 
that I talk to in Haiti today, both in Port-au-Prince and 
outside Port-au-Prince, that while our troops are doing a 
tremendous job there, it is abundantly clear to me that there 
are not enough troops in Haiti today. And it is a danger to 
those troops by not having enough troops, and it is also clear 
to me that unless more troops are put into Haiti by the United 
States, that we are not going to be able to stabilize the 
situation, and that this crucial period of three months before 
the U.N. moves in is a very, very delicate timetable, very 
delicate period of time, and it's essential that more U.S. 
troops be put in.
    Senator Coleman. Thank you very, very much, Senator DeWine. 
I noted that I specifically asked my colleagues, Senator DeWine 
and Senator Graham, to participate in this discussion today. 
This is the first time the Senate has had a chance to visit 
this issue.
    Senator Graham, I defer to you for any opening comments.

                 STATEMENT OF HON. BOB GRAHAM,
                   U.S. SENATOR FROM FLORIDA

    Senator Graham. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing today on an issue that is 
extremely important to a near neighbor of the United States, 
but also raises issues about U.S. policy in similar 
circumstances around the world.
    Mr. Chairman, I'd like to ask that my prepared testimony be 
placed in the committee record, and I will speak from a 
somewhat shortened version.
    Senator Coleman. Without objection.
    Senator Graham. Mr. Chairman, the departure of former 
President Aristide, just ten days ago, caused the people of 
Haiti to enter a new phase of their efforts to build a 
democracy. There has been, there will be, much discussion about 
the nature of that departure and the characteristics that 
surrounded it. I have spoken and written on those in the past. 
Today, I want to talk about what we need to be doing 
immediately in order to be of maximum assistance.
    I want to associate myself with the comments of a man who 
has shown the deepest commitment and compassion to the people 
of Haiti, Senator DeWine. I would characterize his remarks as 
particularly focused on the mid-range issues in Haiti. I'm 
going to focus more on the short-range. What do we do in--
starting with the circumstances that existed--that exist on the 
streets today?
    The question I'm here to discuss is, What should be the 
role of the United States, as a good neighbor, to the 8 million 
people living in one of the poorest and, currently, one of the 
most violent countries on earth? From firsthand experience over 
the past three decades, I know the Haitian people to be 
hardworking, to be committed to improving their lives, even in 
the face of unimaginable hardship.
    Tens of thousands of Haitian refugees have resettled in my 
home state. I have come to appreciate their strong commitment 
to family, their religious values, the understanding of the 
benefits of education to themselves and their children, and to 
an entrepreneurial spirit that would improve any community in 
America. I know that the United States and the international 
community have a strong desire to see Haiti succeed.
    We also have the lessons of the past decade to learn from 
as we try once again to help the Haitian people build 
governmental institutions and a growing economy. The road ahead 
will not be easy, nor is the outcome assured. That is why it is 
imperative that the United States takes a strong and 
constructive role in Haiti at this time.
    Let me quote from some statements that were made just 
yesterday by the CIA director, George Tenet, relative to the 
circumstances in Haiti. Director Tenet said, ``What concerns me 
is the possibility that the interim government, backed by 
international forces, will have trouble establishing order. A 
humanitarian disaster or mass migration remains possible. Anti-
Aristide rebels still exert de facto control over many parts of 
the country and have yet to make good on promises to lay down 
their arms.''
    I am here today to call on the administration and the 
Congress to take immediate action to fulfill our 
responsibilities and to act in our national interest to 
stabilize the situation in Haiti, and to begin to build a long-
term stable, democratic state. I would pose four steps to do 
this immediately, and a fifth that has longer-range 
implications.
    First is security. The tragic events of recent days 
indicate that the security forces that we've sent to Haiti, 
along with the French, the Canadian, and the Chilean forces who 
are there, are not sufficient to maintain order and security. I 
would join in the remarks that Senator DeWine has made to that 
effect. Additional forces are needed immediately to provide a 
level of security that will allow the democratic institutions 
to develop, a broad-based provisional government to be 
organized, and commercial activity to restart. I happened to 
meet a man, in the Miami Airport on Monday, who runs a small 
manufacturing plant near the airport in Port-au-Prince. He says 
his business has been shut down because the customs service in 
Haiti is shut down and they can't clear either materials coming 
in or exiting the country. And that put several hundred people, 
who earn their living at his plant, in jeopardy of losing their 
jobs.
    Mr. Chairman, I see and hear that the red light is on, so 
if I could just limit myself to one sentence?
    Senator Coleman. If you could sum up, Senator Graham, that 
would be fine. Thank you.
    Senator Graham. Humanitarian assistance--there clearly is a 
threat of a humanitarian crisis of catastrophic proportions. 
And according to today's news reports, we are engaged in an 
urgent appeal to raise $35 million for six months of 
humanitarian aid. If necessary, the United States is going to 
have to step in and front-load that assistance, particularly 
food and medical facilities.
    The United States, third, should have a permanent senior 
person, who has the respect of the President, the Congress, and 
the American people, to serve on a full-time basis as the 
President's representative in Haiti.
    And, fourth, the political transition, the task of putting 
together a broad-based transitional government is going to be 
very challenging, yet I see this as a rare opportunity. Success 
in Haiti will require a sustained political effort led by the 
United States, supported by the international community, that 
moves towards free and fair elections and the other components 
of a functioning democracy.
    And let me just conclude, Mr. Chairman, with a final 
comment about the long term. What we have seen now twice in 
Haiti--we've seen it in Bosnia, we've seen it in Somalia, we've 
seen it in Kosovo, we've seen it Afghanistan, and we've seen it 
in Iraq. What have we seen? We've seen the United States 
military be called to action, and, with great professionalism 
and expedition of time and, in most instances, limited or no 
casualties, they've carried out their military mission. And 
then what happens? We move to the occupation phase, and 
everything seems to collapse. The fact that we had an 
occupation in Haiti for the better part of two years just ten 
years ago, and now we're back with a Haiti that many would 
argue is worse off than it was in 1994, is one illustration of 
that.
    I think we need to accept the fact that the United States 
will have a role in nation-building, in nation-sustaining 
efforts. And rather than attempt to deny that fact, let's get 
prepared to do it. As an example, there should be a reserve 
force of at least 50,000 people, selected from the law 
enforcement agencies of the world, who are prepared and trained 
to do specifically the kind of work that the streets of Cap-
Haitien and Port-au-Prince require today, and they should be 
distributed in terms of their linguistic and cultural 
backgrounds so that they can effectively move in and provide 
assistance. A similar reserve corps of civil engineers should 
be on hand, so we don't have the situation we did in Iraq, of 
where Saddam Hussein was able to restore the electric system 
more quickly in 1991 after the war, than we were able to 
restore it in 2003.
    Senator Coleman. Senator Graham, if you could finalize your 
comments.
    Senator Graham. I would just finalize by saying, I look 
forward to working with this committee on all of these issues, 
particularly this development of a permanent capability to 
respond to the challenges of occupation.
    And I thank you, again, for your interest in this very 
important subject.

    [The prepared statement of Senator Graham follows:]

                Prepared Statement of Senator Bob Graham

    With the departure of former President Aristide 10 days ago, the 
people of Haiti have entered a new phase in their efforts to build a 
prosperous democracy. I am hopeful that the next chapter on Haiti will 
have a better ending than the chapter that was just concluded.
    There is a need to determine the exact circumstances surrounding 
President Aristide's departure, but that is not our undertaking at this 
hearing. The question we should be addressing is, What should be our 
role as a good neighbor to 8 million people living in one of the 
poorest and, currently, most violent countries on the Earth?
    From firsthand experience over the past three decades, I know the 
Haitian people to be hard working and committed to improving their 
lives even in the face of unimaginable hardship. Tens of thousands of 
Haitian refugees have resettled in my home state, and I have come to 
appreciate their strong commitments to family, to religious values, to 
the benefits of education for themselves and their children, and to an 
entrepreneurial spirit that would benefit any community in America.
    And I know that the United States and the international community 
have a strong desire to see Haiti succeed.
    We also have the lessons of the past decade to learn from as we try 
again to help the Haitian people build governmental institutions and a 
growing economy.
    But the road ahead will not be easy, nor is the outcome assured. 
That is why it is imperative that the United States takes a strong and 
constructive role in rebuilding Haiti.
    To do this right is our responsibility and is in our national 
security interest. If we shy away from our responsibilities or fail to 
maintain our commitment long enough, we will find ourselves back again 
in Haiti in 2014, just where we are today, 10 years after our last 
half-hearted effort to bring democracy there--forced to start 
rebuilding from scratch.
    As CIA Director George Tenet testified before the Armed Services 
Committee on Tuesday:

          In this hemisphere, of course, the situation in HAITI is very 
        fluid. The process of setting up an interim government and 
        moving toward new elections has just begun. Selection of a 
        consensus prime minister this week would be an important next 
        step. What concerns me is the possibility that the interim 
        government, backed by international forces, will have trouble 
        establishing order. A humanitarian disaster or mass migration 
        remains possible. Anti Aristide rebels still exert de facto 
        control over many parts of the country and have yet to make 
        good on promises to lay down their arms. Those forces include 
        armed gangs, former Haitian Army officers, and members of 
        irregular forces who allegedly killed Aristide supporters 
        during his exile.
          A cycle of clashes and revenge killings could easily be set 
        off, given the large number of angry, well-armed people on both 
        sides. Improving security will require the difficult task of 
        disarming armed groups and augmenting and retraining a national 
        security force.
          The interim government's nascent consensus could also run 
        aground if hardline Lavalas (pro-Aristide) or Democratic 
        Platform (anti-Aristide) elements break ranks and seek to exert 
        control.

    I am here to today to call on the administration and Congress to 
take immediate action to fulfill our responsibilities and to act in our 
national interests to stabilize the situation in Haiti and to begin to 
build a stable democratic state.
    I would propose a five-point plan that needs to be put into action 
immediately:
1. Security
    The tragic events of recent days indicate that the security force 
that we have sent to Haiti, along with French troops, are not 
sufficient to maintain order and security.
    Additional forces are needed immediately to provide a level of 
security that will allow the democratic institutions to develop, a 
broad-based provisional government to be organized, and commercial 
activity to restart.
    The forces currently in Haiti are obviously not sufficient for the 
task. One lesson of our past involvements in nation building is that 
you need to use maximum, not minimum, military presence at the outset. 
The current incremental approach is a proven recipe for failure. 
Already we see the armed groups threatening to re-emerge if 
international forces cannot protect the people.
2. Humanitarian Assistance
    Haiti is the poorest nation in our hemisphere. The current 
political unrest has halted humanitarian shipments to some parts of the 
country for weeks.
    We all saw news footage of warehouses full of humanitarian supplies 
being looted during the unrest. A more vigorous effort to provide 
humanitarian food and medical supplies throughout the country needs to 
be implemented immediately.
    The United Nations on Tuesday issued an appeal for $35 million for 
six months' worth of humanitarian aid, but given the desperate 
circumstances there, that may prove to be too little, especially if it 
arrives too late.
3. Leadership
    A project as big as rebuilding Haiti is not a part time job. The 
President needs to appoint a senior person to lead this effort on a 
full-time basis. This person needs to be experienced in the problems 
associated with nation-building and the particular problems of Haiti.
    This person needs to be respected by both parties so that they will 
be able to effectively argue for the resources that will be required to 
accomplish the task at hand. Finally, this person must be of sufficient 
stature in the administration that their voice will be heard when 
needed.
4. Political Transition
    The task of putting together a broad-based transitional government 
is very challenging, yet I believe a rare opportunity exists at this 
time. Success in Haiti will require a sustained political effort, led 
by the United States, supported by the international community, that 
moves towards free and fair elections.
    This is a particularly challenging task given the history of 
elections in Haiti. Nevertheless, it is a prerequisite to building 
self-sustaining governmental institutions and a growing economy.
    We have recognized the importance of this type of effort in Iraq. I 
hope we will recognize its importance just a few hundred miles from our 
shores.
5. Nation-Building Capacity
    Finally, let me say that there is one lesson that we must take from 
our experiences in the past decade or so, not just from Haiti but from 
Somalia, Kosovo, Bosnia, Afghanistan, Iraq--and now from Haiti again.
    Some have denied that the United States should have any interest in 
``nation building'' or ``nation sustaining'' efforts, but I would 
describe that as being a supreme state of denial. It is inescapable 
that the United States, as the sole superpower in the world, is going 
to have a responsibility--once a dictator has been deposed or another 
action taken--to lead the international community in helping countries 
such as Haiti get back on their feet and move forward.
    In each instance over the past 10 or 11 years, we find ourselves 
virtually reinventing the wheel once the military phase ends and the 
occupation and rebuilding phase begins. We largely task the Department 
of Defense with managing the reconstruction, when that is not their 
assigned or chosen mission. And sad to say, while the military phase is 
usually a glowing success in which all Americans can rightfully take 
pride, the rebuilding phase proves to be much less successful.
    But we should emulate the military's ability to recruit, train, 
plan and exercise skilled personnel to develop an international 
capacity for restoring order and forging a new future for occupied 
countries. That capacity must include several key elements:

  <bullet> An international police reserve force with diverse 
        linguistic and cultural skills that can be called in to restore 
        and maintain order.

  <bullet> Humanitarian aid coordinators with plans to pull together 
        both public sector and non-governmental organizations to 
        address urgent needs for food, medicine and shelter.

  <bullet> Teams of civil engineers to lead the rebuilding of shattered 
        water, sewer and telecommunications systems and other essential 
        infrastructure.

  <bullet> Legal and political experts to laws, establish justice 
        system reforms.

    Such a capacity should reside within the United Nations, but the 
United States must be the leader in assuring that it is a real and 
meaningful capacity--or we will find ourselves repeatedly asking our 
taxpayers to bear the greatest burden, as we have in Iraq.
    And we need to see such an effort launched soon in Haiti. Or, I 
fear that we will find ourselves going back in with a military force in 
another 10 years.

    Senator Coleman. Thank you very much, Senator Graham.
    And, with that, I will turn to our panel and thank them for 
their patience. We are honored to have our colleagues from the 
House here today. We have with us the Honorable Congressman 
Elijah Cummings, Chairman of the Congressional Black Caucus, 
and the Honorable Congresswoman Maxine Waters, from California.
    Congressman Cummings, would you please begin?

               STATEMENT OF HON. ELIJAH CUMMINGS,
               U.S. REPRESENTATIVE FROM MARYLAND

    Mr. Cummings. Mr. Chairman, and to the entire committee, it 
is certainly a pleasure to be here today, and I'm pleased that 
your subcommittee is having this important hearing on Haiti. 
But, more important, after this hearing today, I hope that we 
will move to take constructive steps to help the Haitian 
people.
    I also associate myself with the words of Senator Graham, 
Senator Boxer, and Senator DeWine.
    While I realize that the title of today's hearing asks the 
question, ``A Fresh Start for Haiti? Charting the Future of 
U.S.-Haitian Relations,'' I believe that it is extremely 
important that we, the United States Congress, get to the 
bottom of what has transpired over the last few weeks--indeed, 
years--in Haiti.
    Mr. Chairman and members of this committee, almost since 
the creation of the Congressional Black Caucus (CBC) in 1969, 
we've had a Haiti Task Force on issues facing the people of 
Haiti. I might add that that task force is headed by, at this 
time, John Conyers, who is with us, Congressman Conyers, of 
Michigan, and certainly Congresswoman Barbara Lee, of 
California.
    As you all know, Haiti is about 700 miles off the coast, 
our coast, and about 80 percent of the 8 million citizens of 
Haiti live in dire poverty. The truth is, Mr. Chairman, the 
people of Haiti desperately need our help. People are literally 
dying every day, not because of gunshots, but because they do 
not have clean water, adequate food, or medical supplies 
readily available. But as we address this issue of helping the 
Haitian people with the basic necessities of everyday life, we 
also have to gain their trust. Trust will be an important key 
to our success or failure in Haiti.
    As we look back at what has transpired in Haiti over the 
last few weeks and, as I mentioned earlier, the last few years, 
I believe that we must clear up and find out how did we get to 
where we are today. Our looking back at the past is not meant 
to be an indictment of anyone in particular; however, I believe 
that we must and can learn from the past.
    As the committee members are well aware, the United States, 
for all intent and purposes, pulled out of Haiti in 1996. Our 
military pull-out was accompanied by our government suspending 
or blocking humanitarian loans from going to Haiti. Mr. 
Chairman, quite frankly, the United States and the 
international community have a trust and credibility problem 
with the Haitian people that must be fixed if we are to 
effectively and efficiently move forward.
    There is a question of trust, and, unfortunately, whether 
it is true or not, there is a former democratically elected 
president of Haiti saying to the world that he was forcibly 
removed from office. This issue must be addressed, and that is 
why several members of Congress--not just some members of the 
CBC, which I am honored to chair--have called on Congress for 
an independent commission to uncover the facts--and I 
underscore the facts--which led to President Aristide's 
departure from Haiti.
    But bigger than the question of President Aristide and how 
he came to leave Haiti, we need to know what specific steps the 
United States took to defend this democracy.
    Members of the committee, as you are well aware, several 
countries in the Caribbean, specifically CARICOM countries, are 
extremely troubled by the recent turn of events in Haiti, and 
hold the United States responsible. So as we move forward, we 
need to ensure that we begin to mend fences and fix our damaged 
relationships with our Caribbean neighbors. This CARICOM issue 
is one of the many issues that Members of the Congressional 
Black Caucus discussed in our meeting last week at the United 
Nations, with U.N. Ambassador to the U.N., John Negroponte, and 
U.N. Secretary General Kofi Annan.
    Mr. Chairman, my reason for discussing this recent history 
with the committee today is because I do not believe that the 
Haitian people are just going to forget it and look to the 
future without some answers. But as we look to the future, 
after answering these critical questions, I believe that the 
United States must be Haiti's partner and make a long-term 
commitment, and sustained commitment, to the people of Haiti.
    The reason I'm emphasizing the long-term and sustained 
commitment, which Senator Graham referenced, is because we went 
through this with Haiti in the mid 1990s, and then we pulled 
out. And as a result, we now have to send U.S. troops in again.
    One word about our troops, Mr. Chairman, and I know that 
you and all of the committee members join me in saying this, I 
want to commend them and thank them for their service to our 
country. We all owe them a great debt of gratitude.
    Mr. Chairman, as this recent crisis was reaching a critical 
point two weeks ago, 18 members of the CBC met with President 
Bush, Secretary Powell, National Security Advisor Condoleezza 
Rice, and White House Chief of Staff Andy Card. When we met 
with the President, our message was clear and focused on three 
main points that are still salient today.
    May I just briefly summarize?
    Senator Coleman. Please.
    Mr. Cummings. First, we told the President that we must 
defend democracy in Haiti. The people of Haiti must have the 
final say in their government. It cannot be a puppet 
government. Second, the rule of law must be adhered to in 
Haiti. Third, and perhaps most important, we must get 
humanitarian assistance to the people who need it most in 
Haiti.
    And so, Mr. Chairman, again, we emphasize that, while we 
are extremely concerned about President Aristide and his 
departure and the way it was done, we also want to make sure 
that the people who are living in dire poverty in Haiti receive 
the kind of humanitarian assistance that they need, and we want 
the rule of law restored. And the other thing is that we want a 
democracy, the type of democracy that we stand up for in this 
country over and over again, traveling around the world 
defending, that it be defended there in Haiti.
    Thank you.
    Senator Coleman. Thank you, Congressman Cummings.
    With that, Congresswoman Waters.

                STATEMENT OF HON. MAXINE WATERS,
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Ms. Waters. Thank you very much. Senator Coleman, I'd like 
to thank you for holding this hearing and allowing us to 
participate here today.
    I'm very appreciative for the comments I've heard from my 
own Senator, Senator Barbara Boxer, and I absolutely love the 
recommendations that were given by Senator DeWine here today. 
I've worked with Senator Dodd for many years, and I respect all 
of the work that he, too, has done on this issue.
    I would like to say that it is clear that a coup d'etat 
took place in Haiti. We've learned that our government made the 
departure of President Jean-Bertrand Aristide, the 
democratically elected leader of Haiti, a precondition to 
introducing United States forces to restore order. At the very 
least, despite our government's claims to support 
democratically elected governments, this administration was 
unwilling to take any real steps to prevent President 
Aristide's overthrow. Uncovering the truth about our 
government's role in President Aristide's departure is critical 
to any attempt to chart the future of U.S.-Haitian relations.
    I've been involved in U.S. policy towards Haiti since 
shortly after President Aristide was ousted in a coup d'etat in 
1991. I became acquainted with President Aristide while he was 
in exile here in the United States following the 1991 coup. I 
joined with other members of Congress to convince President 
Clinton to intervene to allow President Aristide to return to 
Haiti and resume his position as the democratically elected 
President of Haiti. As a result of our efforts, President 
Aristide was able to return to Haiti in 1994. Let me just say 
that Mr. Randall Robinson was then the executive director of 
TransAfrica, an organization that took the lead. He went on a 
hunger strike, and almost died, to try and make the return 
possible. And many of us were arrested in our attempts to get 
the attention of the White House at that time.
    Mr. Chairman, the sad reality is that the same people who 
supported the 1991 coup were involved in planning this year's 
coup. Mr. Andre Apaid is a factory owner in Haiti, born in New 
York. He owns 15 factories in Haiti. He holds an American 
passport, and he supported the 1991 coup. And he's now a leader 
of the Group of 184, who posture themselves as the legitimate 
protesters against this government. He has been accused of not 
wanting to pay any taxes, angry with President Aristide not 
only because he was being forced to pay taxes, but because 
President Aristide was insisting on decent wages for the people 
who work in the 15 factories that he owns there.
    Many of the thugs that were involved in this coup d'etat 
are former members of the Haitian military, are members of the 
feared death squad known as the Front for the Advancement and 
Progress of Haiti, commonly referred to as FRAPH, which was 
responsible for numerous human rights violations during the 
three years following the 1991 coup. Mr. Louis-Jodel Chamblain 
was second in command of FRAPH and was convicted in absentia 
for his role in the 1994 Raboteau massacre and the 1993 
assassination of Antoine Izmery. Jean Tatoune was a local FRAP 
leader, who was also convicted of involvement in the Raboteau 
massacre. Mr. Guy Philippe is a former police chief and 
military officer, who led several coup
attempts between 2001 and 2003, and is a big, well-known drug
dealer.
    I'm convinced that the recent coup involved not only Mr. 
Andre Apaid and the armed thugs, but I'm very concerned about 
the role that our own ambassador, Mr. Roger Noriega played. 
Ambassador Noriega's history is replete with actions against 
Haiti, both as Senator Jesse Helms' chief of staff and now as 
the Bush administration's Assistant Secretary of State for 
Western Hemisphere Affairs.
    I've been to Haiti three times since the beginning of the 
year. I first went to celebrate the 200-year independence of 
Haiti, January 1. While I was in Haiti, I met with President 
Aristide and members of the Lavalas Party, as well as Mr. Andre 
Apaid and other members of the Group of 184. I was also present 
when the international community--where the United States, 
France, Canada, the OES, and the U.N. all were represented, and 
members of CARICOM--presented the CARICOM proposal to President 
Aristide. The CARICOM proposal was designed to limit President 
Aristide's power, and provide for the selection of a new prime 
minister who would be acceptable to the opposition and able to 
exercise more independent power in Haiti. President Aristide 
signed off on and accepted CARICOM's proposal. As you know by 
now, the opposition, led by Mr. Andre Apaid, refused to accept 
the proposal and sign up.
    Meanwhile, while they were holding out, not coming to the 
peace table, they were giving covert aid to the thugs who had 
taken over the cities of Gonaives and the city of Cap-Haitien. 
This was led by Mr. Guy Philippe, the drug dealer and the 
killer. And they got stronger and stronger as the days went on, 
and they openly said, through the press, that they were coming 
into Port-au-Prince, and they were going to kill President 
Aristide.
    In Port-au-Prince, you had what is known as the Chimeres 
and Lavalas and the OPs, poor people, gathering to protect 
Port-au-Prince. They were gathering with machetes and weapons, 
and you could see the confrontation drawing near. We begged 
Colin Powell--we begged him--to please send some troops in--we 
didn't care if they were United States or international--to 
stop what we thought was going to be this confrontation.
    Then we learned that President Aristide had been visited in 
the wee hours of the morning and told that he had to leave, 
that there was about to be a blood-bath, that he would be 
killed, many Haitians would be killed. And he maintains that he 
was literally kidnapped and put on a plane and made to leave. 
Now, he's sitting up in C.A.R., the Central African Republic, 
under guard by the Africans and the French.
    I said to Colin Powell, just today, as I caught up with him 
in committee, they're guarding them, and they said they will 
not do anything unless they are told by the United States and 
France what they can do. He's ready to leave. He has found a 
place that's acceptable to him. What will the United States do 
to say to him, ``You're free to go wherever you have been 
accepted?'' Now, I think it's very important for the members of 
Congress to find out why the United States is holding him 
captive and why they won't allow the Central Africa Republic to 
release him. I think if they do that and let him go wherever he 
has been accepted, and we move with an aggressive program, such 
as that which has been described by Mr. DeWine, then we'll be 
on our way to restoring government to Haiti.
    I would simply say this, and I will wind up--and I know you 
would like me to get over with this--I think you're right about 
the humanitarian aid, but I think there are some other things 
that must be done. The American citizen, Mr. Apaid, who's not 
only responsible for being involved in this coup, but the 
previous one, should be made to come home, and he should be put 
out of Haiti.
    The killers--Mr. Guy Philippe, Mr. Louis Chamblain--they 
should be jailed. They were already convicted in absentia, and 
they are running around now having said that they would put 
down their arms, and they're thumbing their nose at the United 
States. They don't intend to go anywhere. They want to 
reestablish the military, such as they had under Mr. Cedras.
    I believe that the constitution of Haiti should be 
respected. I believe that there should be elections. And I 
think we have to resolve this question of how President 
Aristide was made to leave. I think that we have to give 
assistance to Haiti to deal with the big drug dealers that's up 
on the Dominican Republic border. President Aristide has given 
the United States the ability to interdict drugs in Haitian 
waters, that's not being used. But that's one of the problems. 
It is being used as a trans-shipment point for drugs, and we 
are doing nothing to relieve them of the responsibility.
    And, lastly, let me just say this. In this aid that we're 
talking about--because we were not giving money to the 
government, they had no money for infrastructure; they have 
literally no water system. Children are dying because the water 
is polluted. They die from the bacteria, from diarrhea. The 
first thing we must do is help to construct a water system for 
clean and potable water in Haiti.
    And, with that, I thank you very much for allowing me this 
time.

    [The prepared statement of Congresswoman Waters follows:]

           Prepared Statement of Representative Maxine Waters

    Senator Lugar, Senator Coleman, Senator Biden, Senator Dodd, 
members of the Senate Foreign Relations Committee, thank you for 
allowing me to testify here today. It is clear that a coup d'etat took 
place in Haiti. We have learned that our government made the departure 
of President Jean-Bertrand Aristide, the democratically-elected leader 
of Haiti, a pre-condition to introducing United States forces to 
restore order. At the very least, despite our government's claims to 
support democratically-elected governments, the Bush administration was 
unwilling to take any real steps to prevent President Aristide's 
overthrow.
    Uncovering the truth about our Government's role in President 
Aristide's departure is critical to any attempt to chart the future of 
U.S.-Haitian relations.
    I have been involved in U.S. policy towards Haiti since shortly 
after President Aristide was ousted in a coup d'etat in 1991. I became 
acquainted with President Aristide while he was in exile here in the 
United States following the 1991 coup. I joined with other members of 
Congress to convince the Clinton administration to intervene to allow 
President Aristide to return to Haiti and resume his position as the 
democratically-elected President of Haiti. As a result of our efforts, 
President Aristide was able to return to Haiti in 1994.
    Mr. Chairman, the sad reality is that the same people who supported 
the 1991 coup were involved in planning this year's coup. Andre Apaid, 
a factory-owner who holds an American passport, supported the 1991 coup 
and is now the leader of the Group of 184. Many of the thugs are former 
members of the Haitian military or members of the feared death squad 
known as the Front for the Advancement and Progress of Haiti (FRAPH), 
which was responsible for numerous human rights violations during the 
three years following the 1991 coup. Louis Jodel Chamblain was the 
second-in-command of FRAPH and was convicted in abstentia for his role 
in the 1994 Raboteau massacre and the 1993 assassination of Antoine 
Izmery. Jean Tatoune was a local FRAPH leader, who was also convicted 
of involvement in the Raboteau massacre. Guy Philippe is a former 
police chief and military officer, who led several coup attempts 
between 2001 and 2003.
    I am convinced that the recent coup involved not only Andre Apaid 
and the armed thugs but also our own Ambassador Roger Noriega. 
Ambassador Noriega's history is replete with actions against Haiti, 
both as Senator Jesse Helms' chief of staff and now as the Bush 
administration's Assistant Secretary for Western Hemisphere Affairs.
    I have been to Haiti three times since the beginning of this year. 
While I was in Haiti, I met with President Aristide and Lavalas party 
members as well as Andre Apaid and other members of the Group of 184. I 
was also present when the international community and the members of 
CARICOM presented the CARICOM proposal to President Aristide. The 
CARICOM proposal was designed to limit President Aristide's power and 
provide for the selection of a new prime minister, who would be 
acceptable to the opposition and able to exercise more independent 
power in Haiti.
    I believe the demonstrations organized by Andre Apaid and the Group 
of 184 were designed to provoke the Haitian police into retaliating 
against the demonstrators, who routinely threw rocks, spat in the face 
of police officers and defied government orders establishing 
permissible parade routes for protests. In the beginning, these tactics 
worked and the police responded. However, when President Aristide 
learned what was happening, he was able to control the police and 
prevent them from carrying out acts of retaliation.
    When the police stopped responding to provocations by the 
demonstrators, I believe the U.S. Government and the French Government 
became involved in exerting increasing pressure on President Aristide, 
by refusing to fully support the CARICOM proposal and covertly 
supporting the thugs, who were taking over cities and cutting off 
supplies of food and water. Meanwhile, the thugs became bolder and 
bolder, threatening to carry out a bloodbath if President Aristide did 
not leave Haiti. Yet neither Andre Apaid nor the U.S. government ever 
admitted they knew who these thugs were or denounced their invasion of 
Haiti.
    I repeatedly appealed to Secretary of State Cohn Powell to assist 
the government of Haiti, yet the Bush administration refused to provide 
any assistance whatsoever to stop the violence until after President 
Aristide's departure. It is clear that President Aristide's departure 
was a precondition to any U.S. efforts to stop the violence. President 
Aristide told me that he was forced to leave Haiti on February 29, 
2004, after U.S. officials told him that he and many other Haitians 
would be killed if he refused. President Aristide apparently is being 
held against his will in the Central African Republic.
    I urge the members of the Senate Foreign Relations Committee to 
investigate the circumstances under which President Aristide and his 
wife are being held in order to ensure that they are not being held 
against their will. The United States should inform the government of 
the Central African Republic that President Aristide should be allowed 
to leave the Central African Republic whenever he is ready to do so. 
Furthermore, the United States should make certain that he is allowed 
to travel to any country of his own choosing that will receive him and 
offer him assistance in doing so.
    The members of the Senate Foreign Relations Committee must 
determine the truth about our Government's role in the organization and 
execution of the coup d'etat that led to President Aristide's 
departure. The American people deserve to know how and why this 
administration allowed a democratically-elected government to be 
overthrown by a group of heavily-armed thugs.

    Senator Coleman. Thank you very, very much, Congresswoman 
Waters.
    We'll turn to, at this point, unless Senator Dodd has any 
follow-up questions, I would dismiss the panel.
    Senator Dodd. No, let me join my colleagues on the 
committee in thanking our two witnesses here, and also our two 
colleagues in the Senate who spoke. I'm sorry I missed hearing 
their direct comments. But I thank both our colleagues in the 
House, who have been deeply involved in these issues. As Maxine 
pointed out, Congresswoman Waters has pointed out, we've spent 
a lot of time over the years working on this issue, going back 
more than a decade now. And Elijah Cummings, we thank you 
immensely, as chair of the Black Caucus, for being here and 
expressing your views on this subject matter.
    Mr. Chairman, I thank both of our witnesses for being here 
and participating.
    Senator Coleman. I share in that thanks. I do note that 
Congresswoman Jackson Lee intended to be here. I believe that 
she's, obviously, unable to make it.
    Again, I want to thank my colleagues from the House for 
being here. With that, this panel is dismissed.
    Before we begin with the second panel, I would turn to my 
colleague and distinguished Ranking Member, Senator Dodd, for 
any comments that he may have.

             STATEMENT OF HON. CHRISTOPHER J. DODD,
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd. Well, thank you, Mr. Chairman. Again, you've 
got a lot of witnesses here, and I don't want to take a lot of 
time on this, but I do want to express some opening thoughts, 
if I can, on the subject matter.
    First of all, let me, again, thank Bob Graham and Mike 
DeWine for their participation. And, let me underscore, I 
gather the suggestions that Senator DeWine made--and I want to 
second them; I think they are very sound suggestions. He's been 
a terrific advocate on trying to get this straight in Haiti, 
and I thank him immensely and thank him for being here.
    Bob Graham, of course, has been involved in these issues. 
This isn't just a foreign-policy issue for Senator Graham; it's 
a local issue, as well, obviously, given the tremendous impact 
that his state of Florida feels. Every time there is a 
disruption in the normal course of events in Haiti, Florida 
feels it very directly. So we appreciate, immensely, his work.
    And I want to thank you, Mr. Chairman, for holding this 
hearing. Often, we'll have a hearing weeks after events, rather 
the in the midst of them, to get some sense of it. And I 
appreciate, immensely, the fact that this subcommittee is 
looking into this issue to find out what went wrong, or, 
perhaps even more important, to give us an opportunity to look 
forward. Because not only is it important that we analyze what 
happened over these last few weeks, but critically important 
for the 8 million people who call Haiti their home, they want 
to know what can be done to get this right, both from a 
security standpoint, as well as economic opportunities, to put 
it mildly.
    So we're all well aware, obviously, that on Sunday, the 
29th of February, a democratically elected government, a head 
of government in our own hemisphere, was forced out of office. 
An armed insurrection led by former members of the disbanded 
Haitian Army and its paramilitary wing, FRAPH, made it 
impossible for the Aristide government to maintain public 
order.
    Now, I know there's been an effort ongoing for--in fact, 
for months, for years--to smear President Aristide, and to 
denounce him in every way possible. I think those accusations 
have gone way beyond the reality. That's not to suggest that 
President Aristide did not have serious problems in terms of 
his governance of Haiti. I'm not going to excuse his 
misbehavior at all. But to suggest somehow that his behavior 
constituted a decision that would cause us not to stand up to 
support an elected government, I think, is wrong; 
notwithstanding the fact that, in 2001, the United States, 
Haiti, and 32 other nations, as members of the Organization of 
American States, adopted something called the American 
Democratic Charter and, therein, pledged to, ``Respond rapidly 
and collectively in the defense of democracy.'' Virtually 
nothing was done by the United States or other OAS members, in 
my view, to come to the aid of the beleaguered Aristide 
administration, a democratically elected government. Either 
these documents mean something or they don't. And if they mean 
something, we ought to be able to stand up and do what we can 
to defend these democratic processes. Frankly, it makes me 
wonder whether the Inter-American Democratic Charter is worth 
the paper it was printed on. I suspect others throughout the 
hemisphere do, as well.
    I give credit to members of CARICOM who valiantly attempted 
to rescue one of their own. Sadly, their urgent entreaties to 
the United Nations Security Council to take up the cause of 
Haiti fell on deaf ears. President Aristide found himself with 
two unpalatable alternatives: to remain in Haiti and face 
certain death at the hands of armed thugs advancing on Port-au-
Prince, and likely the deaths of many of his supporters or 
others, as well, or resign and accept exile. Now, whatever the 
specifics of his Sunday-morning departure from Haiti, I can't 
blame him for holding the belief that his departure was 
involuntary, nor do I quite fathom how those in the so-called 
democratic opposition, who summarily rejected the U.S.-backed 
CARICOM power-sharing proposal on three different occasions--
which, I might add, would have diffused the political crisis--
are still at the table with U.S. officials and others 
discussing the future of Haiti, while individuals--or the 
individual--who signed on to the CARICOM effort is not and is 
living in exile.
    At the appropriate time, I'm going to ask witnesses this 
afternoon what the U.S. response has been to CARICOM's request 
for an independent international investigation surrounding 
President Aristide's resignation. Whatever the specific 
circumstances of President Aristide's departure, it is 
indisputable, in my view, that the United States played a 
direct and very public role in pressuring him to leave office. 
There was no question that President Aristide made mistakes, 
and serious ones, during his most recent three years in office. 
All of us here recognize that. Poverty, desperation, and 
opportunism bred government corruption. As head of state, 
President Aristide must assume responsibility for those things 
that occurred on his watch. But there is plenty of blame to go 
around for the mess in Haiti.
    The United States and other members of the international 
community must assume, in my view, a heavy responsibility for 
what they did not do in Haiti; namely, help Haitians lift 
themselves from the desperate poverty and ignorance and despair 
which is gripping their country, empowering their government to 
serve them. This is the 21st century, and yet 80 percent of the 
8 million people, who live on the western wing of the island of 
Hispanola, live in abject poverty. Eight out of every ten 
people, per-capita earnings of $440 a year in 2002. To give you 
some measure of the comparison, the per-capita income for all 
of the rest of Latin American and the Caribbean was $3,280 a 
year during the same period of time. Not surprisingly, in such 
circumstances only half of Haiti's children attend school. Only 
about 40, 45 percent can read or write--less than in Iraq, I 
might add.
    A scarcity of resources has also contributed to the public-
health crisis in that nation. More than 15 percent of the 
children don't live past the age of five, and the average life 
expectancy is under 50. Haitians also suffer from the highest 
rate of HIV/AIDS in the Western Hemisphere. Roughly 6 percent 
of the Haitians are infected.
    Mr. Chairman, U.S. foreign assistance in Haiti has fallen 
far, far short of the needs that I have just mentioned. The 
lion's share of U.S. assistance over the last three years has 
been P.L. 480 food assistance, daily feeding programs for 
thousands of Haitians, mothers and children, to help them stave 
off starvation. Child survival and HIV/AID programs 
administered through the NGOs have also been a part of the U.S. 
aid initiative.
    At the moment, Haiti is slated to receive $52 million in FY 
2004 assistance. Put that in perspective for you, that the U.S. 
military intervention back in the mid 1990s cost us $2 billion 
to go in. And I've heard estimates that the protracted cost of 
this recent effort in Haiti is going to cost us somewhere in 
the neighborhood of a billion dollars. Mr. Noriega, I think, 
may take issue with that number, and certainly when he's 
testifying, he can do so. But, nonetheless, when you consider 
$52 million is all we can come up with to assist this 
impoverished country, and yet it's certainly going to cost us 
factors 10 or 20 times that amount in order to bring stability 
there, which could have been avoided, in my view.
    Over the past three years, the administration virtually 
zeroed out all direct U.S. economic assistance programs to the 
Government of Haiti, zeroed out all--all--domestic assistance 
programs. We're kidding ourselves if we think the institutional 
incompetence and corruption in that nation is ever going to be 
seriously addressed, in Haiti or elsewhere, without direct 
assistance.
    Official international financial institutions have acted no 
better, in my view. The poorest nation in this hemisphere has 
been denied access to their resources. The Inter-American 
Development Bank and the World Bank virtually turned off their 
aid spigot to Haiti for the last three years. Four hundred 
million dollars already approved by the IDB loans were 
withheld, with annual Federal revenues of only $273 million in 
expenses, while 361 million--clearly the withholding of these 
funds had a huge consequence on the Haitian economy.
    Finally, under pressure, the IDB relented last July, and 
began the process of restarting its assistance programs to 
Haiti, albeit at a pace that has been inexcusably slow. Under 
less-than-ideal circumstances, there is now underway an effort 
to organize an interim government to govern until elections can 
be organized, as we all know. It is very important, in my view, 
Mr. Chairman, that we all understand that no matter how 
honorable the individuals chosen to serve in this government 
are, they lack electoral legitimacy. It is, therefore, also 
important that any interim government does not overreach its 
mandate by attempting to make fundamental changes to the 
Haitian political landscape, such as the restoration of the 
Haitian armed forces.
    The principal responsibility of this temporary governing 
body must be, in my view, to organize and to conduct 
presidential and parliamentary elections, obviously, with 
significant international assistance and supervision, within 
the next 10 to 12 months. No interim government is going to be 
able to succeed unless lawlessness is brought to an end, and 
order restored. At a minimum, that is not going to happen 
unless armed gangs are disarmed, and quickly.
    To that end, I look forward to hearing how the 
administration intends to respond to those who took up arms 
against the Haitian Government--dangerous individuals, like Guy 
Philippe, a former member of the disbanded Haitian Army, and 
other notorious human rights abusers--who have taken public 
credit for murdering policemen and burning public buildings, 
yet continue to move freely and very publicly throughout Port-
au-Prince.
    As I mentioned earlier, recent events in Haiti call into 
question the administration's commitment to the Inter-American 
Democratic Charter, specifically its obligation to come to the 
collective defense of struggling democracies like Haiti. The 
United States fell far short in recent weeks; others did, as 
well. The question for today's hearing is whether that was a 
temporary lapse or not.
    Our hearing this afternoon, Mr. Chairman, should give the 
administration the opportunity to answer this and important 
questions related to continued involvement in Haiti. And I 
appreciate your indulgence in listening to those opening 
remarks. I have some other suggestions I'll make at a later 
point in the hearing.
    Senator Coleman. Thank you, Senator Dodd.
    With that, I will introduce the second panel: Mr. Roger 
Noriega, Assistant Secretary of State for Western Hemisphere 
Affairs, and Mr. Adolfo Franco, Assistant Administrator for 
Latin America and the Caribbean, USAID.
    Secretary Noriega, you may proceed first.

STATEMENT OF HON. ROGER NORIEGA, ASSISTANT SECRETARY, BUREAU OF 
        WESTERN HEMISPHERE AFFAIRS, DEPARTMENT OF STATE

    Mr. Noriega. Thank you very much, Mr. Chairman. It's a 
pleasure to be here to speak to the subcommittee about the 
topic of Haiti.
    Mr. Chairman, Senator Dodd, Senator DeWine, Senator Graham, 
a chapter in the history of Haiti has just come to a close, and 
the Haitian people are preparing to write a new one. The 
resignation of President Aristide, on February 29th, marked the 
end of a process that, in its early days, held out a bright 
promise to free Haiti from the violence and confrontation that 
has plagued that country since its inception 200 years ago. 
Sadly, that hope remains unrealized. Responsibility for this 
failure resides largely with President Aristide, himself. But 
the task before the United States, working with the 
international community, is to help the 8 million people of 
Haiti break the cycle of political misrule that has caused so 
much misery.
    Mr. Chairman, let me be clear, the history of Mr. 
Aristide's misrule in Haiti proves what we all know to be true, 
that a democratically elected government can undermine its 
democratic legitimacy by the manner in which it governs. 
Nowhere is that principle more firmly enshrined in the 
hemisphere than in the Inter-American Democratic Charter 
itself. That charter is not an a la carte menu, where a 
constitutional government can pick and choose which of the 
essential rights they will honor, and which they will violate, 
which it will respect, and which it will ignore, and then call 
on the solidarity of the international community to bail them 
out when they foul things up so badly that they cannot hold 
onto power. By his actions and his failures to act, Mr. 
Aristide undermined his own ability to govern Haiti.
    I don't want to dwell on Mr. Aristide's legacy, which is a 
very sad one, but I would like to discuss it thoroughly in my 
written statement, which I'll submit for the record.
    Suffice it to say, however, that after all the broken 
promises, it is no wonder that when one of the largest pro-
Aristide gangs turned against him and rose up in rebellion last 
month, the government of Haiti had no effective, let alone 
legitimate, means with which to respond.
    The message to the hemisphere, when the rest of the world 
did not respond to Aristide's demands for international 
support, is that we will work together to help good leaders 
govern well, but we're not under any obligation to help bad 
leaders govern badly. In the end, no country, the United States 
included, was inclined to send forces to sustain the failed 
political status quo in Haiti. President Aristide decided, of 
his own free will, to resign, initiating a constitutional 
process that transferred power to the President of the Supreme 
Court.
    There are several key points that I wish to make regarding 
U.S. policy toward Haiti as we move forward with our 
international partners to help the Haitian people. Number one, 
the United States has been, and will continue to be, a firm 
supporter of democracy in Haiti. That is a cornerstone of our 
policy.
    The United States has been, and will almost certainly 
remain, Haiti's leading provider of economic aid. This aid was 
never suspended or cut off, as some have claimed. Between 1995 
and the year 2003, the United States provided over $850 million 
in assistance in Haiti. This was channeled mostly through non-
governmental organizations because of the corruption that's 
rampant in the government's system under President Aristide.
    Third point, our leadership at the OAS in negotiating 
Resolution 822, in September 2002, helped open a door to the 
normalized relations between Haiti and international financial 
institutions. And since then, IDB loans have begun to flow. We 
will continue to support IFI, international financial 
institution, lending to Haiti based on technical merits.
    Looking forward, our goal is, first, to stabilize the 
security situation and provide emergency humanitarian 
assistance to Haitians, promote the formation of an independent 
government that enjoys broad popular support, and work with 
that government to restore the rule of law and other key 
democratic institutions in Haiti, while encouraging steps to 
improve the difficult economic conditions of the Haitian 
people.
    The United States is not alone in this process. There are 
about 2,400 troops on the ground, mostly U.S., but including 
France, Chile--the Canadians are also on their way. Under the 
terms of the U.N. resolution approved unanimously by the 
Security Council on February 29th, U.S. forces are already 
there as part of this multinational interim force to contribute 
to a secure and stable environment.
    The key elements of the international plan that was 
initiated by CARICOM are, as we speak, being carried out, to 
name a Prime Minister, who will, in turn, form a consensus 
government to lead Haiti forward. This rapid progress is a 
positive sign of a commitment on the part of Haiti's political 
leadership to a constitutional transition and the full return 
of democracy.
    As the multinational interim force ends its mission, we 
will support the U.N. stabilization force called for by the 
U.N. Security Council, and we will work with the United Nations 
and the Organization of American States to help the Haitian 
people begin to rebuild their institutions, starting with the 
Haitian National Police. As I speak, the administration is 
engaged in intensive efforts to achieve these goals.
    Senator Coleman. If you would summarize the rest of your 
testimony, Mr. Noriega, your entire statement will be entered 
into the record.
    Mr. Noriega. I sure will, sir.
    My colleague, Adolfo Franco, of USAID, will testify about 
the varied and comprehensive actions that his agency has taken 
to support this transition effort.
    President Bush has called for a break from the past in 
Haiti. Indeed, we must have a break from the past if Haiti is 
to go forward. That break will not come in the form of a new 
autocrat or demagogue, but by unleashing the incredible 
potential of the Haitian people in a positive and productive 
direction.
    Thank you very much, Mr. Chairman.

    [The prepared statement of Mr. Noriega follows:]

                 Prepared Statement of Roger F. Noriega

    Mr. Chairman, distinguished members, it is a pleasure to appear and 
to speak before this subcommittee today on the topic of Haiti.
    A chapter in the history of Haiti has just come to a close and the 
Haitian people are preparing to write a new one. The resignation of 
President Aristide on February 29 marked the end of a process that in 
its early days held out a bright promise to free Haiti from the 
violence, authoritarianism, and confrontation that has plagued that 
country since its independence two hundred years ago. Sadly, that hope 
remains unrealized. While responsibility for this failure resides 
largely with Aristide himself, the task before the United States, 
working with the international community, is to help the people of 
Haiti break the cycle of political misrule that has caused so much 
misery.
    As we move ahead, it is important that we understand where the 
problems lie. The Haitian people are not to blame for the country's 
poverty and lack of development. Rather, the absence of good 
government, even the will to govern fairly and effectively, lies at the 
heart of the problem. Aristide's legacy of frustrated hope was caused 
as much by what he did not do as by the steps he took. At the end, even 
his supporters in the international community realized that his rule 
had undermined democracy and economic development in Haiti rather than 
strengthened it.
    Mr. Chairman, let me be clear. The history of Mr. Aristide's 
misrule in Haiti proves what we all know to be true--that a 
democratically elected government can forfeit its democratic legitimacy 
by the manner in which it governs. Said another way, being 
democratically elected does not give a leader free license to rule as 
he sees fit. Nowhere is that principle more firmly enshrined in this 
Hemisphere than in the Inter-American Democratic Charter itself. By his 
actions and failures to act, Mr. Aristide undermined his own ability to 
govern Haiti.
    Let's be very clear. U.S. policy in Haiti and throughout the 
Western Hemisphere--indeed the world--is to support democracy and the 
strengthening of democratic institutions. On September 11, 2001, the 
United States joined the 33 other members of the Organization of 
American States--including Haiti--in signing the Inter-American 
Democratic Charter. The creation of the Democratic Charter owed much to 
the hemispheric concern against the undermining of democratic 
institutions in Peru--by an elected government. It acknowledges that 
the essential elements of representative democracy go well beyond 
merely holding elections, and that governments have the obligation to 
promote and defend democratic principles and institutions.
    The commitment to strengthening democracy has been the cornerstone 
of our policy in Haiti since the restoration of Aristide to power--by 
the international community led by the United States--in 1994. This 
process was set back by the highly flawed parliamentary elections of 
June 1995, badly run local elections in April 1997, and fraudulent 
parliamentary elections once again in May 2000. This series of bogus 
electoral exercises, and the Haitian government's unwillingness to 
govern fairly, opened the door to many subsequent acts of political 
violence and intimidation by Aristide against his opponents. Our 
approach in encouraging respect for constitutional processes and good 
governance in Haiti focused on working with our hemispheric partners 
through the OAS and with other friends of Haiti. In June 2001, the OAS 
General Assembly approved Resolution 1831 calling on the Government of 
Haiti to take steps to create an environment conducive to free and fair 
elections as a means of resolving the political crisis created by the 
tainted elections of 2000.
    On December 17, 2001, the Government of Haiti lashed out at its 
opponents with a series of brutal attacks by pro-Aristide thugs on 
persons and property. This led to OAS Resolution 806, which called for 
the creation of an OAS Special Mission to Strengthen Democracy in Haiti 
and for the Aristide regime to take vigorous steps to restore a climate 
of security.
    When the Government of Haiti failed to comply with the terms of 
Resolution 806, the OAS responded with another resolution--822--in 
September 2002. In this resolution, the Government of Haiti again 
committed itself to take a series of actions to promote a climate of 
security and confidence leading to free and fair elections in 2003. I 
was Chairman of the OAS Permanent Council when Resolution 822 was 
approved, and the U.S. delegation did the heavy lifting in negotiating 
the document. Resolution 822 took the key step of calling for the 
normalization of economic cooperation between the GOH and the 
international financial institutions--as a means of providing Haiti 
with further incentive to develop its institutions and promote 
sustainable development.
    In the face of the Haitian Government's non-compliance with the 
terms of these resolutions, the Caribbean Community--CARICOM--and the 
OAS sent a high-level delegation, which included President Bush's 
Special Envoy for Western Hemisphere Affairs, to Haiti in March 2003. 
In September 2003, the United States facilitated the OAS effort to send 
another special envoy to Haiti, Ambassador Terence Todman, to help 
broker a breakthrough in the political stalemate. While all this was 
taking place, the United States donated $3.5M to the OAS Special 
Mission in Haiti to support its work.
    These impressive efforts came to naught. Rather than taking steps 
to build political consensus, reign in the rampant corruption that 
robbed Haitians of their already meager resources, or promote an 
atmosphere of security, Aristide continued to recruit and arm gangs of 
thugs to be unleashed against his opponents. In the process, he 
undermined what little legitimate law enforcement capacity remained in 
the already corrupted and weakened Haitian National Police. U.S. law 
enforcement assistance was essentially limited to support of the 
Haitian Coast Guard, a rare and largely autonomous police unit that 
continued to have professional and competent leadership.
    Further undermining the rule of law and the effectiveness of his 
government, Aristide turned a blind eye to the rampant corruption and 
drug trafficking of those within his circle of power.
    It is no wonder, therefore, that when one of the largest pro-
Aristide gangs turned against him and rose in open rebellion in the 
city of Gonaives last month, the Government of Haiti had no effective, 
let alone legitimate means with which to respond. The rapid collapse of 
Government authority throughout Haiti bore testimony not to the 
strength of the thugs and gangs who sought to bring him down, but to 
Aristide's own failures. By gutting respect for the rule of law and 
reverting to authoritarian practices, he undermined his own legitimacy 
and demeaned the word ``democracy.''
    Under these circumstances, Aristide agreed to what he had 
steadfastly rejected before, a plan that would open the door to 
consensus government and a way forward to resolve Haiti's political 
crisis. This was, of course, the CARICOM Prior Action Plan, with its 
own Plan of Action and endorsement by the United States, France and 
Canada. For Aristide, this change of heart came too late to save his 
government. Nor did his eleventh-hour appeal for foreign military 
intervention garner support in the international community. No country, 
the United States included, was inclined to send forces to sustain the 
failed political status quo in Haiti. In what may eventually be 
considered his finest hour, Aristide decided to resign, initiating a 
constitutional process that transferred power to the President of the 
Supreme Court.
    There are several key points that I wish to make regarding U.S. 
policy toward Haiti--as we move forward with our international partners 
to help the Haitian people:

  1. The United States has been and will continue to be a firm 
        supporter of democracy in Haiti. That is a cornerstone of our 
        policy.

  2. Aristide's departure was never a U.S. demand. We continuously 
        worked with our international partners to break through the 
        political impasse and allow democracy to have a chance. Even 
        France, while calling on February 25 for Aristide's ouster, 
        remained supportive of our efforts to find a negotiated 
        solution. While we were convinced that Aristide was a key 
        obstacle in these efforts, we sought to work with him up until 
        the very end. These efforts were conducted at the highest 
        levels of the United States Government, with Secretary Powell 
        in the forefront.

  3. The United States has been and will almost certainly remain 
        Haiti's leading provider of economic aid. This aid was never 
        suspended or cut off, as some have claimed. Between 1995 and 
        2003, the United States provided over $850 million in 
        assistance to Haiti.

  4. The United States did not cut off assistance to Haiti by the 
        International Financial Institutions (IFIs). Our leadership at 
        the OAS in negotiating Resolution 822 in September 2002 helped 
        to open the door to normalized relations between Haiti and the 
        IFIs and since then IDB loans have begun to flow. We will 
        continue to support IFI loans to Haiti based on their technical 
        merits.

    Looking forward, our goal is first to stabilize the security 
situation and provide emergency humanitarian assistance to Haitians, 
promote the formation of an independent government that enjoys broad 
popular support, and work with that government to restore the rule of 
law and other key democratic institutions in Haiti, while encouraging 
steps to improve the difficult economic condition of the Haitian 
people. The United States is not alone in this process. Under the terms 
of a UN Resolution approved unanimously by the Security Council on 
February 29, U.S. forces are already in Haiti, participating in a 
Multilateral Interim Force to contribute to a secure and stable 
environment. The key elements of the international plan initiated by 
CARICOM are, as we speak, being carried out to name a new Prime 
Minister who will in turn form a consensus government to lead Haiti 
forward. A Tripartite Council and Council of Eminent Persons, both 
preliminary steps to naming the new Prime Minister under the plan, were 
formed within a week of Aristide's resignation. We expect the Council 
of Eminent Persons to nominate the new Prime Minister within a day or 
two. The Prime Minister will form a government, in consultation with 
the Council of Eminent Persons and in agreement with President 
Alexandre, to begin the laborious process of rebuilding Haiti's 
democratic institutions. This rapid progress is a positive sign of 
commitment on the part of Haiti's political leadership to a 
constitutional transition and the return of full democracy.
    As the Multinational Interim Force ends its mission, we will 
support the UN stabilization force called for by the Security Council 
and will work with the UN and OAS to help the Haitian people rebuild 
their institutions, starting with the Haitian National Police. As I 
speak, the administration is engaged in intensive efforts to achieve 
these goals.
    We are forming an inter-agency working group to meet 2-3 times per 
week to forward the many policy initiatives we are pursuing:

  <bullet> Complete multilateral coordination to define the mission and 
        end state of the Multinational Interim Force (MIF) now deployed 
        in Haiti.

  <bullet> Follow up with UN Member States on voluntary contributions 
        to help defray expenses of the MIF.

  <bullet> Address urgent need for disarmament by working with the new 
        Haitian government and the MIF or follow-on UN stabilization 
        force (peacekeeping operation).

  <bullet> Set strategy for reform of police and justice institutions. 
        An integrated approach is the best solution--pursue 
        simultaneous reform and strengthening of police, justice 
        system, and prisons.

  <bullet> Coordinate with and support the UN and OAS Special Mission 
        in efforts to implement reform strategies for police and 
        justice system.

  <bullet> Participate in UN, OAS, and international community efforts 
        to rebuild democratic institutions through human rights 
        training, support of independent electoral commission, 
        political party building, development of legislative capacity.

  <bullet> Consider feasibility of forming a truth and reconciliation 
        commission to examine human rights abuses.

  <bullet> Continue U.S. leadership in forming Haiti's transition 
        government.

    In the shorter term, we are acting to meet the humanitarian needs 
of Haiti's people. My colleague Adolfo Franco of USAID will testify 
about the varied and comprehensive actions his agency is taking. 
Speaking from the Department of State perspective, Ambassador Foley 
issued a disaster declaration on February 18. In response, the Office 
of Foreign Disaster Assistance, a component part of USAID, provided 
approximately $487,000 to support the distribution of emergency relief 
supplies and provide emergency medical supplies. Our total direct 
bilateral assistance for the period 1995-2003 was $850 million, with 
$71 million for fiscal year 2003.
    The administration has also acted to shore up the Haitian National 
Police. In a larger sense, our participation in the Multilateral 
Interim Force (by far the largest of those countries now participating) 
and the follow-on UN stabilization force will serve as a security 
umbrella for the Haitian National Police (HNP) while we help to reform 
and strengthen it. But we have also acted in the short term. President 
Alexandre has appointed a new police chief, Leon Charles, a man of 
proven integrity and ability, and we will continue to encourage 
positive change and reform within the HNP leadership. We have provided 
material assistance and supplies to the Haitian Coast Guard, which has 
proven to be a reliable partner with the U.S. Coast Guard in conducting 
repatriations and cooperating on security matters.
    President Bush has called for a ``break from the past'' in Haiti. 
Indeed there must be a break from the past if Haiti is to move forward. 
That break will not come in the form of a new autocrat or demagogue but 
by unleashing the incredible potential of the Haitian people in 
positive and productive directions. Nowhere is there written that the 
Haitian people must be poor or ruled by tyrants. They deserve leaders 
worthy of their trust and respect, who favor the common good over 
personal gain. The rule of law must be upheld. Those responsible for 
crimes and abuses must be punished. Gangs and thugs cannot be allowed 
to hold sway. Support from the United States and the international 
community can help--and they will have it--but the long-term job of 
building Haitian democracy is up to the Haitians themselves. They, 
above all people in our hemisphere, deserve some success.

    Senator Coleman. Thank you, Secretary Noriega.
    Administrator Franco.

   STATEMENT OF HON. ADOLFO FRANCO, ASSISTANT ADMINISTRATOR, 
  BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Franco. Thank you, Mr. Chairman, members of the 
committee. It's a pleasure to appear before the Senate 
Committee on Foreign Relations to discuss with you the 
unfolding humanitarian situation in Haiti, and USAID's 
continuing efforts to help the Haitian people realize their 
dream of peace, prosperity, and democracy.
    I've submitted my complete statement for the record, Mr. 
Chairman, and, with your permission, I will summarize that 
statement.
    Senator Coleman. I appreciate that; thank you.
    Mr. Franco. Mr. Chairman, the conflict in Haiti since early 
February has severely restricted the movement of commercial 
goods and relief supplies, including food, fuel, and medical 
stocks. This has hindered USAID's ability to distribute food 
assistance to those populations which we normally serve.
    Mr. Chairman, I returned from Haiti last night, where I met 
with Ambassador Foley, representatives of other donor 
organizations, and with major non-governmental organizations 
which provide relief supplies. Access and distribution remain 
major obstacles for both humanitarian deliveries and regular 
commercial activity. USAID and its implementing non-
governmental organization partners report that the primary 
humanitarian concern continues to be a lack of security. This 
impedes safe passage for the transportation and distribution of 
relief supplies that include fuel, water, and other 
commodities. Enhanced security will enable USAID and its 
partners to resume normal distribution of food and medical 
supplies and implement programs to address Haiti's immediate-, 
medium-, and long-term needs.
    Mr. Chairman, USAID and its partners have now conducted 
assessment trips to a number of places in Haiti, including Cap-
Haitien, Port-de-Paix, and Jeremie. USAID is using light 
aircraft to transport its assessment teams, and, in some cases, 
making use of these aircraft to deliver needed supplies to 
organizations outside the capital, particularly in the rural 
northwest.
    Based on the best information available to us and to our 
partner organizations, I want to make it clear, though, Mr. 
Chairman, that Haiti currently has enough food to feed its 
people, although vulnerable populations, including the very 
young and very old are beginning to feel the effects of several 
weeks of disruption in the food transportation and distribution 
system. To meet these needs, Mr. Chairman, USAID estimates that 
with the 20,000 metric tons of food and commodities we have in 
Haiti, and by working with our partner organizations, that we 
will be able to continue our efforts once the security 
situation is fully stabilized.
    You may have read that some of this food was looted during 
the recent unrest, on February 29th, but I'm pleased to report 
to you that I visited the port facilities yesterday, and that 
under 10 percent of USAID's food stocks were looted. The 
majority of our food remains intact and is in secure storage in 
Port-au-Prince, under Marine guard.
    Mr. Chairman, the interruption of basic health services, 
particularly in the north, due to insecurity and poor road 
conditions, represents another point of concern. Recent 
assessments by USAID have led to the conclusion that the 
current health situation in Haiti is not at an emergency level, 
although there are acute shortages of medical supplies, 
including antibiotics and oxygen tanks in many health 
facilities around the country.
    To meet the needs in the health sector, USAID has sent 
large amounts of medical supplies to Haiti in recent days and 
has provided a grant to the Pan American Health Organization 
for additional supplies. In addition, the International 
Committee of the Red Cross has increased its staff size, and is 
currently providing medical services free of charge in several 
facilities, including Canape Vert Hospital in Port-au-Prince. 
Mr. Chairman, USAID has responded quickly to the potential for 
a humanitarian crisis in Haiti. Although there is a significant 
humanitarian concern, we do not have a crisis in the country at 
the present time.
    When U.S. Ambassador Foley declared a disaster, on February 
18th, because of the insecurity, the USAID Office of Foreign 
Disaster Assistance provided $50,000 to transport and 
distribute emergency relief supplies, including 12 medical kits 
and 3 surgical kits. These kits are equipped to serve 10,000 
people each for approximately 3 months. In addition, USAID 
approved $400,000 in funding for the Pan American Health 
Organization to purchase additional medical supplies and to 
conduct emergency relief services in Haiti.
    In conclusion, Mr. Chairman, USAID continues to monitor the 
situation in Haiti closely, and we're working to meet the most 
critical needs as expeditiously as we can. We're also working 
with other agencies and our implementing partners to develop a 
post-conflict program strategy that will ensure the continued 
provision of emergency relief, which remains our paramount 
concern, and to improve basic services and generate productive 
employment over the immediate-, short-, and medium-term.
    Thank you very much, Mr. Chairman.

    [The prepared statement of Mr. Franco follows:]

                 Prepared Statement of Adolfo A. Franco

    Mr. Chairman, members of the committee, it is a pleasure to appear 
before the Senate Foreign Relations Committee, Subcommittee on Western 
Hemisphere, Peace corps and Narcotics Affairs, to discuss with you the 
unfolding humanitarian situation in Haiti and USAID's continuing 
assistance with helping the Haitian people realize their dream of 
peace, prosperity and democracy. The central focus of my remarks is on 
what USAID is doing through our humanitarian assistance programs to 
mitigate the effects of the social and political unrest on the most 
vulnerable segments of Haiti's population. This statement is an update 
of my presentation of March 3, 2004 to the House Committee on 
International Relations. This testimony reflects current events in 
Haiti, especially in the aftermath of President Aristide's resignation 
and departure from Haiti. The political situation remains fluid and the 
potential continues for further civil unrest and violence perpetrated 
by armed gangs. This is evident by Sunday's recent events with the 
demonstrations which lead to the deaths of four individuals including a 
foreign journalist, and 20 others wounded.

                             FOOD SECURITY

    The ongoing political turmoil and economic deterioration in Haiti 
have created the potential for a humanitarian crisis and have affected 
numerous aspects of development such as food security, health and 
nutrition, and water and sanitation. While sufficient food stocks are 
currently in-country and no immediate food crisis exists at present, 
this could change quickly in coming weeks, especially in the north, due 
to insecurity and disruptions in the transportation and distribution 
system. USAID currently has in storage more than 11,000 metric tons of 
P.L. 480 Title II food commodities for direct food distribution to 
Haiti's indigent populations and children's orphanages throughout the 
country. Most of the food stocks are under secured storage in Port-au-
Prince. The World Food Program and European Union also have available 
for distribution, stocks of at least 5,000 metric tons, and 3,100 tons 
respectively.

                          HUMANITARIAN PROGRAM

    The U.S. Government through USAID is Haiti's largest bilateral 
donor. In FY 03, USAID contributed $71 million. Through fiscal years 
1995-2003, USAID provided a total of $850 million in direct bilateral 
assistance. Prior to the outbreak of violence, USAID had planned $52 
million in assistance in FY 04 to programs ranging from health, 
democracy and governance, education and economic growth. We are 
currently analyzing additional assistance options. To ensure that 
quality service delivery continues to benefit those Haitians who are 
most in need, USAID assistance is channeled principally through NGOs. 
USAID is also the lead donor in addressing critical transnational 
issues such as HIV/AIDS and other debilitating infectious diseases, a 
seriously degraded natural resource base, respect for human rights and 
the rule of law, and trafficking in persons.
    USAID uses food aid both to supplement its humanitarian program and 
as a development tool. P.L. 480 Title II funds account for more than 
one-half of USAID/Haiti's funding. This food-assisted program promotes 
improvements in household food security, nutrition, and the welfare of 
women, children, and poor, marginal farmers in six out of the nine 
districts of Haiti--affecting the lives of 640,000 poor Haitians. 
Emergency response is also critical. Last year, over $3 million in 
emergency assistance was provided to communities affected by drought 
and flooding.

                   CIVIL UNREST AND THE USAID PROGRAM

    Lawlessness continues and the situation remains fluid following the 
resignation of Aristide and the appointment of Supreme Court Justice, 
Boniface Alexandre as the interim President. The presence of 
international security forces has already improved the security 
situation in country. Nonetheless, there are a significant number of 
weapons in the hands of armed gangs in Haiti, and there have been 
violent conflicts between opposition protestors and supporters of the 
former Aristide government, as well as, widespread looting, and 
robberies of civilians at roadblocks throughout the capital. On March 
7, violence broke out during a protest in the capital city of Port-au-
Prince, resulting in at least four deaths and at least 20 injuries. 
Aside from this most recent indication of unrest, the situation in 
Port-au-Prince has been relatively calm. According to the U.N. Office 
for the Coordination of Humanitarian Affairs (UNOCHA), the situation in 
Port-au-Prince is returning to normalcy, as public transport has 
resumed and the security situation has become more stabilized. However, 
some public services, including the provision of water, electricity, 
and communications, are not functioning at normal levels. Basic health 
services are also inadequate.
    Increasing conflict since early February has severely restricted 
movement of commercial goods and relief supplies, including food, fuel, 
and medical supplies, creating difficult conditions in some areas, and 
for those normally dependent on food assistance. Access and 
distribution remain major obstacles for both humanitarian deliveries 
and regular consumption. USAID and its implementing partners continue 
to report that the primary humanitarian concerns at present stem from 
limited access, security, and unsafe passage for transporting and 
distributing relief supplies, fuel, water, and food commodities. There 
appears to be no massive shortages of food or other essential 
commodities at this time as Haiti benefited from good harvests over the 
last two agricultural seasons. However, an accurate assessment of the 
situation outside of Port-au-Prince has just begun.
    Food Availability: USAID's NGO development food aid partners and 
the U.N. World Food Program (WFP) currently have approximately 15,000 
metric tons (MT) of food stocks in country. The European Union (EU) has 
2,500 MT at a warehouse and 600 MT at the port in Port-au-Prince. There 
is also an additional 2,000 MT available from other donors. Thus the 
total amount of food assistance available from all donors is 
approximately 20,000 MT. There are no massive shortages of food or 
other essential commodities in Haiti at this time. Pockets of food 
insecurity have been reported, and orphanages and institutional feeding 
programs in urban areas are vulnerable to prolonged food shortages; 
however, USAID and cooperating sponsors are not requesting emergency 
programs.
    Due to poverty and chronic malnutrition in Haiti, some segments of 
the Haitian population are vulnerable to severe malnutrition. However, 
daily reports from USAID's four partners in Haiti--CARE, Save the 
Children Foundation (SCF), World Vision International (WVI), and 
Catholic Relief Services (CRS)--indicate that none believe the 
situation requires re-programming of planned food assistance. Region-
specific reports from food aid organizations are summarized as follows:

  <bullet> WVI does not anticipate a food crisis erupting in its 
        targeted areas of Central Plateau and Ile de la Gonave, even if 
        distributions stop for a short time because of the strong 
        coping mechanisms among the populations and the good December 
        harvest. WVI is currently operating at 100 percent on Ile de la 
        Gonave.

  <bullet> CRS reported that food supplies for orphanages in Haiti are 
        limited and some orphanages have begun to run out of food. CRS 
        is considering using existing funds to purchase food on the 
        local market for vulnerable orphanages.

  <bullet> On February 22, looters broke into a WFP warehouse in Cap-
        Haitien and took 800 metric tons (MT) of food stocks, mainly 
        vegetable oil and pulses. Despite the loss of food stocks, WFP 
        estimates that it still has sufficient stocks either in Haiti 
        or en route to the country to provide assistance to 373,000 
        people.

  <bullet> WFP reported that the shipment of 1,200 MT of rice scheduled 
        to arrive at the Cap-Haitien port is on hold until the security 
        situation improves. According to WFP, a total of 268,000 people 
        are in need of food in the north and northeast, where prices 
        have increased since early February.

  <bullet> USAID and WFP have undertaken a rapid assessment in Cap-
        Haitien to identify current needs in schools and health 
        centers. WFP is also preparing a six-month Emergency Operation 
        (EMOP) to provide assistance to the most affected people in the 
        north areas of the country. WFP's assistance, in partnership 
        with other agencies, aims to ensure that children and their 
        families meet daily nutritional needs in order to prevent a 
        decline in their nutritional status.

    Fuel Availability: Fuel is vital not only for transport, but also 
for the continued operation of facilities and equipment such as 
hospitals, bakeries, and freight moving equipment at ports. According 
to the fuel companies, there is currently enough fuel in storage in 
Port-au-Prince to supply the country for two to three weeks, but the 
International Federation of Red Cross and Red Crescent Societies (IFRC) 
are concerned that fuel shortages may lead to the shutdown of the 
Capital's electrical plant and water treatment station. CARE reported 
that there is a potable water crisis in Gonaives due to a lack of fuel. 
Although CARE has food stocks in Port-au-Prince, the organization lacks 
fuel for transportation, particularly for food distributions in the 
north.
    Medical Supplies: A major humanitarian concern at present is the 
interruption of basic health services, particularly in the north. The 
ability to purchase and transport drugs and fuel to health facilities 
nationwide has been disrupted in major population centers due to the 
sporadic access to banks and insecure travel on the roads. The ICRC has 
been organizing regular convoys to both Gonaives and Cap-Haitien in 
cooperation with the Haitian Red Cross, and ICRC medical teams have 
also been stationed at facilities in these cities.
    It is not clear at this time how many medical facilities have been 
affected by the recent unrest. Reports from the Hopital Communaute 
Haitienne in the Capital indicate that there is an increase in the 
number of trauma patients at the hospital and care is hindered by fuel 
shortages for generator power and lack of surgical and medical kits. 
Similar disruptions of supplies are occurring in Gonaives and other 
areas.
    Currently there are no reports of an outbreak of the six major 
childhood vaccine-preventable diseases. However, increased cases of 
diarrhea and fever have been reported throughout the country. The 
Expanded Program on Immunization (EPI) has sentinel sites in Haiti, of 
which 30 percent to 40 percent are still functional and operating.
    A Pan American Health Organization (PAHO) epidemiologist recently 
arrived in Haiti to reactivate the health surveillance system, as Haiti 
lacks adequate surveillance data from health facilities throughout the 
country. PAHO will monitor data on measles outbreaks, polio, 
diphtheria, typhoid, and violence, as well as acute malnutrition. 
According to PAHO, there is a shortage of tuberculosis (TB) drugs and a 
disruption of TB programs in the north. Medicins Sans Frontieres-
Belgium is requesting TB drugs from PAHO.
    Port-de-Paix Assessment: On March 5, representatives of USAID/OFDA, 
USAID/FFP, U.N. World Food Program (WFP), U.N. Children's Education 
Fund (UNICEF), and CARE conducted an assessment of the humanitarian 
situation in the city of Port-de-Paix, located on the northwestern 
coast. The assessment indicated that looters broke into the city's 
Department of Health office, and the vaccines in the cold chain may 
have been compromised. There have been no reports of measles or any 
other disease outbreak in Port-de-Paix. Access to food is also becoming 
difficult for the poorest segments of the population, particularly 
since the suspension of WFP food distributions. Food prices have 
reportedly increased from 25 to 100 percent. Some fuel is available on 
the market, though the cost of one gallon has increased from 
approximately 23 Haitian dollars to 80 Haitian dollars. Lack of fuel 
has affected the city's electricity supply and hindered the local 
hospital's ability to sterilize equipment and thereby perform major 
surgeries.
    Les Cayes Assessment: On March 5, representatives from USAID/OFDA, 
USAID/Haiti, CRS, and UNICEF conducted an assessment of the 
humanitarian situation in the southwestern town of Les Cayes. The 
humanitarian situation has not deteriorated significantly as a result 
of the recent political unrest, and the only sector currently affected 
appears to be fuel.
    Displaced Populations: USAID and its NGO partners continue to 
report very limited displacement and no ``sites'' with concentrations 
of internally displaced persons (IDPs). According to the U.N. Office 
for the Coordination of Humanitarian Affairs (UNOCHA), numbers of IDPs 
cannot be accurately assessed at present. However, UNOCHA notes that 
significant numbers of residents are moving from insecure cities to 
other areas or returning to their places of birth in the mountains. 
Movements have also been reported from rural areas to main cities.
    On February 23, the Government of the Dominican Republic (GODR) 
indicated that the Dominican Republic does not have structures in place 
to manage a migratory wave of refugees. The GODR also noted that 
Dominican authorities have closed the border with Haiti along critical 
points. On February 24, the GODR sent 1,200 additional troops to patrol 
its border with Haiti. The GODR has declined to state the total number 
of troops along the 225-mile border. According to the U.N. High 
Commissioner for Refugees, approximately 400 Haitians have fled to the 
DR, Jamaica, and Cuba since early February 2004.
   u.s. government humanitarian response to haiti's political crisis
  <bullet> On February 18, U.S. Ambassador to Haiti James B. Foley 
        issued a disaster declaration due to the ongoing complex 
        emergency in Haiti. As an initial response to the situation, 
        OFDA has provided $50,000 through USAID/Haiti to support the 
        transport and distribution of emergency relief supplies, 
        including 12 medical kits and three surgical kits, valued at 
        approximately $87,000. Each medical kit is equipped to serve 
        10,000 people for approximately three months. On February 26, 
        the medical kits arrived in Port-au-Prince. In addition, OFDA 
        approved $400,000 in funding for PAHO to purchase additional 
        medical supplies and to conduct emergency relief activities in 
        Haiti.

  <bullet> On February 24, OFDA deployed a three-person team to Port-
        au-Prince, including a Senior Regional Advisor as Team Leader, 
        a Health Officer, and an Information Officer.

  <bullet> OFDA has contracted with Airserve for two to three aircraft 
        to move relief personnel and light cargo around Haiti if 
        required in the coming days and weeks.

  <bullet> USAID/Food For Peace has significant amounts of additional 
        food stocks which can be transported to Haiti by sea for food 
        assistance within 7-14 days if needed.

  <bullet> OFDA has awarded a grant in the amount of $400,000 to CRS 
        for local procurement and emergency cash grants to institutions 
        serving vulnerable populations such as orphanages and 
        hospitals.

  <bullet> The U.S. Embassy in Port-au-Prince is currently developing a 
        security asset plan that will address protection of people and 
        USG buildings, transport of goods and people, and security of 
        NGO partners, such as CRS, WVI, CARE, and Save the Children. A 
        top priority of the security asset plan is to secure and 
        protect the airport and port in the Capital.

  <bullet> There are approximately 15,000 MT of USG-procured food 
        commodities immediately available for distribution in Haiti. 
        USAID will continue to work with other members of the donor 
        community to mobilize the additional resources required for the 
        Haiti post-conflict effort.

                               CONCLUSION

    In sum, the United States and the international community continue 
to stand with the people of Haiti. USAID is closely monitoring the 
humanitarian impact of the current political crisis in Haiti. With the 
presence of international forces in Haiti, the security situation has 
improved significantly, and normalcy is slowly returning to the 
Capital, Port-au-Prince, and other affected areas. Also, the delivery 
of humanitarian assistance has improved. USAID/Haiti and OFDA personnel 
are continuing to assess the situation, in order to deploy assistance 
where it is most urgently needed. Further, USAID is collaborating with 
the interim government of Haiti, other USG Agencies, donors, and 
implementing partners to develop a post-conflict program strategy that 
will ensure the continued provision of emergency relief and improved 
basic services, and generate productive employment over the immediate, 
short and medium-term. In addition, USAID is working with other donors 
to jointly identify long-term priorities in Haiti.
    Mr. Chairman, this concludes my testimony.

    [Additional information submitted by Mr. Franco follows:]

               U.S. Agency for International Development

   bureau for democracy, conflict, and humanitarian assistance (dcha)
           office of u.s. foreign disaster assistance (ofda)
                                 ______
                                 

                        Haiti--Complex Emergency

       FACT SHEET NUMBER 5, FISCAL YEAR (FY) 2004 / MARCH 9, 2004

Background
  <bullet> Haiti's 200-year history has been marked by political 
        instability and weak institutional capacity, resulting in a 
        severely debilitated economy and an impoverished population. 
        The current complex emergency is rooted in the country's 
        inability to resolve a four-year political impasse. Following a 
        military coup that ousted elected President Jean-Bertrand 
        Aristide in 1991, the international community intervened 
        militarily to restore Aristide to power in 1994. In May 2000, 
        Aristide's party, Lavalas Family, claimed an overall victory in 
        disputed legislative and municipal elections. In November 2000, 
        the opposition boycotted the presidential election that 
        Aristide won unopposed with low voter turnout. On December 17, 
        2001, the crisis escalated as armed commandos stormed the 
        presidential palace in Port-au-Prince in an assault that the 
        Government of Haiti (GOH) characterized as an attempted coup 
        d'etat.

  <bullet> The electoral controversy paralyzed the Aristide 
        administration, and Aristide lost popular support due to the 
        inability of the government to attract investment to the 
        country, create jobs, or reduce poverty. As a result, growing 
        lawlessness, instability, and politically-motivated violence 
        began to overwhelm the country in 2002.

  <bullet> In late 2003, anti-government demonstrations in Port-au-
        Prince, Gonaives, Petit-Goave, and other towns began to 
        increase in size, frequency, and violence. The most recent 
        surge in conflict and violence began on February 5, 2004, when 
        members of armed opposition groups seized control of Gonaives, 
        Haiti's fourth-largest city. Armed groups opposed to former 
        President Aristide expanded their control throughout parts of 
        the Central, North, Artibonite, Northeast, and South 
        departments. The democratic opposition has distanced itself 
        from the armed groups. Since the takeover of Gonaives, 
        approximately 130 people have been killed in the violence.

  <bullet> On February 29, Jean-Bertrand Aristide resigned from the 
        presidency. In accordance with the Haitian constitution, 
        Supreme Court Chief Justice Boniface Alexandre was sworn in as 
        President of an interim government. Prime Minister Yvon Neptune 
        will retain his post until a new Prime Minister is selected.

Situation Overview
  <bullet> Structural and institutional weaknesses in Haiti, closely 
        linked to the country's historical, socio-economic, and 
        agricultural development, have had long-term effects on 
        numerous aspects of Haiti's development, such as food security, 
        water and sanitation, health, and nutrition. For many years, 
        Haiti has been the poorest country in the Western Hemisphere, 
        and is currently the only Least Developed Country in the 
        Western Hemisphere. The country was ranked 150th out of 173 
        countries in the 2003 United Nations (U.N.) Development Program 
        Human Development Report.

  <bullet> Due to the ongoing and chronic nature of Haiti's 
        underdevelopment, the country is vulnerable to rapid 
        deterioration of humanitarian indicators in a complex 
        emergency. However, certain impacts of a complex emergency, 
        such as malnutrition, are not sudden-onset situations and 
        typically require several months to develop. Two important 
        factors may contribute to food insecurity in Haiti: rising or 
        unstable prices, and a drop in remittances. Haiti is heavily 
        dependent on remittances, receiving an estimated $800 million 
        on average annually. In addition to food insecurity, the rising 
        incidence of disease and displacement may also contribute to a 
        humanitarian crisis. USAID and its implementing partners are 
        monitoring all of these indicators as closely as possible.

  <bullet> The U.S. Government (USG), through USAID, is Haiti's largest 
        bilateral donor. In FY 2003, USAID contributed $71 million. 
        From FY 1995 to 2003, USAID provided a total of $850 million in 
        direct bilateral assistance. For FY 2004, USAID has planned $52 
        million in assistance for programs including health, democracy 
        and governance, education, and economic growth. To ensure the 
        provision of assistance to Haitians most in need, USAID 
        assistance is channeled principally through non-governmental 
        organizations (NGOs). The USG provides food and food-related 
        assistance directly and indirectly to 640,000 Haitians.

Current Situation
            Security/Political
  <bullet> On February 29, the U.N. Security Council authorized the 
        immediate deployment of an international military force to 
        restore order in Haiti. The U.S. has assumed initial control of 
        the multinational force. Troops from other countries will 
        support the military force, followed by a longer-term U.N. 
        peacekeeping mission. There are approximately 1,750 U.S. 
        troops, 600 French troops, 400 Chilean troops, and a small 
        contingent of Canadian troops in Haiti. The troops have spread 
        out throughout Port-au-Prince to secure key areas and 
        facilities, including the presidential palace, the airport, and 
        foreign embassies. On March 5, U.S. troops in Haiti moved for 
        the first time beyond the capital to Gonaives and Cap-Haitien. 
        The troops will assess the needs of the Haitian national police 
        in the two cities and determine the possible scope of future 
        international troop deployments.

  <bullet> On March 4, the Organization of American States (OAS) 
        announced the establishment of the Tripartite Council, 
        appointed by the GOH, the Democratic Platform coalition, and 
        the international community. Council members include Leslie 
        Voltaire, the Minister of Haitians Living Abroad; former 
        Senator Paul Denis, a member of the Democratic Platform 
        coalition; and Adama Guindo, the U.N. Resident Representative 
        in Haiti. The Tripartite Council has selected the seven members 
        of the Council of Wise Men, which in turn will propose a new 
        Prime Minister to interim President Alexandre.

  <bullet> On March 7, violence broke out during a protest in Port-au-
        Prince, resulting in at least six deaths and at least 30 
        injuries. On March 8, hundreds of looters targeted an 
        industrial park near the Port-au-Prince airport and threatened 
        passing cars with machetes. International media reported that 
        multinational security forces were not stationed in the 
        vicinity during the disturbance. Armed opposition leader Guy 
        Philippe stated on March 8 that armed combatants would take up 
        arms if the multinational security force is unable to disarm 
        the chimeres, or armed Aristide supporters.

  <bullet> On March 8, former President Jean-Bertrand Aristide declared 
        from exile in the Central African Republic that he was still 
        the President of Haiti, and called for ``peaceful resistance'' 
        in Haiti. Interim President Alexandre was officially 
        inaugurated on March 8.

  <bullet> On March 8, the U.N. announced that an assessment team is 
        scheduled to arrive in Haiti on March 9 to help prepare for the 
        deployment of a peacekeeping mission to the country by June 1. 
        The team will make recommendations to U.N. Secretary-General 
        Kofi Annan regarding the size and composition of the mission.

            Humanitarian Assessments
  <bullet> Port-au-Prince port assessment: On March 5, USAID/Haiti 
        officials and a USAID/OFDA team member conducted an assessment 
        of the Port-au-Prince port. There are initial indications that 
        looters stole approximately 10 percent of USG-funded food 
        stocks. As of March 6, U.S. Marines have secured the port area 
        where P.L. 480 food commodities are stored. On the evening of 
        March 6, U.S. Marines exchanged gunfire with would-be looters. 
        Warehouse officials are attempting to conduct a full assessment 
        of current food stockpiles; however, this assessment could be 
        hindered if insecurity recurs in the port area. Non-
        governmental organizations, including CARE, Catholic Relief 
        Services (CRS), and Save the Children-U.S. (SCF-U.S.), will 
        attempt to move their containers out of the port as security 
        permits.

  <bullet> Port-de-Paix assessment: On March 5, representatives of 
        USAID/OFDA, USAID Office of Food for Peace (USAID/FFP), U.N. 
        World Food Program (WFP), U.N. Children's Education Fund 
        (UNICEF), and CARE conducted an assessment of the humanitarian 
        situation in the city of Port-de-Paix, located on the 
        northwestern coast. The results of the assessment indicated 
        that there is a lack of security in the city, as eight separate 
        armed groups are intimidating and extorting money from the 
        local population. A committee of notables acts as a liaison 
        between the population and the armed groups; however, this 
        group has no legal authority.
     The Port-de-Paix assessment also indicated that looters broke into 
        the city's Department of Health office, and the vaccines in the 
        cold chain may have been compromised. There have been no 
        reports of measles or any other disease outbreak in Port-de-
        Paix. Since major flooding in December 2003 destroyed Port-de-
        Paix's water infrastructure, the city has had a water shortage. 
        Access to food is also becoming difficult for the poorest 
        segments of the population, particularly since the suspension 
        of WFP food distributions. Food prices have reportedly 
        increased from 25 to 100 percent. Some fuel is available on the 
        market, though the cost of one gallon has increased from 
        approximately 23 Haitian dollars to 80 Haitian dollars. Lack of 
        fuel has affected the city's electricity supply and hindered 
        the local hospital's ability to sterilize equipment (and 
        thereby perform major surgeries).

  <bullet> Les Cayes assessment: On March 5, representatives from 
        USAID/OFDA, USAID/Haiti, CRS, and UNICEF conducted an 
        assessment of the humanitarian situation in the southwestern 
        town of Les Cayes. The security situation in the town is 
        fragile, with narcotic traffickers reportedly influencing local 
        events. The humanitarian situation has not deteriorated 
        significantly as a result of the recent political unrest, and 
        the only sector currently affected appears to be fuel.
     The poor water situation in Les Cayes pre-dates the current 
        political crisis. The water needs to be treated with chlorine, 
        but there is a lack of public education on water safety. CRS 
        stated that there have been some cases of typhoid and diarrheal 
        diseases as a result of the lack of potable water. Health 
        problems in Les Cayes are also chronic and due mainly to the 
        lack of potable water. Food insecurity in the town appears to 
        be primarily due to a lack of purchasing power among some of 
        the population, particularly in the poor area of La Savanne. 
        Food prices have increased in Les Cayes by approximately 30 
        percent.

  <bullet> Cap-Haitien assessment: On March 8, the USAID/OFDA 
        assessment team traveled to Cap-Haitien with representatives of 
        WFP, UNICEF, CRS, and CARITAS to assess the humanitarian 
        situation. The assessment team cited fuel as the main concern 
        in Cap-Haitien, as in the other towns previously assessed. 
        Though fuel stations remain open, the price of fuel has 
        increased from 17 Haitian dollars to between 60 and 80 Haitian 
        dollars. Stores and schools are also open in the city. No WFP 
        food stocks currently remain in Cap-Haitien. Since the recent 
        crisis began in early February, looters have stolen 800 MT of 
        assorted food commodities from the WFP warehouse, in addition 
        to 15,000 bags of commercial rice from the port. No major 
        shipment of food, commercial or humanitarian, has arrived in 
        Cap-Haitien since the current political unrest began.

  <bullet> The USAID/OFDA team met with the International Committee of 
        the Red Cross (ICRC) in Cap-Haitien on March 8. According to 
        ICRC, the priority areas for the provision of humanitarian 
        assistance in Cap-Haitien, and the northern department in 
        general, are as follows: fuel, vaccines (the re-supply of 
        vaccines as well as fuel to maintain the cold chain), security 
        for the ``humanitarian corridor'' from Port-au-Prince to Cap-
        Haitien to allow for the transport of food and relief supplies, 
        oxygen for hospitals, and security for hospitals.

            Food
  <bullet> USAID's NGO development food aid partners and WFP currently 
        have nearly 15,000 metric tons (MT) of food stocks in country. 
        The European Union (EU) has 2,500 MT of food at a warehouse and 
        600 MT at the port in Port-au-Prince. Other donors have an 
        estimated 2,000 MT available. Thus, the total amount of food 
        assistance available from all donors is approximately 20,000 
        MT.

  <bullet> WFP is preparing a six-month Emergency Operation (EMOP) to 
        provide assistance to the most affected people in the north 
        areas of the country. WFP's assistance, in partnership with 
        other agencies, aims to ensure that children and their families 
        meet daily nutritional needs in order to prevent a decline in 
        their nutritional status. WFP is also preparing a Special 
        Operation (SO) to increase logistics and communications 
        capacity.

  <bullet> On March 5, WFP delivered between 12 and 16 MT of food 
        rations to a hospital and orphanage in Port-au-Prince. This 
        marked WFP's first food distribution since the outbreak of 
        unrest in the country in early February 2004. WFP indicated 
        that, if the security situation does not deteriorate, WFP will 
        carry out its planned March distributions to 66,000 people at 
        23 health centers in the capital. All of the 94 schools in 
        Port-au-Prince that normally benefit from WFP food 
        distributions remain closed.

            Health
  <bullet> According to assessments by the USAID/OFDA team, the current 
        health situation in Haiti is not at an emergency level. 
        However, the health care system is experiencing a rupture in 
        supplies, due to the insecure environment that exists for drug 
        deliveries and a lack of health staff reporting to work due 
        insecurity. The poor public health infrastructure is a chronic 
        problem that needs to be addressed as soon as possible.

  <bullet> The ICRC surgical team working at Canape-Vert Hospital in 
        Port-au-Prince is providing treatment free of charge for the 
        wounded. The numbers of injured had decreased, until the 
        outbreak of violence in Port-au-Prince on March 7. On March 4, 
        ICRC brought in surgical supplies from the Dominican Republic 
        to establish a supplementary operating theatre at Canape-Vert 
        Hospital. Additional beds have also been installed, bringing 
        the total number to 100. ICRC has provided surgical kits (each 
        kit contains supplies for 100 surgeries) to hospitals in Cap-
        Haitien, Gonaives, Jacmel, and Port-au-Prince. On March 6, an 
        ICRC convoy traveling from the Dominican Republic across the 
        Dajabon-Ouanaminthe border arrived in Gonaives with a generator 
        for the city's public hospital. The convoy also carried fuel 
        for National Society ambulances and ICRC vehicles. ICRC plans 
        to bring a surgical team to the hospital in Gonaives, security 
        permitting.

U.S. Government Response
  <bullet> From February 9 to 11, the USAID/OFDA Senior Regional 
        Advisor and a USAID/OFDA Regional Advisor traveled to Port-au-
        Prince to assist USAID/Haiti and partner organizations with 
        contingency planning for humanitarian assistance.

  <bullet> On February 18, U.S. Ambassador to Haiti James B. Foley 
        issued a disaster declaration due to the ongoing complex 
        emergency in Haiti. In response, USAID/OFDA has provided 
        $50,000 through USAID/Haiti to support the transport and 
        distribution of emergency relief supplies, including 12 medical 
        kits and three surgical kits, valued at approximately $87,000. 
        Each medical kit is equipped to serve 10,000 people for 
        approximately three months. On March 4, USAID/OFDA distributed 
        one medical kit each to Medecins Sans Frontieres (MSF), CRS, 
        and World Vision International (WVI), and nine kits to the Pan 
        American Health Organization (PAHO)-supported PROMESS 
        warehouse. The PROMESS warehouse will store the nine kits on 
        behalf of Management Sciences for Health (MSH), PAHO, and 
        USAID/OFDA. USAID/OFDA has also approved $400,000 in funding 
        for PAHO to purchase additional medical supplies and to conduct 
        emergency relief activities in Haiti. In addition, USAID/OFDA 
        has approved $412,287 for CRS for emergency cash grants to 
        support local institutions and provide services for most 
        vulnerable populations.

  <bullet> On February 24, USAID/OFDA deployed a three-person team to 
        Port-au-Prince, including a Senior Regional Advisor as Team 
        Leader, a Health Officer, and an Information Officer. On March 
        7, a Military Liaison Officer joined the team in Port-au-
        Prince.

  <bullet> USAID/OFDA has provided $340,981 to Air Serv for emergency 
        air transport. On March 3, two light planes contracted by 
        USAID/OFDA with Air Serv arrived in Port-au-Prince. The planes, 
        each with capacity for nine passengers, are available to the 
        USAID/OFDA team to conduct assessments and deliver relief 
        supplies throughout the country as required. Various USAID 
        implementing partners, including U.N. agencies and NGOs, may 
        accompany the USAID/OFDA team and USAID/Haiti staff on 
        assessment trips.

  <bullet> USAID/OFDA has also provided $500,026 in funding to WVI for 
        emergency relief kits and cash-for-work initiatives.

  <bullet> The Department of State's Bureau of Population, Refugees, 
        and Migration (State/PRM) has provided $20,000 to the U.S. 
        Embassy in Port-au-Prince for assistance to Haitian migrants. 
        In addition, State/PRM will support the ICRC appeal for Haiti. 
        The final amount of funding for the appeal is pending approval.

                                                    U.S. Government Humanitarian Assistance to Haiti
--------------------------------------------------------------------------------------------------------------------------------------------------------
           Implementing Partner                                Activity                                       Location                        Amount
--------------------------------------------------------------------------------------------------------------------------------------------------------
USAID/OFDA Assistance \1\

  USAID/Haiti                               Transport and distribution of emergency        Port-au-Prince and other affected areas              $137,000
                                             relief supplies; 12 emergency medical and
                                             three surgical kits

  Pan American Health Organization          Medical equipment and emergency health         Nationwide                                           $400,000
                                             activities

  Catholic Relief Services                  Emergency cash grants                          Port-au-Prince and the southern peninsula            $412,287

  Air Serv                                  Emergency air transport in support of USAID/   Nationwide                                           $340,981
                                             OFDA, NGOs, U.N. and other humanitarian
                                             organizations

  World Vision International                Emergency relief kits and cash-for-work        North, Central Plateau, South, West, and             $500,026
                                             initiatives                                    Northwest departments, and Ile de La Gonave

  Total USAID/OFDA                                                                                                                            $1,790,294

State/PRM Assistance

  U.S. Embassy/Port-au-Prince               Assistance to Haitian migrants                 Nationwide                                            $20,000

  Total State/PRM                                                                                                                                $20,000

Total USG Humanitarian Assistance to Haiti in FY 2004 (to Date)                                                                               $1,810,294
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ USAID/OFDA funding represents committed and/or obligated amount as of March 9, 2004.

    Senator Coleman. Thank you very much, Mr. Franco.
    Mr. Franco, you indicated in your testimony that enhanced 
security is necessary for the normal distribution of food and 
supplies, and you also indicated some concerns about the 
interruption of health services up north, again because of 
security issues. And I'm not sure whether you or Secretary 
Noriega can answer this, but how many troops do we need to 
provide the kind of security that would allow for that 
distribution of food and supplies? My colleague, Senator 
DeWine, has strongly suggested that what we have now is not 
sufficient. Can you tell us what we need to make sure that we 
can have normal distribution of food and supplies?
    Mr. Franco. I'm not really qualified to answer the 
question, so I will have Secretary Noriega answer the question, 
Mr. Chairman; but I will say this, that the security issue--and 
I want to report this, because I've met with all the donor 
organizations and also international organizations, OAS 
representatives, U.N. organizations, non-governmental 
organizations, including CARE, CRS--and every one of the 
organizations has said that the key thing is that we have now 
secured installations, as I have referenced a port where we 
have food, but that distribution remains a problem. The exact 
number of what's needed, I have to defer to Secretary Noriega.
    Senator Coleman. Thank you.
    Secretary Noriega.
    Mr. Noriega. Mr. Chairman, the assessment of the number of 
people that we need on the ground--that is to say troops--will 
have to be made by the military. We have approximately--we have 
an expectation that the current countries that have committed 
troops will, when they have deployment in the next several 
days, reach a point of 3,400--about 3,450 persons--on the 
ground. We're going to have to look at what their tasks are, 
what the geographical coverage that that particular size force 
can provide, and what missions they can carry out. And then it 
will be the role of the military commanders to ask for 
additional resources, if they need it.
    Having said that, there are other countries that have 
offered support, and we have undertaken an urgent diplomatic 
effort to encourage other countries to make those troops 
available in the short-run, rather than waiting for the longer-
term peacekeeping mission.
    So that's underway. The determination will be driven by the 
commanders on the ground and what the missions are that are 
required. But I think that there is a political commitment to--
not just on the part of the United States, but other friends of 
Haiti--to provide additional resources, if that's required.
    Senator Coleman. We had invited a representative from 
SOUTHCOM to be here, and they were not able to be here, but 
that is important information. There may be sufficient food, 
but if it can't get to those who need it; if there's sufficient 
medical supplies, but it can't get to those who need it because 
of security concerns, then it's like not having it in the first 
place. So we will continue to press on that issue. Time is of 
the essence, and we want to make sure that there are adequate 
bodies on the ground to ensure that food can be distributed.
    There was some discussion by some of the witnesses about 
the CARICOM relationship. Can you describe the nature of that 
relationship today? Is it intact? Talk a little bit about the 
strains. And where do we go with the future with CARICOM and 
its role in Haiti?
    Mr. Noriega. Yes. CARICOM took up the mantle of trying to 
find a diplomatic solution toward the end of last year at the 
request of President Bush in a meeting with Prime Minister 
Manning of Trinidad and Tobago. This was another iteration in 
diplomatic efforts, over the last three years, to try to create 
a more sustainable political situation on the ground. They made 
a valiant effort, and I think that the merits of their plan are 
so good that we're still implementing it, although they have 
formally disassociated themselves from it.
    I was personally involved in the effort to implement that 
plan; I went to Haiti, spent some time convincing--trying to 
convince--opposition leaders that it was a workable, feasible 
plan that we were committed to. We weren't able to convince 
them to join in the process because of the scar tissue--
frankly, a lack of confidence in both Aristide and the 
international community, which the opposition feels has been 
turning its back on his abuses for too long.
    Right now, we have--Secretary Powell and I have 
communicated with CARICOM leaders to explain the situation 
because some of them actually believe that--Aristide's version 
of the facts that he was kidnapped, which is, of course, 
ridiculous. But we need to convince them that we want to go 
forward, and we need to convince them, frankly, that the 8 
million people in Haiti still need their help.
    Senator Coleman. Thank you, very, very much, Secretary 
Noriega.
    Senator Dodd.
    Senator Dodd. Thanks, Mr. Chairman. And thank you, again, 
for holding this hearing.
    Let me, if I can, begin by going back to the Inter-American 
Democratic Charter, because in your testimony, Secretary 
Noriega, you point out that a democratically elected government 
can forfeit its democratic legitimacy by the manner in which it 
governs. Said another way, being democratically elected does 
not give a leader free license to rule as he sees fit. Nowhere 
is that principle more firmly enshrined in this hemisphere than 
the Inter-American Democratic Charter itself.
    I presume you've read it--of course, you served in the OAS 
as an ambassador, so you've been through the charter--and it 
does, in paragraph 21, make that indication. At what point did 
the OAS decide, by a two-thirds vote, which the charter 
requires, that the standard had been met?
    Mr. Noriega. The standard--there was a----
    Senator Dodd. Standard that it forfeited its democratic 
legitimacy. That's in the--you said that's--it's right, it's in 
the charter here----
    Mr. Noriega. Right.
    Senator Dodd [continuing]. ----but it also says that two-
thirds of the members of the OAS have to vote accordingly.
    Mr. Noriega. Right.
    Senator Dodd. At what time did the OAS reach the conclusion 
you did?
    Mr. Noriega. It's interesting about the charter, sir, that 
the charter has never been invoked, including its----
    Senator Dodd. That's not the question I have for you.
    Mr. Noriega. Well, the charter----
    Senator Dodd. The charter says they should meet and vote--
--
    Mr. Noriega. Yes.
    Senator Dodd [continuing]. ----to reach that conclusion. 
Was this a unilateral decision we made?
    Mr. Noriega. Every country made a decision for itself not 
to invoke the charter, not to put security----
    Senator Dodd. So there was no----
    Mr. Noriega [continuing]. ----forces on the ground.
    Senator Dodd [continuing]. ----vote at the OAS.
    Mr. Noriega. I never said there was.
    Senator Dodd. Well, you said--no, here, you said that it 
had forfeited its legitimacy.
    Mr. Noriega. I said that a government can, and in our----
    Senator Dodd. Do you think----
    Mr. Noriega  [continuing]. ----in our----
    Senator Dodd  [continuing]. ----the Aristide government 
did, or not? I assume, by your statement--you didn't make that 
statement just as an abstract idea.
    Mr. Noriega  [continuing]. ----The point that I was making 
was that the troubles that Haiti--that President Aristide got 
himself into--didn't happen overnight. It was the result of a 
systematic abuse of human rights, ignoring the essential 
elements of democracy that are laid out in the charter.
    Senator Dodd. But that was not an OAS determination.
    Mr. Noriega. No, sir, it doesn't----
    Senator Dodd. In fact, are you familiar with what was 
adopted on the 24th of February by the OAS regarding Haiti?
    Mr. Noriega  [continuing]. ----Yes, sir.
    Senator Dodd. The resolution?
    Mr. Noriega. Yes, sir.
    Senator Dodd. Want me to read it for you?
    Mr. Noriega. Yes, please, go ahead.
    Senator Dodd. Let me read it for you here. This goes on 
expressing--I won't give all the preamble stuff, but expressing 
its profound regret that the opposition--speaking about the 
opposition in Haiti--has not accepted the CARICOM plan, which 
offers the best prospects for a peaceful resolution to the 
current crisis, expressing the hope that they will reconsider. 
Went on to resolve that they call upon the United Nations 
Security Council to take the necessary and appropriate urgent 
measures, as established by the charter--in the charter to 
address the crisis in Haiti--knowing that the OAS has no 
ability to militarily intervene in the situation, the 
implication, at least for this person reading it, is that they 
were urging the U.N. to take some steps five days prior to the 
departure of Aristide, on the 29th, to try and step in--to try 
and stop this collapse that was occurring, and it goes on and 
condemns the opposition for not embracing the CARICOM proposal. 
That's what the OAS would say. Isn't that true?
    Mr. Noriega. The OAS supported the CARICOM process at the 
time. We were urgently supporting the CARICOM process to try to 
convince the democratic opposition participation in the 
process.
    Senator Dodd. So it's not, then, your conclusion that the 
Aristide government had lost its legitimacy.
    Mr. Noriega. I believe that the--it was--not in a formal 
way, no, sir. In the terms of the invocation of the charter, no 
country invoked the charter. No country invoked----
    Senator Dodd. I didn't ask--I asked you whether or not you 
thought they had forfeited the--is that your conclusion----
    Mr. Noriega  [continuing]. ----In my view----
    Senator Dodd  [continuing]. ----or the Bush 
administration's conclusion they forfeited?
    Senator Dodd. Not in a formal way, sir. We don't make--we 
didn't make that decision unilaterally.
    Senator Dodd. Obviously, it wasn't done--formally, I mean--
at that point.
    Mr. Noriega. The decision we made was that propping up--
merely propping up the Aristide government was not worth 
risking American lives.
    Senator Dodd. Let me jump to Aristide's departure, if I 
can. During your March 1 appearance on Nightline, you stated, 
and I quote, that ``President Aristide approached our 
ambassador. He made the decision to resign. He chose the 
destination.'' That's your statement on March 1.
    Later last week, on March 3rd, you told the House 
International Relations Committee that Mr. Aristide did not 
learn that the Central African Republic was his destination 
until the evening of February--on the evening of February 29th, 
until about 20 minutes before he landed.
    Mr. Noriega. Yes.
    Senator Dodd. Which of those statements is accurate?
    Mr. Noriega. They're both accurate. But I don't want to 
mince words; because I think, quite frankly, almost immediately 
when I said that, in the Nightline interview, I thought I 
needed--I should have clarified that.
    When the plane took off, at about 6:30 in the morning, all 
of us thought the plane was headed for South Africa, that it 
was on its way to South Africa, which is the destination that 
he sought. Within minutes, 30 minutes or so, of the plane 
taking off, we heard from the South African Government that 
they were not able to take him. So we immediately had to 
scramble to find another place. As far as I know, his 
destination is still South Africa, and he can go as far as----
    Senator Dodd. He didn't make the choice----
    Mr. Noriega  [continuing]. ----whenever he wishes.
    Senator Dodd  [continuing]. ----to go there.
    Mr. Noriega. He made the choice to go, and we provided a 
plane for him to go to South Africa.
    Senator Dodd. That's my question. He didn't make the choice 
of the country.
    Mr. Noriega. We made a--he made--he decided that he wanted 
to go to South Africa. We made an effort to try to get the 
permission of the Government of South Africa to receive him.
    Senator Dodd. But he did not make the choice to go to the 
Central African Republic.
    Mr. Noriega. No, and when he----
    Senator Dodd. Okay.
    Mr. Noriega  [continuing]. ----took off, it was not----
    Senator Dodd. Are there any----
    Mr. Noriega  [continuing]. ----our decision--it wasn't our 
decision not----
    Senator Dodd. [continuing]. ----other statements you made 
that you'd like to correct at this moment? Any other 
contradictions?
    Mr. Noriega. No, sir, I don't think that--I've explained my 
response to that----
    Senator Dodd. You've explained it. I want to know if there 
are any other circumstances in which an explanation----
    Mr. Noriega  [continuing]. ----If you have any need for 
clarification on any of my statements, Senator, please raise 
them with me, and I'll be glad to clarify.
    Senator Coleman. Thank you, Senator Dodd.
    Senator Boxer.
    Senator Boxer. I want to thank Senator Dodd, because 
basically the administration is essentially telling us not to 
look back, only forward, and I think we have to look forward, 
and we have to do two things: we have to walk and chew gum at 
the same time. We have to go forward and protect the people 
there and make sure things go well there, but we will have to 
get to the bottom of this.
    Now, when I--before Senator Dodd came--I read some quotes 
of Colin Powell. And Colin Powell said, on the 18th of 
February, essentially, we're going to back Aristide; he's the 
democratically elected guy. The next day, he reiterated the 
same thing. And ten days later, a statement comes down from the 
administration essentially saying, gee, he ought to really look 
in his heart and ought to get out.
    This is odd. This is odd. And then when you put together 
these treaties that Senator Dodd--who spoke eloquently on the 
floor--that we're looking at, the Santiago Declaration and the 
Inter-American Charter on Democracy--if we're just going to 
say, well, no one's going to enforce these, what's the signal 
to the rest of the world? What is it? What if we just said, one 
day, well, we have a nice Constitution, but, eh, let's rip it 
up. I don't think that would go over well. And since we are the 
leader in the world, and have the greatest democracy in the 
world----
    Mr. Noriega, I am exceedingly troubled. And these are the 
questions I'm going to ask you to answer in writing, because we 
do not have enough time today. And I look forward to them. And 
I would like to have them back, you know, as fast as you can.
    And they're questions raised in an op-ed piece in the L.A. 
Times by Jeffrey Sachs. And here's what they are:

  <bullet> Did the U.S. summarily deny military protection to 
        Aristide? And if so, why and when?

  <bullet> Did the U.S. supply weapons to the rebels, who 
        showed up in Haiti last month with sophisticated 
        equipment that last year reportedly had been taken by 
        the U.S. military to the Dominican Republic, next door 
        to Haiti?

  <bullet> Why did the U.S. abandon the call of European and 
        Caribbean leaders for a political compromise, a 
        compromise that Aristide had already accepted and, by 
        the way, told his thugs to get out of the streets 
        because the U.S. asked him to? So his thugs were taken 
        off the streets, and the other thugs were left on the 
        streets.

  <bullet> Most important, did the U.S., in fact, bankroll a 
        coup in Haiti, a scenario that may be possible, given 
        what we see? And he [Sachs] says, ``It brings to mind 
        Groucho Marx's old line, `Who are you going to believe, 
        me or your own eyes?' ''

    Now, this whole thing has to be answered. And this one 
Senator here--and I know other Senators feel the same way--
believes we're going to get to the bottom of this, like we, in 
America, get to the bottom of everything. And, to me, it's just 
stunning, and I don't know how we move forward in good faith if 
we can't clear the air as to what really happened.
    Let me read you the New York Times editorial of March 4th,

          The Bush administration's belated and ham-handed 
        intervention last weekend practically delivered Haiti 
        into the hands of an unsavory gang of convicted 
        murderers and former death-squad officers under the 
        overall command of Guy Philippe, who American and 
        Haitian officials believe to be a drug trafficker. 
        Indeed, those who have benefitted most by the 
        administration's policy toward Haiti are the weak and 
        divided opposition that rejected political compromise, 
        and these murderous thugs, like Guy Philippe and Louis 
        Jodel Chamblain. Philippe and Chamblain went so far as 
        to thank the U.S. for its Haiti policy.

    And I mentioned this in my opening statement, Mr. Noriega. 
I don't know if you were here. According to news reports, Mr. 
Chamblain shouted, ``We're grateful to the United States.'' And 
Mr. Philippe said, ``The United States soldiers are like us. 
We're brothers. We're grateful for their service to their 
nation and against the terrorists of Aristide.''
    How does it make you feel when murderers, like Philippe and 
Chamblain, are thanking the United States and putting our 
beautiful treasure of our soldiers in their category? How does 
it make you feel?
    Mr. Noriega. I would--Senator, I have all the time you need 
to answer----
    Senator Boxer. Well, just answer----
    Mr. Noriega  [continuing]. ----questions.
    Senator Boxer  [continuing]. ----that question. How does it 
make you feel when those two gentlemen praise this 
administration and say that the American military are their 
brothers, when these are the guys who are murderers and thugs 
and drug dealers? How does it make you feel?
    Mr. Noriega. I can't make--I can't put myself in their----
    Senator Boxer. I didn't ask you to put your----
    Mr. Noriega  [continuing]. ----crazy thinking.
    Senator Boxer  [continuing]. ----Well, how----
    Mr. Noriega  [continuing]. ----These are----
    Senator Boxer  [continuing]. ----does it make you feel?
    Mr. Noriega  [continuing]. ----violent criminal thugs, who 
have no place in Haiti. Contrary to what the editorial said, we 
are not delivering Haiti over to these people; we're delivering 
Haiti over to 8 million decent Haitian----
    Senator Boxer. And what are your----
    Mr. Noriega  [continuing]. ----people, who finally 
deserve----
    Senator Boxer  [continuing]. ----what are you going----
    Mr. Noriega  [continuing]. ----a chance to----
    Senator Boxer  [continuing]. ----with those people?
    Mr. Noriega  [continuing]. ----make decisions about their 
future, whose rights have been violated systematically----
    Senator Boxer. Okay, and what are your----
    Mr. Noriega  [continuing]. ----for years.
    Senator Boxer  [continuing]. ----plans to go after those 
people?
    Mr. Noriega  [continuing]. ----Uh----
    Senator Boxer. Those thugs?
    Mr. Noriega. In my view, it should be the policy of the 
United States that these people be--at the appropriate time, 
when the Haitian National Police is prepared to incarcerate 
them, they should put them in jail. They should certainly be 
disarmed. And they should face criminal charges for their 
violations of rights over the long haul and just recently.
    Senator Boxer. So--but my point is, if we are in a 
situation where we are an occupying force, along with other 
nations, I trust, you said when the Haitian police--would you 
not move on those people, on those thugs?
    Mr. Noriega. The sooner the better, Senator.
    Senator Boxer. Fine.
    Thank you.
    Senator Coleman. Thank you, Senator Boxer.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    You remember the time you used to sit on this side?
    Mr. Noriega. Actually, I sat on that side.
    [Laughter.]
    Senator Nelson. Was it easier back then?
    Mr. Noriega. Just for the record. It was--I didn't have to 
pay attention when I was sitting back there.
    Senator Nelson. Well, you and I have been at it now for 
several sessions, and I want to look forward now. I'll just 
state that I think it's been the policy of the United States 
Government to have a regime change, and that was not only in 
Iraq, but it's also in Haiti. And I think there are a lot of 
troubling questions because of that. But for Senator Graham and 
me, who are on the receiving end of the destabilization by 
people taking the flight in rickety boats, it creates another 
difficult situation. And so it is clearly in these two 
Senators' interest to see the place stabilized as quickly as 
possible.
    There's an article out today that says that the Marines are 
going to start disarming the militants. Perhaps you already 
talked about that. But the nuts and bolts of government, I'd 
like to know, what are your plans to come to the Congress for 
appropriations to help you stabilize Haiti?
    Mr. Noriega. Yes. Senator, on the migration question, I'll 
note that in the week before President Aristide resigned, there 
were about 900 Haitians picked up at sea in the week--
yesterday, there were none; I think in the week since, it's 
probably in the dozens.
    On the question of resources, there are resources that are 
available from other countries. Our own budget is about $55 
million, $53 million. There are international financial 
institution loans that are available. We have to assess what 
our requirements will be. And we'll have to approach decision-
makers within our administration on whether we need additional 
resources from what we have available, and--that would have to 
be reallocated to Haiti--and a decision by them if they wanted 
to come to Congress to seek additional resources.
    Senator Nelson. Well, we have an authorization bill that's 
moving forward. And just like last week, I was raising Cain 
here with representatives of the State Department with regard 
to the future expenditures in Iraq, of which there is a blank 
line in the request for authorization for appropriations; so, 
too, because of the circumstances here in Haiti, we need to 
know, as soon as possible, so that we can fill in that and 
start to plan for these. And now that we have a vehicle that is 
being considered, we need to do that.
    For example, such things as: Are we going to provide 
assistance for elections? When can we expect parliamentary and 
presidential elections to take place? And are we serious about 
the commitment, over a sustained period of time? And you've 
heard my comments from this position of the committee. I have 
been very bipartisan in my comments, because I think the 
previous administration did not give Haiti the attention that 
it should have after Aristide was put back in. But neither has 
this administration. And we're seeing the result of inaction 
and a hands-off policy. So I want to see that sustained level 
of commitment by this government, and that is my 
responsibility, as a member of this committee, not only to 
speak of as a Member of the Senate from Florida, along with 
Senator Graham.
    I'd like to know, what is it going to cost for your plans 
for the reforming of the national police, which is going to be 
essential for future stability?
    And then I'd like to know, Mr. Franco, about the P.L. 480 
funding and what you're going to need from the United States. 
You're going to find a bunch of willing Senators here that want 
to support you, but we've got to have a coach that'll call the 
plays.
    That's about it.
    Mr. Franco. May I comment very briefly, Senator? Mr. 
Chairman?
    Senator Coleman. Yeah, very--please. And I appreciate--the 
series of questions from Senator Nelson demonstrate that 
there's so much more information that we need.
    Secretary Noriega, I'll allow you to respond briefly, or 
Mr. Franco, but clearly there's a lot more information that we 
need, and the record will ultimately reflect that.
    Mr. Franco.
    Mr. Franco. Just very quickly, Mr. Chairman. We share 
Senator Nelson's concerns. But I can tell you that both AID 
and--not only AID, but the non-governmental organizations and 
the other donors' primary and paramount concern right now is to 
make sure that the essential emergency food reliefs, medical 
reliefs get back on track. We have plenty of food in country; 
we just need to get that distributed.
    Simultaneously, Senator, we are doing our level best to get 
an assessment as to what future requirements will be, and we'll 
get that back to you. We are the largest single bilateral donor 
in Haiti. We have been, and I forecast we will continue to be.
    Senator Coleman. Thank you.
    Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman.
    Mr. Secretary, I want to get back to the point I made 
earlier, and that is that I think we need more troops in Haiti. 
And I want to discuss that with you in just a minute.
    You made a point that the number of troops that are needed 
has to ultimately be decided by the military, and I guess 
that's true, to an extent, but I want to take issue with you a 
little bit. That's true, to an extent, but really the number of 
troops that are needed is determined by what we expect them to 
do.
    We talked a little bit about--there was a dialogue a moment 
ago about the problem with food distribution and movement of 
food. And we know that's so essential in Haiti. You can have 
food there, but if you don't move it around, you've got a 
problem. Schools are not open. I know that from talking to 
people, a lot of the schools are not open. The normal going 
about of business in Haiti, a lot of that is not going on. Some 
of it is, but some of it's not. There is what I would describe, 
for want of a better way of describing it, as a fear factor and 
a public confidence problem; and it's a psychological thing.
    I would maintain that when you try to determine the number 
of U.S. troops that are needed, there's a certain number that 
you have to get to before you get a critical mass. And once you 
reach that critical mass, then everyone sort of figures it out. 
We're there. And the thugs and the guys with the guns sort of 
get it figured out. And I'm not sure we're quite there yet.
    In Haiti, our brave troops face a situation which is, in 
some respects, more dangerous and tougher than we faced the 
last time we came in. Last time, we had to kind of roll up the 
military and deal with them, and we did that.
    This time, we've got two different groups--more than two 
groups, really--that have been armed. We've got the rebels, who 
came in and were marching on, moving toward Port-au-Prince, and 
we've got the Aristide gangs that had been, over time, given 
guns by Aristide and were armed. And these two groups, 
unfortunately, still are armed, and still have guns. And that's 
the problem. And they're pretty well-armed.
    So that's how I see the situation. And, you know, you and I 
have talked privately about it. You don't have to respond now. 
But I just wanted to make the point, again. I don't think we've 
reached the critical mass yet. And until we reach it, I don't 
think you're going to have the security level where we need it. 
I don't think you're going to have the public confidence where 
we need it. I think once we get there, then things are going to 
calm down. And no longer are people in City Soleil going to be 
describing to me what I was told yesterday, of these gangs, 
these guys riding around with their guns and terrorizing 
people, or the description I got yesterday from someone up 
north of being shaken down, a hospital being shaken down for 
money. You know, as long as that continues, the people aren't 
going to be confident that they can go about their business. I 
think there's a real problem.
    Let me move, if I could, Mr. Franco, to where USAID goes in 
the long run. And I appreciate what you say that your immediate 
concern is, getting the food distributed. You're doing the 
right thing, and we're proud of you trying to do that. But the 
long run, where Haiti goes, is something I think this committee 
has to look at.
    And my time is almost up, and I hope we have a second 
round.
    One question. Back in 1999, there was a program in Haiti 
called USAID Jobs. It's my understanding the program was pretty 
successful, leading to an average of $55 per month in wages for 
thousands of Haitians. It was a--I don't know if it was--kind 
of a--our depression-era, Franklin Roosevelt-type program or 
not, but it put a lot of people to work, built some roads, got 
some things done. Are we going to try something like that 
again?
    Mr. Franco. Well, Senator DeWine, we're certainly looking 
at that. I know that you met with the Administrator----
    Senator DeWine. I did.
    Mr. Franco  [continuing]. I can tell you that that's one of 
the things we're looking at. Since we're looking back a bit--I 
think it's important to see what we did right and what we did 
wrong. I can tell you that we will be developing a 
comprehensive program with our partners, meaning the other 
international organizations and other countries that are 
working in Haiti, in terms of how we'd respond, and determining 
our comparative advantages. Certainly, food for work, and these 
immediate jobs programs are things that we are looking at and 
will be looking at as one of the immediate responses. We will 
be working on something comprehensively with our other 
partners, and that's certainly on the USAID agenda.
    Senator DeWine. Well, my time is up. I want to talk to you 
a little later about agriculture, too.
    Thank you very much, Mr. Chairman.
    Senator Coleman. Thank you very much, Senator DeWine.
    Senator Graham.
    Senator Graham. Thank you very much, Mr. Chairman.
    I'd like to ask Mr. Franco--you indicated that we have an 
adequate quantitative supply of humanitarian items--food, 
medicine--in country; the problem is one of distribution. 
Yesterday, the United Nations issued, ``an urgent appeal for 
$35 million for six month's worth of humanitarian aid.'' What 
is the $35 million for if the problem is distribution as 
opposed to quantity?
    Mr. Franco. We just received that request. We are analyzing 
it and taking a look at it. But----
    Senator Graham. Excuse me, the ``it'' being?
    Mr. Franco  [continuing]. ----``it'' being the request from 
the United Nations.
    Senator Graham. We did not participate in the United 
Nations decision to make such an urgent request?
    Mr. Franco.  We certainly didn't at USAID, no.
    Senator Graham. Was anybody in the U.S. Government involved 
with this?
    Mr. Noriega. Not that I'm aware of.
    Mr. Franco. We haven't been involved.
    Senator Graham. Could you provide us with a written 
response which would indicate what was the basis for the U.N. 
urgent appeal? Who made the urgent appeal? And do you agree or 
disagree with its validity?
    Mr. Franco.  I certainly will, Senator Graham. I want to 
see what it is.

    [At the time of publication, Assistant Administrator Franco 
had not yet provided an answer to this question.]

    Mr. Franco.  I wanted to clarify a point. There are 
sufficient food stocks in country, currently, for the targeted 
populations that have been the recipients in the past. We do 
not have, nor is there, a generalized feeding program in Haiti. 
Because of the deteriorating situation, I haven't looked at the 
U.N. proposal. I have to see what their forward thinking is on 
that. The medical area is very much a concern. It is for the 
international community and the Red Cross; it might be as part 
of the U.N. appeal, as well. So I'll take a look at that, as 
well. We're responding as quickly as we can on the medical 
front. But I'll get you a written response on that.
    Senator Graham. Mr. Noriega, I'd like to ask you some 
security questions. What percentage of the U.S. and other 
nations' troops that are in Haiti are in Port-au-Prince?
    Mr. Noriega. Are which?
    Senator Graham. In Port-au-Prince, what percentage of the 
totality--and I think you said it was approximately 3,400 
troops----
    Mr. Noriega. Are in Port-au-Prince? It's my understanding 
that the vast majority of them are in Port-au-Prince. And so 
far, the plan for the U.N. deployment is that most of them will 
stay in or near the capital area. Other countries are beginning 
to look at what their mission would look like in other 
provincial capitals, which we think is important, that we start 
looking at deployments.
    Senator Graham. Given the fact that Haiti has an 
atrocious--and I think that's a generous word--highway system, 
what's the plan to be able--if, for instance, there's an 
outbreak in the northern regions, as there was prior to 
February the 29th, to get security personnel there?
    Mr. Noriega. Senator, I'd have to get you a more detailed 
answer on the whole security picture--for example, what the 
airlift capacity is and helicopter and fixed-wing aircraft 
that's part of the current deployment. But I'd be glad to do 
that, sir.

    [At the time of publication, Secretary Noriega had not yet 
provided an answer to this question.]

    Mr. Noriega. And, of course, there are several other 
countries involved in this, and they will have their own assets 
and logistical tale.
    Senator Graham. I mean, I'll just make a comment. It sounds 
as if we have an Afghanistan solution here, where we are giving 
some protection to the capital, and the other 6 million 
Haitians, who live outside of Port-au-Prince, are pretty much 
naked.
    Mr. Noriega. I think it's fair to say, Senator, that the 
current mission and the tasks for the U.S. deployment is very 
much centered on the capital. But I think you're raising valid 
points, and we certainly have considered the importance of 
deploying outside the capital, to the provincial capitals. 
There's a lawlessness there that's prevailing, and we do need 
to address that. You're exactly right, sir.
    Senator Graham. It seems to me that one thing we've learned 
in the number of places that I mention in my remarks, from 
Haiti to now Iraq, is that there is a correlation between the 
number of security troops on the ground and the incidence of 
lawlessness. I think we had our highest percentage, per capita, 
in Kosovo, and we had the lowest incidence of violent actions 
in Kosovo, which leads you to believe that there is some 
correlation between the degree of presence and the degree of 
security. I think it's critical that we reevaluate what it is 
we're trying to accomplish in Haiti, insofar as security, and 
then evaluate the number of people we've got on the ground to 
carry out that mission.
    Mr. Noriega. Senator, the comments you've just made on 
security, and that Senator DeWine made, really echo what I've 
heard among decision-makers in the executive branch, that the 
number depends on the mission and the tasks, and those are 
decisions that are made by civilian policymakers, and then you 
ask your military people to give you their best judgement about 
what sort of forces need to be on the ground. And then this is 
a decision we have to make with our international partners in 
perhaps a division of labor. But we're into, now, I think, the 
tenth day of a deployment. We've got 3,400 people on the 
ground, and we're--or, I'm sorry, it's probably close to 2,800; 
we're going to build up to 3,400 in the days ahead. And then 
we'll have--but we're also, at the same time, looking for other 
countries that are willing to put large numbers of forces on 
the ground in the very near term.
    Senator Coleman. Thank you, Senator Graham.
    We have an outstanding third panel. We have about 50 
minutes left. I know there's a strong desire on the part of my 
colleagues to continue the questioning. I'm going to ask my 
colleagues if they can limit their questions in this second 
round. I'm going to ask one question with just a brief 
statement. But, again, we have an extraordinary third panel 
that I'd certainly like to get to, and I know Ambassador 
Dobbins, who's on that panel, has some time constraints.
    First, just a very quick statement. I hope we look forward. 
We have to look forward. There are 8 million Haitians who need 
us to look forward. There are a quarter of a million Haitians 
who are HIV-positive that need us to look forward. And whether 
it's the security concerns that Senator Graham has raised or 
the litany of questions that my colleague, Senator Nelson, has 
raised, employment concerns, infrastructure concerns, 
environment, et cetera, et cetera--so we need to look forward. 
That has to be our focus. We will be letting down the people of 
Haiti if we don't get about doing that.
    A very narrowly focused question for some of the moms and 
dads in Minnesota and, I think, throughout America, there is 
concern about international adoptions. A number of our families 
adopt kids from Haiti. Secretary Noriega, you and I talked 
about that while some of the conflict was going on. Can you 
tell me what is being done for the kids in orphanages? Is there 
food being provided? Can you tell me whether the process of 
adoption, and adoptions, are still ongoing? Has it been 
interrupted by the political turmoil? Are families still 
getting the kids that they worked with and gone through that 
whole process? There's a lot of fear and anxiety out there that 
I have heard, and I'd just like my parents to have a better 
understanding of what the current situation is.
    Mr. Noriega. Senator, the government, right now, is not 
functioning in a normal way. It will be a number of weeks, I 
think, before we could say that that's happening again. And, of 
course, in these adoption cases, it's very important that all 
of the steps be carefully followed. So there will be a period 
of time, I think, where we can't necessarily expect these--
depending upon where a person is in the process of adoption, it 
will be difficult to culminate some of those adoptions. 
However, it is a priority for us--it has been throughout the 
crisis--to identify if there are some people that we can move 
the children out if they're at that stage, and we continue to 
treat that as a priority. And I know that orphanages are 
certainly a part of our target population in terms of feeding 
programs.
    Mr. Franco. If I could just add, Mr. Chairman, just to 
complement what Secretary Noriega said, orphanages are, 
unfortunately, one of the areas that have been most adversely 
affected--I alluded to that in my testimony--and particularly 
in the northwest part of the country. And they are dependent. 
They are part of our targeted food programs. So that is a 
paramount concern. We had a survey done yesterday, and we are 
taking some immediate relief supplies to the northwest to 
address that concern.
    Senator Coleman. I appreciate that, thank you.
    Senator Dodd.
    Senator Dodd. Thanks. Thanks, Mr. Chairman. And, again, 
thank you for these hearings.
    Let me ask you, Mr. Noriega--I, too, I think, obviously 
looking forward is going to be very important, what we do from 
here. But I don't want to minimize at all, in any way, what 
happened here. Because there are precedents being set. And, as 
such, I think they pose some serious questions in the 
hemisphere. Certainly Venezuela comes to mind, Peru comes to 
mind.
    You talk about losing political legitimacy becoming a 
standard by which we would no longer support a democratically 
elected government; then, I can only imagine how Alejandro 
Toledo must be feeling this evening if that becomes the 
standard, since I think the latest polls show him about 7 
percent favorable in Peru. And I'm worried that that message 
being sent out--that losing political legitimacy means if you 
ask other nations to step up to your assistance when you're 
being threatened, that we will not respond.
    So, I think it's important we dwell on this a bit because I 
want to know what happened. I want to know, for instance, 
whether or not President Aristide, at any point, asked the 
United States to militarily step in, since the opposition 
rejected any offers to accept the CARICOM proposals. I want to 
know what happened here. He [President Aristide] says, of 
course, he was kidnapped. We said, ``No, look, we gave him a 
choice,'' I presume, that he could stay, with no defense from 
the United States, and face whatever happened to him, or we'd 
fly him out of the country. Now, what I want to know is, at any 
point did we offer, or were suggestions made, that we might 
want to use the force to bring some stability? I'm told that we 
are talking about maybe two or three hundred. In fact, I think 
you and I, in different settings, agreed that the number of 
armed thugs who are operating in the northern part of the 
country numbered no more than about two or three hundred 
people. Is that correct?
    Mr. Noriega. I think it's grown since then.
    Senator Dodd. Well, I mean--no, then; when the thing----
    Mr. Noriega. At the time?
    Senator Dodd  [continuing]. ----I'm talking about the----
    Mr. Noriega. That's right, sir. I----
    Senator Dodd  [continuing]. ----So we're----
    Mr. Noriega  [continuing]. ----agree with that.
    Senator Dodd  [continuing]. ----talking about a relatively 
small number of people, at least that was the conclusion.
    Mr. Noriega. Yes.
    Senator Dodd. The suggestion that we might have been able 
to respond to that with a small enough force to come in--was 
that ever a possibility? Did we suggest that? Did Aristide ask 
us for that? Did we reject that?
    Mr. Noriega. Essentially, President Aristide did ask for 
that in his many phone conversations with representatives of 
the international community. And our CARICOM partners very much 
appealed to us to be able to do that. We made a--Senator, I 
have to say that there's a big difference between Alejandro 
Toledo and the way he's governing and Aristide.
    Senator Dodd. Well, see, I'm just using an example. All 
right, I don't accept that. You don't like that example. Forget 
about it. I'll just----
    Mr. Noriega. But, Senator, the----
    Senator Dodd. But let's get back to the point. He asked for 
the help, and we said no.
    Mr. Noriega. Right. And I--but I think--yes. We were not 
willing to put American lives on the line merely to keep him in 
power, and----
    Senator Dodd. We made that decision on our own.
    Mr. Noriega  [continuing]. ----Each country made its 
decision not to do that, and every country could have put 
people in.
    Senator Dodd. Well, clearly, the United States is a leader 
in all of this. This wasn't--we're not sitting around with 
coequals. Obviously, the U.S. is the principal player.
    Wouldn't you agree with that?
    Mr. Noriega. We made we made a decision for ourselves that 
we were not willing to do it.
    Senator Dodd. So we made a decision----
    Mr. Noriega. It was a difficult decision----
    Senator Dodd  [continuing]. ----That's----
    Mr. Noriega  [continuing]. ----Senator. I----
    Senator Dodd  [continuing]. ----about----
    Mr. Noriega  [continuing]. ----I concede that. By all 
means.
    Senator Dodd. Mr. Chairman, the reason I raise that is 
because I'm going to ask, tomorrow in a letter to the inspector 
general of the USAID, to look into the programs of the 
International Republican Institute (IRI). We've raised this 
issue before, and I want to go into it with you here because 
clearly we've been involved with the opposition for some time. 
We've expended public monies on behalf of the opposition. I 
want to get into some discussion with you briefly with you here 
about that support because clearly we have made, at some point 
here, a choice, or at least with public monies, we've made a 
choice.
    Now, I've raised the issue, Mr. Noriega, with you on 
previous occasions, and I would assume that you're up to date 
on what the IRI has been doing with respect to Haiti in the 
last ten months. Is that fair?
    Mr. Noriega. Yes, sir. They've been supporting democratic 
opposition.
    Senator Dodd.  As I understand it, USAID, in September 
2002, approved a two-year $1.2 million grant to IRI for its 
Haiti program, is that correct?
    Mr. Noriega. That's my understanding, yes, sir.
    Senator Dodd. All right. The approval of this new grant was 
conditioned on the IRI country director, Stanley Lucas, being 
barred from participating in this program for a period of time, 
because the U.S. ambassador in Haiti had evidence that he was 
undermining U.S. efforts to encourage Haitian opposition 
cooperation with the OAS efforts to broker a political 
compromise. Is that not true, as well?
    Mr. Noriega. I've heard that, yes, sir.
    Senator Dodd. Well, is that not--no--heard it--is it true?
    Mr. Noriega. I've seen it as a record----
    Senator Dodd. Didn't you agree----
    Mr. Noriega  [continuing]. ----of my----
    Senator Dodd  [continuing]. ----wasn't that a--didn't we 
reach that agreement, that he would not be a part of it----
    Mr. Noriega  [continuing]. ----The----
    Senator Dodd  [continuing]. ----as a result of the U.S. 
ambassador's request?
    Mr. Noriega. Yes, sir. That's----
    Senator Dodd. All right.
    Mr. Noriega  [continuing]. ----my understanding, yes.
    Senator Dodd. I'm sorry? Yeah, I know. All right.
    But I want to get into what role did the Western Hemisphere 
Bureau play in USAID officials' decision in Washington 
approving the circumvention of these restrictions on IRI 
because I gather Mr. Lucas is back involved. What role, if any, 
did your office play in his re-involvement?
    Mr. Noriega. None. That's a grant-management decision, and 
there was a difference of opinion as to whether or not the 
understanding was violated. I wasn't a party to the decision, 
but AID, which manages that grant, reached an understanding 
that--and we were--we were consulted--my front-office deputy 
was consulted on the decision to go ahead and go with--go 
forward with the program because of the fact that there was 
apparent misunderstanding.
    Senator Dodd. All right. Now, as I understand it, between 
December of 2002 and January of 2004, IRI has conducted 
numerous training sessions in the Dominican Republic with more 
than 600 Haitian opposition figures. Is that correct?
    Mr. Noriega. Yes, sir. It's my understanding--and the 
participation in these things is--it's very broad-based. And 
IRI does its training in the DR because in 1999 its country 
team leader, one of them, was threatened by the point of a gun 
by an Aristide thug and was--essentially they were run out of 
the country. So this is getting to a point where we're sort of 
blaming the victims here in this process. I think that these 
people, as they do everywhere in the world, are doing 
honorable, good work, promoting our values and----
    Senator Dodd. I'm not questioning--I just want to know the 
details of what's going on here. Is Stanley Lucas still 
involved?
    Mr. Noriega  [continuing]. ----As far as I know, he is 
still part of the program.
    Senator Dodd. Can you assure this committee that Mr. Lucas, 
the IRI staff, and participants in the training programs have 
had absolutely no involvement or contact with Guy Philippe or 
other members of the Haitian armed forces of FRAPH?
    Mr. Noriega. I have never heard that, and, to my knowledge, 
it wouldn't be the case. It certainly wouldn't be acceptable.
    Senator Dodd. Yeah. But do you know----
    Mr. Noriega  [continuing]. ----We know----
    Senator Dodd  [continuing]. ----whether or not----
    Mr. Noriega  [continuing]. ----we know who this----
    Senator Dodd  [continuing]. ----that's the case?
    Mr. Noriega. Pardon me, sir?
    Senator Dodd. So you know whether or not that's the case?
    Mr. Noriega. I have never heard that assertion. And if it 
were the case, we would certainly stop it. We knew who Guy 
Philippe was and that he had a criminal background. He would 
have no role in--whatsoever in----
    Senator Dodd. Well, I want you to inquire, if you would. I 
want you to make----
    Mr. Noriega  [continuing]. ----Please do. Yeah, I'll be 
glad to----
    Senator Dodd  [continuing]. ----whether or not we had--
whether or not the IRI staff or people--if Stanley Lucas had 
any contact with FRAPH officials or Guy Philippe.
    Mr. Noriega. I will certainly do that.

    [At the time of publication, Secretary Noriega had not yet 
provided an answer to this question.]

    Senator Dodd. Let me quickly--let me just jump--because one 
of the concerns--and I'll come back to you, Mr. Franco, on 
this--I want to know what discussions, if any, the U.S. Embassy 
in the Dominican Republic has had about U.S. concerns with 
Haitians residing in the DR who are plotting against the 
Aristide government.
    Mr. Noriega. If we had contact with the Haitian----
    Senator Dodd. What discussions the U.S. Embassy and the 
Dominican Republic has had about U.S. concerns with Haitians--
--
    Mr. Noriega. Yes, sir.
    Senator Dodd [continuing]. ----residing in----
    Mr. Noriega. Yes, sir. We have had discussions with them, 
because we wanted to make sure that these people were watched. 
And we believe that the Dominican authorities were taking it 
very seriously, and that they were prepared to take--as I 
understood it, prepared to take legal measures if these people 
crossed a certain line. But I'm speaking specifically of Guy 
Philippe, for example.
    Senator Dodd. Yeah. Have there been any contacts between 
Dominican officials and Guy Philippe?
    Mr. Noriega. Not that I'm----
    Senator Dodd. Or other well-known Haitian dissidents?
    Mr. Noriega [continuing]. ----not that I'm aware of.
    Senator Dodd. All right. And I wonder if you might--over 
the last several years, the United States has given fairly 
significant amounts of lethal and nonlethal defense assistance 
to the DR. The committee received the following notices, and 
let me recite what they are.

  <bullet> January 23rd, 2002, $2.7 million in a variety of 
        defense equipment and material, including 
        communications equipment, training aids, tents, 
        clothing, and individual communication devices.

  <bullet> January 23rd, 2002, 20,000 excess M-16s to replace 
        older, obsolete, and nonfunctioning weapons, valued at 
        $2.7 million. The notice also stated that the older 
        weapons would be replaced on a one-for-one basis, and 
        destroyed upon completion of the transfer.

  <bullet> May 15th, 2002, $784,000 for radios and antennas.

  <bullet> March 27th, 2003, one million rounds of excess 
        ammunition for use in M-16s, valued at $150,000.

    What I want to know, Mr. Noriega, is, has the 
administration verified that this defense equipment has been 
used for the purpose it was intended, and, very specifically, 
whether or not the verification of the 20,000 obsolete weapons 
that the M-16s would replace have been destroyed, as required?
    Mr. Noriega. Senator, to the best of my knowledge--and I'll 
have to get you this in writing--no transfer of weapons from 
the United States Government to the Dominican Republic has 
taken place since 1991.

    [At the time of publication, Secretary Noriega had not yet 
provided an answer to this question.]

    Mr. Noriega. And you're citing explicit notifications, and 
I don't doubt--I don't doubt that you have them in front of 
you, but I specifically asked for an accounting of these 
things, and, under this--under the U.S. program--that was in--
to the best of my knowledge, none of those rifles--20,000 
reconditioned M-16 A1 rifles has ever been delivered. We expect 
that they would be delivered--the first 2,300 of the weapons 
may be delivered in April or May. They have not been delivered 
to date.
    Senator Dodd. I have another----
    Senator Coleman. Senator Dodd, I will----
    Senator Dodd. Yeah.
    Senator Coleman [continuing]. ----enforce this, some time 
limitations here.
    Senator Dodd. Yup.
    Senator Coleman. Senator Boxer.
    Senator Boxer. Thank you.
    You said that when President Aristide asked for protection 
from the 200 thugs or so that you estimated were there, that 
you said no, because you were fearful it wasn't worth putting 
American troops on the line for him. And I'm wondering, do you 
think U.S. troops have been placed in added danger because so 
many of Aristide's supporters believe that the U.S. Government 
forced him from office, and that's causing some instability in 
the country? Do you fear a little more for our troops because 
of that?
    Mr. Noriega. In light of the public statements that give 
credence to that falsehood, some of which have come from--
unfortunately, from U.S. officials, including some in the 
Congress--in light of the fact that those falsehoods have been 
given some credence, perhaps it has caused some in Haiti to 
hold a grudge against the United States.
    Senator Boxer. What falsehoods?
    Mr. Noriega. That----
    Senator Boxer. What Members of Congress said falsehoods?
    Mr. Noriega [continuing]. ----I will----
    Senator Boxer. Name them.
    Mr. Noriega. The suggestion that Aristide was kidnapped is 
one that has been made in the public domain.
    Senator Boxer. Well, didn't he say that?
    Mr. Noriega. He has----
    Senator Boxer. Hasn't he used that word?
    Mr. Noriega. He has said that, and that's been----
    Senator Boxer. And hasn't he been----
    Mr. Noriega [continuing]. ----that's a falsehood.
    Senator Boxer [continuing]. ----quoted?
    Mr. Noriega. And it's been repeated in the public domain, 
ma'am.
    Senator Boxer. Yes, it has been repeated that he said that. 
But you're accusing Members of Congress, or whomever you're 
accusing, of spreading falsehoods, when they're quoting 
Aristide.
    Mr. Noriega. I said they gave credence----
    Senator Boxer. And I'm asking you----
    Mr. Noriega [continuing]. ----to those falsehoods.
    Senator Boxer. So the answer to my question is yes, you 
think that U.S. troops are in added danger because so many of 
Aristide's supporters believe him, that the U.S. Government 
forced him from office.
    Mr. Noriega. I'm not on the ground, but I think it's a 
logical conclusion, yes.
    Senator Boxer. Okay. That's why I think it's so important 
to get to the bottom of this, because you're insisting there's 
no truth to any of that.
    Mr. Noriega. Yes.
    Senator Boxer. That in no way was Aristide forced out by 
America. And that's why I don't agree with my Chairman today, 
who I really appreciate his holding this hearing and allowing 
us such leeway here, that you don't look back. If you're right, 
and there's not a whisper of truth to the fact that we forced 
him out or that guns were given to the opposition, you ought to 
welcome a in-depth investigation on this.
    But I have to say--and, Mr. Chairman, again, we just 
disagree on this point; we are in total agreement that moving 
forward is crucial for the Haitian people, and we need to do it 
for the children, for the women. And if we don't get, you know, 
an adequate request here, I'm going to lean on my colleagues 
here, all of whom, I think, have in their heart what I consider 
to be true compassion for the people, and I'm going to help--be 
part of a coalition to get to the Haitian people what the 
Haitian people need. That goes without saying.
    But whether it was Pearl Harbor, where there was an 
investigation as to how that happened, whether it's 9/11, where 
we move forward with 100 percent agreement on going after bin 
Laden and the terrorists, we still have a commission, and the 
President is looking back--and he has said he will now not put 
a time limit on his time spent with the commission, and I am 
very glad about that--or whether it's looking into weapons of 
mass destruction and that whole intelligence failure, we look 
back. This is America. The truth shall set you free. And you 
cannot move forward in a successful way if you do not figure 
this out.
    So I would just say, Mr. Noriega, I've watched you in front 
of the House, I've watched you here, and I just think, putting 
together all the pieces, that the story isn't exactly as you 
would tell it, because it doesn't add up. For the greatest 
country in the world to be fearful of 200 thugs--my goodness. 
And to tell someone, ``You can stay, but, unfortunately, 
there's a group of murderous drug dealers and thugs that are 
armed to the teeth who are going to get you, or you can go,'' 
that's not a choice. That is not a choice. And if you were 
honest about it, you'd know that wasn't a choice.
    If I told you, Mr. Noriega, that you would have to come sit 
on our side of the aisle or you might be beat up by somebody, 
you might even sit on our side of the aisle.
    You know what I'm saying. So I have to just say, I'm 
troubled by this. I think in the long run we're going to get to 
the truth, and we have to get to the truth. And I know Senator 
Dodd wants to get to the truth. And I hope that Senator Lugar 
wants to get to the truth because it's our job to do that. And 
I want to do that very much.
    Mr. Noriega. Senator----
    Senator Coleman. Senator----
    Mr. Noriega. Mr. Chairman, I'll stay as long as necessary. 
If you watched the House hearing, I was there for four hours. I 
wasn't given an opportunity to answer any of these questions 
that might shed some light on this, and I'm still not being 
given the opportunity to answer some of the questions about 
what our thinking was. But we'll cooperate with any inquiry, 
I'll stay here as long as you want. I'll come back up and 
visit. But I'll be glad to answer any questions that you have 
that----
    Senator Boxer. You----
    Mr. Noriega [continuing]. ----might set the record 
straight.
    Senator Boxer. Mr. Chairman, with due respect, I know what 
your answer is. You said it wasn't worth sending any military 
into the country, at President Aristide's request, because it 
wasn't worth putting their lives on the line. You said that. I 
know what the facts are. Colin Powell, on the 18th of February, 
said we'll never let thugs take over Haiti; Aristide's elected. 
He repeated it twice, then, ten days later, there's a whole 
other--I mean, this isn't a matter of your having X-number of 
minutes.
    Mr. Noriega. Well----
    Senator Boxer. It's a matter of what you have already 
said----
    Senator Coleman. Let me----
    Senator Boxer [continuing]. ----on the record.
    Senator Coleman [continuing]. ----if I may, and I'm going 
to enforce time constraints on my colleagues. But, Mr. Noriega, 
if there's a question you are asked that you don't have a 
chance to adequately answer, I'd certainly give you that 
opportunity.
    Mr. Noriega. Sure. Specifically to the point of what 
happened--and I'm not going to abuse the opportunity, Senator--
Mr. Chairman--specifically on the question of what happened 
between when Secretary Powell made his statement, I think, on 
February 13th----
    Senator Boxer. 17th.
    Mr. Noriega [continuing]. ----17th--and I think he might 
have said it on the 13th, because I couldn't remember--it was 
maybe a Friday the 13th--where he made the statement about not 
allowing these thugs to overthrow a constitutional government, 
there was hope that there was a way we could do that by 
supporting a sustainable political settlement. In the 
intervening weeks, that became--it became clear that we weren't 
able to do that. And there's a reason for that, and it's--I 
mentioned before, that opposition wouldn't agree to the plan. 
But we also noticed other things. We noticed that the--while 
the Haitian National Police was going----
    Senator Boxer. I hear you.
    Mr. Noriega [continuing]. ----we noticed that while the 
Haitian National Police was going----
    Senator Boxer. Senator Dodd, Secretary Powell's quote on 
the 17th and----
    Mr. Noriega. Okay, 17th and 18th. We also know that in the 
intervening time, that President Aristide's people were arming 
his criminal gangs and thugs with guns, while the Haitian 
National Police was going without guns. We know that the palace 
sent gangs to attack the Coast Guard facility, because they 
wanted to be able to preserve the migration card. The Haitian 
Coast Guard personnel fought a pitched battle defending 
themselves from Aristide's mobs, who had set on them because 
they wanted to prevent our ability to repatriate people, 
because they wanted to have the migration card, to be able to 
continue to play that card.
    So those few elements that were--could have actually helped 
maintain the rule of law were being undermined even at the very 
last minute, and we had to make an assessment of whether this 
was a reliable guy, and this was a reliable partner in any sort 
of political process. And we--and, frankly, we reassessed that 
it wasn't--he couldn't be part of any sustainable solution. 
We----
    Senator Boxer. Even though he agreed to the deal, and the 
rebels didn't, right?
    Mr. Noriega [continuing]. ----And at the same time, he was 
taking these measures, most of the violence--and this was our 
assessment--most of the violence--in Port-au-Prince, in 
particular--was the result of Aristide's gangs setting on 
people, looting and----
    Senator Boxer. Right, but----
    Mr. Noriega. [continuing]. ----killing and attacking----
    Senator Boxer. [continuing]. ----he had agreed to the plan, 
and the opposition didn't. That's the point.
    Mr. Noriega. He agreed to sign his name on another scrap of 
paper.
    Senator Boxer. Yes.
    Mr. Noriega. But he continued to conduct himself in the 
same way that he had for a decade. We put the man back in power 
in '94 once. We did this before. And in the intervening decade, 
we learned a thing or two about whether he was a reliable 
interlocutor. We were willing to try to uphold some sort of 
political solution if there was some sort of balanced solution. 
That wasn't possible. He demonstrated that he was more 
interested in a violent solution. And, frankly, we decided not 
to create a doctrine where every poor, failed, irresponsible 
leader can dial 911 and ask for U.S. marines to come and 
surround the palace to protect them.
    Senator Coleman. Thank you.
    I'm going to turn to Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    This is the first that I have heard, Mr. Chairman, that 
Aristide's thugs had moved on our U.S. Coast Guard facility.
    Mr. Noriega. Yes, sir.
    Senator Nelson. And what happened?
    Mr. Noriega. They fought into the night, and eventually----
    Senator Nelson. Fought with whom?
    Mr. Noriega [continuing]. ----These mobs set on this Coast 
Guard facility called Killick, which is five miles north of----
    Senator Nelson. And who were they fighting, our Coast Guard 
people?
    Mr. Noriega. They were--no, I'm sorry, they were fighting 
the Haitian Coast Guard people.
    Senator Nelson. Oh, it was the Haitian Coast Guard.
    Mr. Noriega. Yeah, the Haitian thugs were--Aristide's mobs 
and gangs were attacking a Haitian Coast Guard facility. These 
are people that we had, earlier in the day, cooperated with to 
repatriate some people to Haiti. They're a very professional 
bunch, these Coast Guard folks, very professional. They were 
really heroes that night. They had to get in their boats and 
take to sea to avoid the violence. And the next day, they 
showed up for work again. They're heroes. And their commander 
has now been appointed by the new President to be the interim 
chief of the Haitian National Police. His name is Leon Charles. 
So it was clear that that was a calculated effort to prevent 
our ability to repatriate people, so that they could continue 
to throw people into the sea, to be used as a lure to lure us 
to committing military in there again to save Aristide's skin 
one more time. And this was--and we can show you some 
information that will bear that out, Senator, in a very 
compelling way.
    Senator Nelson. I'm curious, at this time of violence, 
including this--I thought you had first said that they were 
attacking our U.S. Coast Guard. You're talking about the 
Haitian Coast Guard. But I'm curious, at this time, you all--
the policy of the government was not to enact temporary 
protected status of Haitians who were in detention in Miami, 
and who were going to be sent back to Haiti at this particular 
time of violence. Isn't that a very poor choice of timing?
    Mr. Noriega. It was a very difficult decision, Senator, but 
it was a decision that if we did not--if we did not demonstrate 
that we were willing to put these people back, that we would, 
instead, have tens of thousands risk their lives. It was a 
very, very difficult decision. I was personally involved in 
that, and I admit that it was a very, very difficult decision. 
I think, in the long run, it saved lives. And I'll note that, 
in the week before--as I mentioned before, in the week before 
Aristide's departure or resignation, there were 900 people that 
took to the seas. In the weeks since, Admiral Loy said this 
morning it was zero.
    Senator Nelson. Now, I'm not talking about the people that 
were picked up at sea, the 900.
    Mr. Noriega. No, I--that's right, sir.
    Senator Nelson. I'm talking about the ones that----
    Mr. Noriega. That's right.
    Senator Nelson [continuing]. ----were in detention in 
Miami, had been there for months.
    Mr. Noriega. Yup. Yup. Yes, sir, you're right. I'm----
    Senator Nelson. During that two weeks of violence, how many 
of them were returned?
    Mr. Noriega. As far as I--I don't know, sir. I'll have to 
get you the number. But I remember looking into this quite 
explicitly to see if there was any possibility that we could at 
least leave those people were they were.
    Senator Nelson. Well, that's got the Haitian community----
    Mr. Noriega. I'll get you an answer.
    Senator Nelson [continuing]. ----in Miami up in arms. You 
can see why. I mean, the people had been there for awhile, 
they're in detention, and then all of a sudden the government 
policy is, we're going to ship them back in the middle of all 
the bloodshed and the violence.
    Mr. Noriega. Senator, I'll get you an answer in writing on 
the numbers that were repatriated.

    [At the time of publication, Secretary Noriega had not yet 
provided an answer to this question.]

    Senator Dodd. Did anyone object to that? Did anyone raise 
their voice at the time about this?
    Senator Nelson. In the administration.
    Senator Dodd. No, I know you----
    Senator Nelson. The two Senators over here were raising 
Cain.
    Senator Dodd [continuing]. ----But I'm curious about 
whether or not anyone expressed any outrage about that.
    Mr. Noriega. There were concerns expressed on----
    Senator Dodd. Was the issue----
    Mr. Noriega [continuing]. ----all sides.
    Senator Dodd [continuing]. ----raised with you?
    Mr. Noriega. It was----
    Senator Dodd. Were you involved in the decision?
    Mr. Noriega. In terms of the repatriate----
    Senator Dodd. All right.
    Mr. Noriega [continuing]. ----these persons, no, I wasn't 
involved in the decision. There wasn't a decision; there was a 
policy, a standing policy, of returning people. Now, whether 
they--we did so in the last ten days, I don't really know. You 
probably know better than I do, but I can get you an answer on 
that.
    Senator Nelson. All right. A year ago, you said to me that 
you were positively disposed to and would work to get the 
administration to move on Senator DeWine's legislation, which a 
number of us here are helping him with, which is aimed at 
creating Haitian jobs in the garment industry. What position 
has the administration taken on this in the last year?
    Mr. Noriega. As I--our position hasn't changed, Senator, as 
the legislation hasn't moved. But as I've said in discussions 
with Senator DeWine, I think this is a very favorable time to 
be raising this issue, and we'll work with them to try to get--
be as forward-leaning as we possibly can to do this because I 
think that creating those jobs--restoring, really--restoring 
those jobs in the assembly sector can contribute greatly to the 
recovery of Haiti. And there are American investors who know 
those workers and want to get back in there and open their 
operations up. And they may be willing to move as quickly as 
anybody, to go in and start their operations back up. So we do 
need to take a look at that, and that'll be part of our 
strategy, Senator.
    Senator Nelson. You know, a couple of years ago we passed 
the Caribbean Basin Initiative, but Haiti was left out. And 
Senator DeWine is trying to fill the hole. And it's beyond me 
that we wouldn't be doing this long before. All you have to do 
is give a wink and a nod from the White House, and that 
legislation will fly out of here. I would encourage your 
positive promotion of that legislation.
    Mr. Noriega. We'll certainly consult with our USTR 
colleagues and--but I think you made a very good point, 
Senator, and we'll continue to work with you on that.
    Senator Coleman. I'll turn to Senator DeWine, but associate 
myself with Senator Nelson's comments regarding that--the 
treaty, the trade agreement and the necessity to move forward 
very quickly.
    Senator DeWine.
    Senator DeWine. Mr. Chairman, thank you very much.
    Let me first say that, Mr. Secretary, I agree with your 
comments about Leon Charles. I've had the opportunity to meet 
him, on several occasions, as he's head of the Coast Guard, and 
I was glad to see that he was appointed the interim head of the 
police, and he certainly is a professional and is someone who 
I'm sure will bring credit to the current position that he is 
in.
    I think that, as we have discussed, Haiti, for the next 
several months, you know, is in an absolutely critical time, 
and I'm not going to belabor my point, the point several other 
of my colleagues have made, about the number of troops that 
we're going to need. And I've already made that point, to get 
through that period of time and bring about the stability.
    But now is the time, though, also, to plan for what happens 
beyond that. And, you know, $52 million a year is just not 
going to get it, from this administration, and from this 
government. We're going to have to have other countries 
involved; there's no doubt about it. But we're going to have to 
take--you know, whether we like it or not, we're going to have 
to take the lead. I don't know what the magical figure is, but, 
you know, the committee has come up with--this committee has 
come up with authorization of, you know, a total of $150 
million. Anybody who has studied what is going to have to take 
place in Haiti, I think, would come to the conclusion that 
that's, frankly, the minimum, and that's just not going to be a 
one-year shot; that's going to be for a number of years. When 
you're looking at humanitarian assistance, we're doing the bare 
minimum now, and that's in the low 50s, and that's just 
humanitarian assistance. That's no money going to the 
government. We're going to have to deal with elections. 
Elections are not cheap. We're going to have to deal with 
building back the police, infrastructure for the country. We're 
going to have to deal with the ecological disaster that is 
Haiti today, and get some real long-term, sustainable 
agriculture programs going in that country. That absolutely has 
to take place. We're going to have to deal with the rule of law 
issue, with the courts. Those are long-term projects.
    No one does them any better than the United States. We do 
it the best. You know, we had good programs in there before; we 
can do that again and bring in the Justice Department. So these 
are long-term, sustainable programs that we're going to have to 
put in place--USAID, other U.S. agencies. And so, you know, 
we've got to start doing that.
    But as my colleague from Florida just said, you know, the 
cheapest thing we can do is pass Senate Bill 489, which is the 
trade bill. And I just really appreciate your comments. You 
know, now's, as you say, a favorable time to do this. This is 
at no cost to the United States. It's not going to cost us any 
jobs. Probably anybody who really understands the industry 
would say it'd probably create some U.S. jobs. And it's going 
to do something for Haiti that nothing else can do, and that is 
create jobs down there. They had 100,000 not too many years 
ago, before the embargo, the well-intentioned embargo, took the 
assembly jobs down, almost overnight, from 100,000 assembly 
jobs down to now probably 30,000. And when you go in there and 
talk to people, you know, these are, by Haitian standards, jobs 
that people line up for, that people want. For every worker in 
there who is working an assembly job, they support, you know, 
20 or 25 other people. It has a tremendous multiplier effect in 
the economy.
    So if we're talking about bringing stability to Haiti, and 
if we're talking about giving a shot in the arm to the new 
coalition government that's going to emerge, bringing stability 
to the country, giving hope to the people, you know, passage of 
this trade bill is a very, very tangible thing that we can do. 
And so, you know, support from this administration is certainly 
very, very welcome and would be very, very much appreciated, 
and I think it could be part of a package of things that will 
really make a difference.
    So we thank you for your good comments. And I thank my 
colleagues, from Florida. And, Mr. Chairman, thank you, again, 
for holding the hearing.
    Senator Coleman. Thank you, Senator DeWine.
    Mr. Noriega. Senator, if I may just comment very, very 
briefly on that. I would say that it's important that we--if 
there's anything that bothers me, it's the--what we read in the 
newspapers, that this is a hopeless situation and that we're 
going to--it's just a waste of money. Because I don't believe 
that for a moment.
    Senator DeWine. Nor do I.
    Mr. Noriega. We put hundreds of millions of dollars in 
there, and people are saying we've got nothing to show for it. 
Well, I think there's a reason for that. I think we do have 
some things to show for it. I mean, helping people just live 
from year to year is a good thing. But I think that it will be 
a better investment--that it's not predicated on our simply 
keeping one person in office and accommodating one person's 
irresponsible behavior. And you can ask Mr. Dobbins about this. 
We stood up the Haitian National Police Force. It was a good 
investment; they were great people. But he'll tell you that, 
almost immediately, Aristide dumped a bunch of his thugs into 
the middle of this thing, and then he wouldn't pay for it. And 
then they committed political killings in broad daylight. And 
we, frankly, didn't do enough to respond to that. And you can 
ask him whether he thinks we should have done more. We had 
farcical elections, one after the other, and we wouldn't let 
the international community condemn that, because we wanted to 
uphold Aristide as some sort of a symbol of restoring 
democracy.
    Those mistakes that we made, the original sin, really, of 
our engagement, was that it was all about one person, and so 
you can ask a little bit about the experiences they had in 
those days, and I can assure you that we will have--we will 
learn--we have learned from those things. We've learned from 
those mistakes. And this will be based on the interests of the 
8 million Haitian people, and not just one or two individuals.
    Senator Coleman. Thank you, Mr. Noriega. And thank you, 
Senator DeWine.
    Senator Graham.
    Senator Graham. Thank you, again, Mr. Chairman, for this 
hearing and the opportunity to elucidate some issues in which 
the United States might be of assistance to Haiti.
    I want to associate myself with two remarks Senator DeWine 
has just made. One, I have observed, for the better part of 30 
years, on a very close basis, the quality of the people who 
have come from Haiti. I have to assume that the people who have 
stayed in Haiti share those similar characteristics, and they 
are people who have great potential if they can be liberated 
from this history of violence and oppression. Second, as it 
relates to jobs--as I indicated in my remarks earlier--by 
chance I ran into a man who employs several Haitians, and he 
said that they're about to lose their job because of the 
collapse of the basic commercial system, such as the customs 
services.
    I wonder if you might give some attention to this. What can 
we do, as we're dealing with these other security and 
humanitarian issues, to get the economy, at least that which 
already exists, maintained?
    Mr. Noriega. Senator, you've put your finger on the first 
part of it; we have to get ahead of the security curve.
    Senator Graham. But will you give some attention and give 
us a report as to what your assessment is, the requirements to 
get the economy that did exist moving and what the United 
States is going to do to try to get it back to pre-February 
29th standards?
    Mr. Noriega. It's a high priority. We have the port--well, 
I hope we don't get back to those standards, because there was 
a corrupt customs system that just sort of strangled the 
private sector. But we've got the port open again. We've got to 
get the customs operating again, and those are high priorities, 
jump-starting the economic growth.
    Senator Graham. Would you give us a report as to what 
specifically is going to happen to get the economy going?
    Mr. Noriega. Do you want that right now, Senator?
    Senator Graham. No, not----
    Mr. Noriega. Oh, okay. We'll get you----
    Senator Graham. I'd like to get that in writing.
    Mr. Noriega. Absolutely. By all means.

    [At the time of publication, Secretary Noriega had not yet 
provided an answer to this question.]

    Senator Graham. I'd like to move to another question, and 
that is our intelligence. I'm concerned that the situation 
seemed to have emerged so rapidly and at a much more intense 
level than apparently policymakers in Washington were aware of. 
What is your assessment of the quality and credibility of U.S. 
intelligence services in Haiti to facilitate the decision-
making process of policymakers in Washington?
    Mr. Noriega. Yes. Well, Senator, it's a sensitive area, and 
I probably would give you a fuller answer. But I'm satisfied 
that we had access to timely intelligence. Events were fast-
breaking in the final weeks; I concede that point.
    Senator Graham. Are you saying that the policymakers knew 
what the situation was sufficiently--that is----
    Mr. Noriega. I----
    Senator Graham. But the question is----
    Mr. Noriega. I think----
    Senator Graham [continuing]. ----How did we use the 
information?
    Mr. Noriega. The real deterioration of the security 
situation in Aristide's tenuous situation came with the 
uprising in Gonaives. We knew that this was a relatively small 
band of people. What we could not have--what we did not know 
was how quickly the police would capitulate, and we did not 
understand, I think--and this is not really an intelligence 
failure; but we did not understand how much dissatisfaction 
there was with Aristide and that people would actually welcome 
these people as if they were liberating territory. And then 
these other folks came in from the Dominican Republic, former 
members of the army and some of their small gangs. But these 
are relatively small numbers of people, and I guess we didn't 
really appreciate how brittle the institutions were and how 
they crumbled. The Haitian National Police people disappeared 
almost immediately.
    Senator Graham. I may pursue some further questions on that 
privately. But let me just conclude. I'm concerned that one of 
the things that's important to the United States' credibility 
in Haiti and globally is that we be consistent. And it seems to 
me as if, during the crucial days leading up to February the 
29th, we did not live up to that standard. Senator Boxer gave 
some of the quotes. I would just add a couple of more.
    According to the New York Times, on February the 13th, 
Secretary of State Powell stated, ``The policy of this 
administration is not regime change.'' Then on the 18th of 
February, in the New York Times, Secretary Powell was quoted as 
saying, ``We cannot buy into a proposition that says the 
elected President must be forced out of office by thugs.'' Then 
on February the 26th, we voted, in the OAS, our delegate, our 
ambassador, for a resolution that resolves to call upon the 
United Nations Security Council to take the necessary and 
appropriate urgent measures to establish, in the Charter of the 
United Nations, to address the crisis in Haiti.
    Question. Did our representative of the United Nations, Mr. 
Negroponte, did he urgently pursue this resolution that the 
United States had voted for?
    Mr. Noriega. The U.N. Security Council members--he met with 
them, and the consensus was to issue a statement of the 
president of the council, which was issued, that called for a 
political settlement. The council did not act, at that point.
    Senator Graham. And then subsequent to February 29th, 
Secretary Powell stated that the reason that the United States 
did not send security in before President Aristide's departure 
was because we did not want to, ``prop up the regime.'' And 
that seems quite a different statement than the ones that he 
made consistently throughout earlier February and the fact that 
we voted, the United States of America, for this OAS 
resolution.
    Mr. Noriega. We were prepared to send folks in if it were 
part of a political solution. When it became clear that that 
wasn't going to be the case, we made a difficult decision that 
it was not sustainable, not an effective use of American 
military force, and we didn't.
    Senator Graham. Then what did the former chairman of our 
joint chiefs of staff mean when he said, ``We cannot buy into 
the proposition that the elected president must be forced out 
of office by thugs''?
    Mr. Noriega. I'll be glad to ask him to clarify his 
statement, but I think what he meant----
    Senator Graham. The fact that you have to ask the Secretary 
of State for clarification is the most telling statement how 
uncertain and unsustained was our statement of policy position.
    Mr. Noriega. What you just said was a very valid point. Let 
me attempt to clarify that. At the time he made that statement, 
it was before we knew conclusively that the democratic 
opposition was not going to join in the process, the power-
sharing process. And then we saw actions by President Aristide 
to resort to violence and to continue the use of criminal gangs 
to intimidate opponents and to attack even our interests, I 
think, if you consider the importance of the Coast Guard 
facility there to be able to return people. We saw that this--
that without the--some sort of balanced approach, that it was 
not sustainable to just come in and say we're going to support 
Aristide.
    Frankly, I think that where we would be today is, he would 
be in the palace with his thugs, and we would be protecting him 
from other thugs while other criminal gangs would be out 
exacting a price, and we would be there as bodyguards for 
Aristide. That, frankly, is not a particularly appealing 
scenario, either. And we had to think in those terms. We had to 
be concerned about also creating a doctrine where we have an 
obligation to send U.S. military in to support anyone that asks 
for it. That's just simply not a very good policy from our 
standpoint. It's one thing to say that we respect 
constitutional order; it's another thing to say that it creates 
an obligation to automatically deploy U.S. forces to surround a 
national palace to protect a leader.
    Senator Graham. Well, I'll just close that--we ought to go 
back and revisit the Santiago Accords and the Inter-American 
Democratic Charter because it seems to me, by plain English, 
that we have, in effect, accepted the responsibility of coming 
to the protection of a democratic government that's under 
siege, or follow the procedure laid out in Article 21, which is 
to suspend that nation from participation in the OAS and, thus, 
from the OAS's responsibility to protect. And we did not follow 
that legal procedure.
    Mr. Noriega. Can I just comment on that, very briefly? It's 
a very telling point to me that the Government of Haiti, in all 
of the last several years, since that charter was approved, 
never invoked the self-help mechanism of Article 17. And the 
reason was, we came to understand, that it would create an 
obligation on their part to respect the essential elements of 
democracy and, they felt, would put them on a course toward 
suspension because they were systematically violating all of 
the essential elements of democracy. On several occasions--as 
Chairman of the Permanent Council, I asked the Ambassador of 
Haiti, ``Why don't you use Article 17?'' I never got an 
effective answer. That was 18 months ago. That was in July of 
2002, I think it was. And they never did. And the reason was, 
President Aristide knew that he did not measure up to those 
standards of respecting the essential elements of democracy, as 
laid out in that charter.
    Senator Graham. Thank you.
    Senator Nelson. Mr. Chairman, just before Senator DeWine 
leaves----
    Senator DeWine. I'll come right back. I'll come right back.
    Senator Nelson. Well, I just want to say, he's getting 
ready to offer--and I'm going to help him--an amendment to the 
budget resolution, tonight, to take the administration's 
position from $50 million for Haiti to $150 million, which--
it's a generally agreed-upon figure. If you could get a signal 
from the White House agreeing to that, we could pass his 
amendment tonight on the budget resolution.
    Mr. Noriega. I'll get on the phone, sir.
    Senator Coleman. Let me--we're going to end this panel. My 
colleague, Senator Dodd, assures me that he has a narrowly 
focused question on a local issue. I am going to yield to him 
for that purpose only.
    Senator Dodd. Thank you. Thank you. Thank you.
    Well, just one--I wanted to ask Mr. Franco one quick 
question. There was a fellow--someone at USAID, who 
countermanded the Ambassador's decision regarding Stanley 
Lucas, and do you know who that is, Mr. Franco?
    Mr. Franco. That countermanded----
    Senator Dodd. The decision by the American ambassador not 
to have Stanley Lucas involved in the IRI program.
    Mr. Franco. Well, the best of my recollection on this, 
Senator Dodd, is--and I had conversations with Ambassador 
Curran at time about this--he requested that we work out an 
accommodation. It would have been his preference, I think, not 
to have Mr. Lucas involved in----
    Senator Dodd. Who countermanded--who countermanded that?
    Mr. Franco. I don't think anyone countermanded. I think 
there were discussions and an agreement reached with Ambassador 
Curran on how we would proceed with the IRI grant and what Mr. 
Lucas's participation would be in that grant. Subsequent to 
that, based on the agreement we had with Ambassador Curran, I 
think there was a mistake made by IRI, in terms of what his 
participation would be, and there was a violation of that 
agreement that Ambassador Curran, IRI, and we had all worked 
out.
    Senator Dodd. Well, as I mentioned, we've got the--I've 
asked the Inspector General to take a look at the whole thing. 
Have you examined, by the way, the $1.2 million, how that 
money's been expended? Have you been following that?
    Mr. Franco. Yes, we have, sir.
    Senator Dodd. Okay, fine.
    Mr. Franco. One--oh, I'm sorry.
    Senator Dodd. No, just--I wanted to--and I'll make a 
request--I have the--there's a Haitian Health Foundation which 
I know you're aware of; it's out of the Diocese of Norwich, 
Connecticut, Dr. Jerry Lowney, who's been very--been living 
there for years--going down--Dennis, from my old congressional 
district--go to Haiti on a regular basis to perform voluntary 
medical services in the town of Jeremie, way out in that far 
peninsula point.
    Mr. Franco. I'm aware of that.
    Senator Dodd. And they've currently got a couple of grants 
pending.
    Mr. Franco. Yes.
    Senator Dodd. And they're worried about how this is all 
going to work out, and I'd appreciate it if you'd take a look 
at those.
    And, lastly, Mr. Chairman, let me just say here, I--Senator 
Graham has made the point again--aside from--and, obviously, 
we're going to go forward, and I applaud what Senator DeWine 
and others are doing. But the precedent-setting nature of how 
we handle this situation--these agreements and charters must 
mean something. If they don't mean anything, then what are we 
doing them for, and why do we hold others to a standard that we 
aren't willing to meet ourselves.
    And I say this to you, Mr. Noriega, but knowing of the 
statements made by the Secretary of State, knowing how our 
ambassador votes on the 24th of February, knowing we turned 
down Mr. Aristide, despite a request to stand in assistance, 
knowing we're dealing with a small group of thugs at the time, 
knowing that we have support going on for meetings with 
opposition groups in the Dominican Republic, and so forth, this 
looks very messy, to put it mildly. And I think it's further 
evidence of people's uneasiness about the conduct of foreign 
policy.
    Mr. Aristide wasn't in the palace in Haiti by some coup. He 
was there because he was elected twice, overwhelmingly, by the 
people of Haiti. Now, I know that you and others have always 
had a problem with Mr. Aristide. But the people of that country 
elected him twice. He stepped down from office, served in 
private life, when Mr. Preval was Prime Minister, ran again for 
election under the constitution. That's the first time I know 
of in Haitian history that we've had a democratic transition of 
government like this. And we walked away from this.
    I'm profoundly concerned that others are going to see that 
example in Haiti as a further rationale to maybe engage in that 
sort of conduct again if they don't like the new government 
that emerges here.
    So I'm--I don't want to dwell on this particular point, but 
I don't think you can just brush by it and say, well, that's 
history. That's over with. We may regret certain things, but 
we're not going to worry about it too much. I worry about it 
very, very much, because these charters either mean something 
or they don't. And if we're going to sign onto them, then we 
ought to be willing to stand up and try and defend them.
    Secretary Powell did that, in my view. The Secretary of 
State did it for several days. For whatever reason, he was 
overridden by someone else's sense of decision or sense of 
agenda here, and I regret that deeply.
    But I appreciate very much having the hearing today.
    Senator Coleman. Thank you.
    Mr. Noriega, I'm not going to actually--I'm actually going 
to--I'd prefer not to debate this point. Let me close.
    Mr. Noriega. Right.
    Senator Coleman. Because I've heard the answer.
    Mr. Noriega. But I have to----
    Senator Coleman. And let me----
    Mr. Noriega. It's not that point. I was--on IRI, but----
    Senator Coleman. Very briefly.
    Mr. Noriega. I just wanted to note, for the record, that 
George Fauriol, who's the project director--vice president of 
IRI--he's project director of IRI in Haiti, spent a great deal 
of time on the phone with opposition leaders trying to convince 
them to join in this power-sharing deal. I got one e-mail from 
him at 12:34 in the morning, around February 24th. So he was 
working very hard trying to get these people to buy into that 
deal. And that, frankly, is the role he should have been 
playing. And I didn't want to leave the impression that somehow 
IRI wasn't playing a bona fide role here.
    Sorry, Mr. Chairman. Thank you very much for your 
indulgence.
    Senator Coleman. Thanks. And I was going to say, and I'll 
say to my friend and colleague, obviously there are some 
different perspectives on this. It's clear that there's a 
perspective that says Aristide never lived up to these 
agreements, never wanted to live up to these agreements, and 
never invoked those agreements, and that between the time that 
early statements were made by Secretary Powell, there was a 
series of actions and conducts of incitement of violence that 
significantly changed the situation. We may want to revisit 
that at some point in time, but I really do hope that we can 
figure out a way to move forward.
    I'm going to call the second panel. I'm going to apologize 
to the second panel that they've waited so long. But the future 
of Haiti is at stake.
    Mr. Franco, you are compelled to say one last thing before 
we move on?
    Mr. Franco. I want it to end on a very positive note, Mr. 
Chairman, about the Haitian Health Foundation, Senator Dodd. 
The president of the Haitian Health Foundation is in Port-au-
Prince today. We dispatched a plane yesterday to pick her up 
for consultations in Port-au-Prince, and we delivered supplies 
to the orphanage there.
    Senator Coleman. On that very positive note, I appreciate 
participation. Thank you, gentlemen.
    Our second panel is made up of Ambassador Jim Dobbins, 
former U.S. Ambassador to Haiti, and currently Director of 
International Security & Defense Policy at RAND; Ambassador 
Lawrence (Larry) Pezzullo, former U.S. Envoy to Haiti, retired; 
Mr. Michael Heinl, co-author, Written in Blood, The Story of 
the Haitian People 1492 to 1971, and Dr. Robert (Bob) Maguire, 
Director of Programs in International Affairs, Trinity College.

    [Pause.]

    Senator Nelson [presiding]. Ambassador Dobbins.
    Ambassador Dobbins. Senator?
    Senator Nelson. You don't have to stand. You can sit.
    Ambassador Dobbins. No, no, I'm going to. Don't worry.
    Thank you.
    Senator Nelson. Please.
    Ambassador Dobbins. Would you like me to start?
    Senator Nelson. Please proceed.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
            SECURITY AND DEFENSE POLICY CENTER, RAND

    Ambassador Dobbins. Well, thank you.
    Thank you, Senator, and thank you to the committee for 
inviting me and the rest of the panel here today.
    I think, for those of us who were involved in America's 
intervention in Haiti of a decade ago, we ask ourselves, and I 
expect you'll ask us what went wrong. Why wasn't this fairly 
significant effort of more enduring value? And I think there's 
several answers to the question.
    The easy answer is, it's President Aristide's fault. And I 
think that's an accurate answer insofar as it goes. President 
Aristide did fail to seize the many opportunities that were 
offered to him and to Haiti to move forward. He consistently 
blocked necessary economic reforms. He refused to disassociate 
himself from elements of his support that were corrupt. And he 
never worked to ensure that the many elections, which he was 
going to win in any case, were free and fair and above-board.
    I think that many people are unhappy about the manner of 
President's Aristide's departure. I suspect fewer are unhappy 
about the fact of his departure. And I suspect fewer still 
would like him to come back. Although given Haiti's penchant 
for endlessly repeated tragedy, I don't think it's an 
eventuality that one could absolutely exclude at this stage.
    I think it's too easy, though, to blame Haiti's problems 
and current plight on President Aristide, and I think we miss 
an opportunity to critique our own mistakes of the past decade, 
of which there are numerous.
    Reflecting on the decade, let me just go through the 
lessons that I draw from it.
    First, that exit strategies and departure deadlines are 
incompatible with the enduring reform of failed or failing 
states. In the aftermath of Somalia, the Clinton administration 
went in with a very narrow political margin. It committed 
itself to leave within two years. It felt constrained to make 
that commitment. Worse still, it felt constrained to keep the 
commitment. Two years is simply too short a time to fix a 
society as broken as is Haiti.
    Second, that institution-building in failed states required 
significant resources. In the aftermath of the American 
intervention, U.S. aid to Haiti went to the astronomical level 
of $200 million a year. In the light of subsequent American 
nation-building efforts, this is a pitifully small sum. Bosnia, 
only two years later, received seven times more assistance, on 
a per-capita basis, despite the fact that Haiti was much more 
needy than Bosnia. Kosovo received four times more. And today 
Iraq is receiving 30 times more assistance, on a per-capita 
basis, than Haiti did at the absolute peak of American 
interest. These sums are simply too small to underwrite the 
kind of fundamental reforms that would make our interventions 
of lasting significance.
    Third, Haiti is too polarized to conduct its own elections. 
The opposition wouldn't trust Aristide. If these elections are 
organized by the new government, Aristide supporters aren't 
going to trust them, will refuse to run, and then will try to 
discredit the process. I believe the U.N. or the OAS needs, not 
only to support a Haitian-government-run election, it needs to 
actually run the election and be the ultimate arbiter when 
disputes arise.
    Fourth, we need to provide direct assistance to the Haitian 
Government. Even the Clinton administration was disposed to put 
most of its assistance through NGOs because it was worried 
about accountability and possible misuse of funds. This is 
applying a band-aid to the situation in Haiti. Haiti needs 
institutions. It's not going to get institutions unless we help 
fund those institutions and unless we use those institutions to 
deliver assistance to the Haitian people.
    Fifth, we need to move quickly to push through basic 
economic reforms. It's natural enough in these kinds of 
situations to focus on the security and the political aspects 
because those seem an early ticket out. And I think, back in 
the mid '90s, we didn't put enough emphasis on doing the basic 
economic reforms--things like the electric company, the 
telephone company, the port, the other things that Haiti needs 
to become a functioning society and a magnet for investment--
until our influence had diminished to the point where we simply 
couldn't push them over the barrier.
    Sixth, security is more than police. We built up a good 
police department. But the best police department in the world, 
if it doesn't have courts to try criminals, and prisons to put 
them in, is left with no choice when it catches a criminal but 
to kill him or let him go. And either of those ultimately 
corrupts the force, as it did corrupt the force that we built.
    Seventh, don't cut off assistance to Haiti unless you're 
willing to invade. Haiti is simply too weak, its institutions 
too dependent on foreign assistance, to survive a prolonged 
period of international isolation. We cut off assistance to 
Haiti in 1991, and we had to invade in 1994. We cut off 
assistance in 2000, we had to invade in 2004. It follows almost 
as the night the day. So you either have to stomach the 
government that's there, and assist them, or you have to 
determine that you're ultimately going to intervene once again.
    And, finally, the lesson I draw is that reconciliation in 
Haiti has to begin in Washington. Of all of America's nation-
building missions, all of which have been controversial, none 
has been more controversial than Haiti, and none has been more 
partisanly controversial than Haiti. Haiti's leaders have 
learned that if you don't like American policy, just wait until 
the next election. It's all too often that Haiti's political 
leaders would rather listen to their patrons and their 
champions in Washington than to the American Ambassador. And 
America's not going to be able to exercise its full influence 
and its potential influence in Haiti unless it does it on the 
basis of a bipartisan consensus. We've had Democratic policies; 
ultimately, they didn't work. We had Republican policies; they 
obviously didn't work. I think we should try to give a 
bipartisan effort a real shot.
    Now, having said we made a number of mistakes, we didn't do 
everything wrong back in the early '90s, and we ought to look 
at some of the things we did right and try to emulate them.
    First of all, we put in a very large, capable force, and we 
established security in Haiti within days. There is a danger 
that we're now doing in Haiti exactly what we've done in 
Afghanistan and Iraq, which is dribble forces in, fight the 
problem, deny that more is necessary, never secure control of 
the streets, and fight a rear-guard battle for months or years 
thereafter. We really ought to follow the more-is-better 
dictum, which several Senators here have already made.
    Second, we put in significant numbers of police. For the 
first time ever, a thousand armed international police were put 
in as part of that peacekeeping force. This was an innovation 
in international peacekeeping, which has been imitated since, 
and ought to be imitated again in Haiti.
    Third, the transition from the U.S.-led phase to the U.N.-
led phase went exceptionally smoothly in Haiti during the 
Clinton intervention. We worked closely with the United 
Nations. It was a seamless transition. The United States 
participated significantly in the U.N. phase of the operation. 
The military part of the U.N. peacekeeping effort was commanded 
by a U.S. general, and there were significant U.S. troops in it 
serving under U.S.--under U.N. control, without the slightest 
incident. And we all know that only the United States has 
significant influence in Haiti. The United Nations is an 
important instrumentality through which we can appropriately 
and legitimately exercise that influence, but it's not an 
alternative to a continued American engagement, and I certainly 
hope that this administration will look at the very successful 
record of U.N. and U.S. collaboration in the mid '90s when it 
looks at how to design the next phase of our engagement there.
    I think that's--those are my lessons and conclusions, 
Senator.
    Thank you.

    [The prepared statement of Ambassador Dobbins follows:]

                 Prepared Statement of James Dobbins\1\
---------------------------------------------------------------------------

    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    I would like to thank you and the committee for inviting me to 
testify today on Haiti. It is said that history repeats itself, first 
as tragedy and then as farce. Haiti, sad to say, goes only from tragedy 
to tragedy. American Marines are engaged in our fourth intervention in 
Haiti in ninety years. Jean Bertrand Aristide is the thirty third 
Haitian President to be driven from office, in his case for the second 
time.
    Those of us who worked to organize the last American intervention, 
in 1994, thought we had given Haiti the opportunity to break this cycle 
of misrule, poverty and instability. Our hopes have been disappointed. 
More importantly, so have those of the Haitian people.
    Even as America reluctantly launches upon another round of nation-
building in Haiti, it is worth examining what went wrong with the last 
effort and why those hopes were disappointed.
    The short answer is that President Aristide failed to avail himself 
of the multiple opportunities he was provided, from 1994 onward, to set 
Haiti on the path to democracy and prosperity. He blocked the economic 
reforms that would have made Haiti more attractive for foreign private 
and public investment. He refused to disassociate himself from 
supporters with records of corrupt or abusive behavior. He never worked 
sufficiently to create a level electoral playing field, even when his 
own overwhelming popularity would have assured him and his party 
ultimate victory.
    President Aristide is preeminently responsible for his and Haiti's 
current plight. While there may be a good number here and in Haiti that 
regret the manner of his going, fewer, I expect, regret that he has 
gone, and even fewer would like to see him return. Given Haiti's 
penchant for cyclical tragedy, however, such a turn of events cannot be 
excluded.
    To blame Haiti's current crisis exclusively on President Aristide 
is to miss an opportunity to learn from our own mistakes over the past 
decade. Even against the background of Aristide's intractability, 
different American decisions at multiple points over the past decade 
would have produced different and better results. Personally, I draw 
the following lessons from this decade.

          (1) Exit strategies and departure deadlines are incompatible 
        with enduring reform of failed states. In the wake the Somalia 
        fiasco, nation-building became a term of derision. In 1994 the 
        Clinton administration's political margin for another such 
        operation in Haiti was exceedingly narrow. President Clinton 
        felt constrained to promise that the American troop commitment 
        would last no longer than two years. Worse still, when the time 
        came, he still felt constrained to keep that commitment. Two 
        years is too short a period to fix a society as profoundly 
        broken as Haiti.

          (2) Institution building in failed states requires 
        significant resources applied over extended periods. American 
        and international assistance to Haiti, even at the peak of the 
        Clinton administration's interest, was, in comparison with 
        subsequent more successful efforts, very low. Only two years 
        later Bosnia received seven times more assistance on a per 
        capita basis. Kosovo received four times more. Today, Iraq is 
        receiving more than thirty times more American assistance, on a 
        per capita basis, and one hundred times more in absolute terms 
        than Haiti received in the immediate aftermath of the last U.S. 
        intervention. None of these other societies is remotely as 
        needy as is Haiti, and none of them lies on our very doorstep.

          (3) Haiti is too polarized to conduct its own elections. 
        Since 1995 each Haitian election has been worse organized than 
        the last. How much of this was due to incompetence and how much 
        to willful manipulation has been hard to establish. Opposition 
        parties were never willing to give the Haitian electoral 
        authorities the benefit of the doubt in these matters. One must 
        anticipate that the political forces associated with Aristide 
        will be equally suspicious of any election organized by his 
        successors. As it has done in Bosnia, Kosovo, Cambodia and East 
        Timor, the international community needs to do more than 
        support Haitian authorities in organizing the next elections. 
        The UN or the OAS should organize and oversee the balloting and 
        be the final authority in adjudicating any disputes that arise.

          (4) Provide significant assistance directly to and through 
        the Haitian government. Donors have long preferred to provide 
        the bulk of their aid to Haiti through NGO's in order to ensure 
        accountability and appropriate use of their funding. The result 
        is to simply apply band-aids, as foreign experts and 
        organization temporarily provide what should be government 
        services to individual Haitians, without doing anything to 
        build up the capacity of the Haitian government.

          (5) Push through basic economic reforms while U.S. and 
        international leverage is at its maximum. It is natural to 
        focus initially upon matters of security and politics, which 
        seem to offer the keys to an early exit. The most difficult 
        reforms to introduce in Haiti, however, will be economic ones, 
        putting badly mismanaged state monopolies, like the electric 
        and telephone monopolies, and the port on a sound commercial 
        basis. The earlier these steps are embarked upon, the likelier 
        it is that progress can be made before international interest 
        and influence begins to wane.

          (6) Security is more than police. Rebuilding the Haitian 
        National Police is the easiest of the reconstruction tasks 
        before us today, because it is the institution that was 
        adequately funded in the mid 1990's. This time around, equal 
        attention and adequate funding should be given to judicial and 
        penal reform.

          (7) Don't cut off assistance to Haiti unless you are willing 
        to send troops. In the early 1990s the imposition of sanctions 
        on the Cedras regime led to large-scale refugee flows and the 
        1994 U.S. intervention. A decade later the international 
        communities' decision to cut off assistance to the Haitian 
        government again after the flawed 2000 Senate elections was 
        perfectly justified but quite unwise. Unable to deliver even 
        minimally on his electoral promises, Aristide's popularity 
        waned, and his reliance on force increased, just as had that of 
        the Cedras regime in similar circumstances a decade earlier. 
        Without formal and legitimate instruments through which to 
        govern, Aristide was forced to rely, even more than he 
        otherwise might, on informal and illegitimate sources of power. 
        Absent international support, Haiti's already weak institutions 
        disintegrated to the point where a few hundred armed criminals 
        credibly threatened to take over the country. Haiti's next 
        government will come to power through a similar reliance, 
        however unwilling, upon criminal and abusive elements in the 
        society. This cycle can be broken only through a long term U.S. 
        and international effort to develop Haitian institutions for 
        governance.

          (8) Reconciliation in Haiti must begin in Washington. All of 
        America's nation-building missions have been controversial at 
        home, but none more so than Haiti, and none in so partisan a 
        manner. Somalia, Bosnia, Kosovo, Afghanistan and Iraq have had 
        critics and supporters in both parties. With Haiti, the debate 
        has been the bitterest, and conducted most along party lines. 
        American influence has been less effective as a result. Haitian 
        political leaders have learned that if you do not like U.S. 
        policy, just wait till the next election. Haitian factions 
        often listen more to their advocates in Washington than the 
        American Ambassador. Against the background of the last decade, 
        it is fair to say that neither the distinctly different 
        Democratic or Republican approach to Haiti have yielded great 
        results. The time has come to construct a bipartisan effort to 
        help Haiti break its endless cycle of misrule, poverty and 
        chaos.

    It would be wrong to suggest that we did nothing right in Haiti a 
decade ago. There were aspects of the 1994 intervention that were 
successful and should be emulated. Nearly one thousand international 
police were introduced in 1994 along with the military peacekeepers, an 
innovation in international peace operations. The transition from the 
U.S. led multinational coalition to the UN run peacekeeping mission six 
months after the arrival of U.S. troops was well prepared and nearly 
seamless. U.S. troops continued to serve in Haiti under UN control. An 
American General commanded the UN force. The U.S. and the UN 
collaborated closely and without friction.
    Only the United States has real influence in Haiti. The more united 
we are at home, the more decisive that influence will be. The UN is the 
appropriate institutional framework through which the U.S. can bring 
that influence to bear. The UN is in no sense an alternative to 
American leadership and engagement. As we look toward the transition 
from U.S. to UN control over peacekeeping in Haiti, therefore, we 
should not view this as an opportunity for American disengagement, but 
rather a means to share the burden more broadly and to secure full 
international and local legitimacy for the sustained efforts, which 
must ensue.

    Senator Nelson. Thank you very much.
    Ambassador Pezzullo.

STATEMENT OF HON. LAWRENCE PEZZULLO, FORMER U.S. SPECIAL ENVOY 
              TO HAITI (RETIRED), WASHINGTON, D.C.

    Ambassador Pezzullo. Let me begin with one, I think, 
central issue here, and that is the question of bipartisanship.
    Senator Nelson. Try it again.
    Ambassador Pezzullo. The question of bipartisanship. I 
mean, we've already heard here, and at other hearings, the 
finger-pointing and the constant questioning of our role, our 
position, our attitude. It gets to a point where we forget the 
Haitians. And I think, as much as we can look at the failures 
of Haitians to govern themselves, these are a traumatized 
people, for good reason, and they can't look back much to their 
history to find lessons. So, indeed, their lack of confidence 
is basic. But when they look at a Washington, and hear a 
Washington, constantly questioning itself, not necessarily 
Haiti--and I would question the expertise of the people who 
talk about Haiti--the arrogance we show--we wouldn't be that 
arrogant about our own country very often, but we're very 
arrogant when it comes to making judgements about what's going 
on in another country, what the attitudes are, who they are, 
what--where they fit into--you know, detrimental to their own 
capacity to govern their own land. That's fundamental.
    Now, as to where we are and where we go, I do think we 
should be looking ahead--very clearly looking ahead. And I 
think several things are basic. One, Haitians have to put this 
together. There's no question in my mind that, without them, 
really putting this thing together in a constitutional way is 
not going to work. I don't believe you have to bring in 
everybody in the world to run it for them. I do think they have 
to abide by, first of all, their constitution, which Aristide 
constantly winked at. The president of Haiti is not the chief 
of government; he's the chief of state. The prime minister is 
the chief of government. Aristide absorbed both those 
positions. The prime minister is responsive to the parliament. 
Aristide's prime ministers were never responsive to a 
parliament. They considered parliament a unnecessary body. So 
they undercut the very basic aspects, the basic institution of 
the country, they undercut. And you've got to begin there.
    What's promising to me is that this new democratic group 
has followed a pattern already very constitutional, which 
ultimately, if followed--and we should insist that they follow, 
and aid should be tied to their following; no question in my 
mind--that constitutional process should bring them to a point 
where they do have an elected president, they do have a new 
elected prime minister, they do have a new parliament. And that 
parliament and prime minister and president should adhere to 
the tenets of their own constitution.
    Without a governmental process in place, a political 
process in place, foreign assistance rarely works. We 
constantly talk about foreign assistance as if it's some 
magical thing. It's not really a question of absorptive 
capacity; that's sort of a technical term people like to use. 
It's really the capacity of institutions of government, 
politically, to deal with intelligence. And it's not the 
expertise from outside. I mean, there are a million people who 
have worked in assistance around the world who can tell you 
what happened at Turkey ten years ago, and what happened in 
Vietnam, and what happened in every other country you can think 
of. The fact of the matter, it has to be built into the home 
environment, into the home psyche.
    So you need a government, to begin with, that adheres to 
its own laws, that has competent people in place. And after 
that--and this would be my concern--you stay very, very close 
to it. You just don't talk about levels of aid; you talk about 
implementations of aid, you talk about the order of the aid, 
you talk about researching what happened to the aid, you go 
back and study. There is a terrible fallacy in the aid field, 
and you find it in the World Bank, in AID, and everywhere. 
They'll spend forever studying the details of a program--
feasibility studies, study after study, expert visits, and so 
on. But once the aid is finalized, forget it. Nobody ever goes 
back in. They're too busy looking at the other program, and the 
next one, the next one. Terrible. Terrible for the recipient 
because they know nobody watches. Terrible for the process 
because you say it failed. And terrible for those who say, what 
are we throwing our money down a rat hole for. It's got to be 
followed very carefully, by us and by other donors.
    At the same time, there has to be a respect, which I'm 
afraid we fail to offer to recipient countries, especially to 
this new, nascent government. We should step back and give them 
at least the respect of a new nation trying to govern itself 
and be very intrusive, in the sense of wanting to know, but not 
going beyond that. That takes a lot of skill and patience, and 
a little less over-the-shoulder coaching from the United 
States.
    So my cardinal concerns would be bipartisanship here, but 
really bipartisanship, respect for the Haitians, but forcing 
them to adhere to their own constitutional structure.
    Thank you.

    [The prepared statement of Ambassador Pezzullo follows:]

                Prepared Statement of Lawrence Pezzullo

    Mister Chairman and members of the Subcommittee, I appreciate your 
invitation to testify on the subject of ``A Fresh Start for Haiti. 
Charting the Future of U.S.-Haitian Relations.''
    Once again events in Haiti have commanded the attention of the 
world community and make urgent the need for the United States and 
other international actors to restore public order and help Haitians 
build for the future.
              a. haitian initiatives and responsibilities
    Since Haitians have to take the lead in reconciling their 
differences and setting the foundation for a viable future, let me 
outline first the critical steps Haitians must take and then speak of 
the supportive contributions the United States and other external 
actors can make.
    It would be a mistake to underestimate the difficulties that lie 
ahead for the Haitian people and those who are chosen to lead the 
country. They have been deeply traumatized by recent events and draw 
few useful lessons from Haiti's history of governmental failure. But 
staring into an abyss has a way of focusing attention. I believe the 
leaders of the democratic opposition to the former government recognize 
the hazards and opportunities that lie ahead and are up to the 
challenges.
    1. The Haitians have moved quickly to initiate the CARICOM proposal 
by forming a tripartite commission, which, in turn, will appoint a 
group of elders to select a new Prime Minister. That process must 
proceed quickly. Any delay in selecting a new Prime Minister will 
perpetuate the current leadership vacuum and offer opportunities to 
dissident elements interested in perpetuating conflict and or seeking 
partisan gains. Any remaining rebel forces must be urged to commit 
themselves to support the new government and to turn in their arms to 
police authorities.
    2. The new PM must form a broad-based interim government of 
``national reconciliation'' that commits itself to abide by the Haitian 
Constitution in governing and overseeing a transition to a newly 
elected democratic government. National reconciliation must be more 
than a slogan, given the polarization of Haitian society engendered by 
the last government. The interim government would be well advised to 
call upon the advice and resources of international organizations that 
have focused on the strengthening of ``civil society.''
    3. The interim government must honor the international commitments 
and obligations of the previous government. It also must appeal to the 
international community, (a) to provide peacekeepers until a revamped 
police force can maintain public order, (b) to continue humanitarian 
assistance programs and (c) to provide technical and economic 
assistance in fields ranging from job creation to executive training.
    4. The interim government would be well advised to open a public 
dialogue with the Haitian people to keep them informed of government 
activities and plans and to seek their support and cooperation. That in 
itself would be an innovative departure from the paternalistic 
tradition of the past, especially if it incorporated a feedback 
mechanism to help the government keep its finger on the public pulse. 
It would be a good way to begin making public officials accountable.
                             b. u.s. policy
    The United States has been drawn into the current Haitian crisis as 
it has on many occasions in the past. This time we should try to do it 
right. It will take discipline and subtlety; neither of which comes in 
large supply during crises and especially in a presidential election 
year. Already much of what passes for debate in this country has been 
finger pointing. That's the worst way to start, if we hope to play a 
constructive role in helping Haiti.
    We need the statesmen in both political parties to come forward and 
set a tone of bipartisanship: the quicker the better. Otherwise, 
whatever positive contribution we might make in the Haiti situation 
will not have the congressional support needed, and we will find 
ourselves debating the wrong issues, sending the wrong signals and 
ultimately working at cross purposes with the democratic forces in 
Haiti that desperately need our mature counsel, support and assistance.
    Assuming we can attain some degree of discipline and focus on our 
contributions in Haiti, the policy should be one of nonobtrusive 
involvement. That would require us to be deeply involved every step of 
the way as the new interim government organizes itself, sets priorities 
and begins implementing programs. We must insist that, inter alia, it 
abides by the Haitian Constitution, is broad based, is conferring with 
the public, is meeting its international obligations and begins early 
on to make plans and seek assistance to hold national elections. Our 
technical and economic assistance programs should be monitored closely, 
audited and reviewed regularly. (Below find suggested areas of U.S. 
Government Assistance.)
    Involvement at the level of intensity noted requires political and 
social skills of a high order. The success of our involvement hinges in 
large measure on the quality of our personnel engaged in the Haiti 
crisis.
    It is easy to lap over into obtrusiveness when involvement is as 
intensive as recommended. It is one thing to insist that programs be 
implemented effectively, quite another to be seen as dictating. 
Haitians are not alone in thinking that the United States marches to 
the beat of its own drum, indifferent to the interests of people in the 
Third World. To be effective in helping the new Haitian leadership find 
its own way that stereotype must not be given credence. After all, the 
prime objective in Haiti is to build a new political culture based on 
the rule of law, which encourages greater citizen participation and 
attracts self confident and capable people to enter public service. Big 
Brother will not get you there.
                c. suggested u.s. government initiatives
  <bullet> Leadership in calling donor conference for new Haitian 
        Government

  <bullet> Continued leadership in Peacekeeping

  <bullet> Immediately unfreeze suspended assistance program funds

  <bullet> Support programs that build civil society and encourage 
        other donor's contributions

  <bullet> Support electoral preparation and encourage other donors to 
        offer assistance

  <bullet> Initiate job-creation programs

  <bullet> Encourage IFIs to invest in infrastructure projects and 
        ecology

  <bullet> Reinstitute police training program

  <bullet> Reopen program to build independent judiciary

  <bullet> Consider Haiti for inclusion in ``Free Trade'' agreements

    Senator Nelson. Thank you, Ambassador.
    Ambassador Dobbins, do you need to catch a plane?
    Ambassador Dobbins. No, no, I changed my plans. But thank 
you very much, Senator.
    Senator Nelson. Well, thank you.
    Mr. Heinl.

STATEMENT OF MICHAEL HEINL, CO-AUTHOR, ``WRITTEN IN BLOOD, THE 
   STORY OF THE HAITIAN PEOPLE 1492-1995,'' WASHINGTON, D.C.

    Mr. Heinl. I thank the committee for the invitation to 
speak.
    I was asked, in the committee's invitation, to ponder three 
things. First of all, is this moment an opportunity for a fresh 
start in Haitian-American relations? Second, can Haiti be, 
quote, turned around, unquote? And, finally, what kind of help 
does Haiti need?
    The current situation is an opportunity to change the 
nature of our engagement with Haiti. But whether all parties 
will or can avail themselves of it is very much an open 
question. For the good of both countries, the cycle of paying 
attention to Haiti only when a crisis is brewing or when 
American economic or geopolitical interests are perceived as 
being at stake, can and must be broken.
    Haiti and its problems are problems of the hemisphere. 
Failure on the part of those interested in Haiti to frame and 
implement short-, medium-, and long-term policies will lead to 
growing dangers in the Western Hemisphere from disease, ever-
worsening environmental degradation, violence, unchecked drug 
trafficking, and overwhelming refugee outflows.
    The United States, for its part, has to evolve towards 
Haiti a consistent, long-term policy which will bring to bear 
our treasure and influence in ways which will benefit both 
Haiti and the United States. Our relationship need not be a 
zero-sum game. We can advocate policies that protect the 
interests of the United States and its citizens without acting 
to the detriment of Haiti and its people.
    The goodwill that characterized the Haitian reception of 
foreign troops in 1994 is more muted and less widespread in 
2004. The foreign community has a narrow window to convince 
Haiti's urban masses that its intentions are benign.
    Woodrow Wilson said of Mexico, ``I will teach the Latin 
Americans to elect good men.'' Much of this governessy attitude 
towards Haiti still prevails in the international community. 
Indeed, even the framing of the question (Can Haiti be turned 
around?) suggests that Haiti is some sort of barge that can be 
towed hither or yon with little reference to those most 
affected, the Haitians. Haitians of all classes must have a 
sense of ownership of the process of rebuilding their country 
and its institutions.
    Key to everything will be security. Funds must be ensured 
for prompt payment of salaries to judges, teachers, and police. 
Foreign troops will be required in Haiti long enough to train 
and mentor police, and to instill an ethos of independence, 
honesty, and professionalism. At least ten years will be 
required for this. Emergency job creation for the unemployed 
urban masses will go far to lower the temperature while longer-
term solutions are implemented. In this process, the Haitian 
Government will have to be held to far stricter standards of 
accountability than heretofore.
    Aid to Haiti falls into three categories: short, medium, 
and long term. While Haiti's needs are great, its absorptive 
capacity, with all due respect to Ambassador Pezzullo, is 
limited. Donor nations need not equate quality or efficacy of 
aid programs with amounts funded, particularly at the outset of 
this process.
    What follows is a short list of some of the items that need 
to be addressed.
    Short term: one, secure the country, so interrupted feeding 
programs can be resumed. Reduce the number of weapons in 
circulation. Two, get emergency generating capacity in to 
assure stable electricity supply in the major cities, 
particularly Port-au-Prince. Several barges from Hydro Quebec 
anchored in Port-au-Prince harbor supplying current to Port-au-
Prince's poor would buy time for other reforms. Three, start or 
revive public-works programs to get cash into the economy. 
Four, back-salary payments should be made immediately to 
police, judges, teachers, and other public-sector employees. 
Five, freeze payments on all Haiti's international debt. Most 
new aid should be structured as grants, rather than loans.
    In the medium term, Haiti's medium-terms interests have 
long been apparent. First, potable water programs. Second, 
harbor dredging and rebuilding in provincial ports. Only by 
reviving the moribund economies of the provinces will the 
flight to major urban centers diminish. Three, funding of AIDS 
treatment and prevention on the lines developed by Paul Farmer 
in the Plateau Central. Also, nationwide campaigns against 
malaria and tuberculosis need to be undertaken. Four, 
preferential U.S. tariffs for products made in Haitian assembly 
plants. Five, reforestation. Six, rural electrification and 
irrigation. Seven, regularization of land titles, and a look at 
ways to encourage Haiti's diaspora to invest their talents and 
money in the motherland.
    In the long term, addressing all of the above issues will 
be so much writing on water if the foreign community does not 
enable Haitians to effect a sea change in the culture that has 
brought them to this point. Writing in 1929, after 14 years of 
American occupation, the British Minister in Port-au-Prince 
observed the failure of American aid programs, ``with their 
batteries of experts in Buicks and promises of prosperity on 
the Illinois model.'' This has been the fate of most foreign 
aid to Haiti. This may be one of the last opportunities for 
Haiti and the international community to get it right.
    Thank you very much.
    Senator Coleman [presiding]: Thank you, Mr. Heinl.
    Dr. Maguire.

      STATEMENT OF ROBERT MAGUIRE, DIRECTOR, PROGRAMS IN 
    INTERNATIONAL AFFAIRS, TRINITY COLLEGE, WASHINGTON, D.C.

    Dr. Maguire. Yes, Mr. Chairman. Thank you very much for 
having me here today.
    I did submit a statement, which I would like put into the 
record, please, and I'll summarize.
    Senator Coleman. Without objection.
    Dr. Maguire. I've kind of been waiting 25 years to talk to 
you guys. So here's the chance.
    We've heard a lot about Secretary Powell's comments, back 
and forth, on Haiti, and I would say that two weeks ago, one 
thing he said is that he was disappointed in Mr. Aristide. And 
I believe we are all very disappointed in Mr. Aristide. There 
was much to be disappointed about.
    But I think as we've heard today in some of the back and 
forth that has occurred, we also need to express our 
disappointment in the opposition to Mr. Aristide, for their 
intransigence, their failure to engage over time, and their 
determined objective to broker their way into power. I think it 
was quite shocking that they rejected Secretary Powell's 
pleadings to come to the table, to accept the CARICOM solution, 
and to avoid what has happened today.
    In sum, I think we're not seeing, in the past years in 
Haiti, a struggle over issues, ideas, and principles, but more 
a matter of power struggle and a power grab. Hopefully, 
however, the process that's underway now will lead Haiti to a 
new political future, with fresh faces, and maybe some old 
faces that earn democratic credentials.
    I also think that Secretary Powell's disappointment should 
be extended to the policies and practices that were enacted on 
his watch, especially over the past three years.
    As I have outlined in this briefing paper of my Haiti 
program at Trinity College, our policies toward Haiti have 
evolved from ones of engagement to ones of estrangement, where 
we have been working assiduously to isolate the government, 
withhold resources from it, and punish it. And, in so doing, we 
have been sacrificing our leverage and influence over the 
government.
    I would echo a comment that I just heard on the panel here, 
that governments do merit some respect, especially if they're 
democratically elected. Haiti is not going to be Switzerland 
overnight. We have to accept that Haiti is going to have fits 
and starts and many mistakes. And when we sacrifice our 
leverage and influence, we turn our back on that government.
    Concurrently, I think we've been seeing in Washington a 
parallel presumptive policy working to strengthen the 
opposition, emboldening it, and suggesting that there are 
signals from Washington that its zero-option policy had 
Washington support. This is not my analysis alone. This 
analysis comes also from our former ambassador in Port-au-
Prince, who said, at his July 2003 speech to the Haitian 
American Chamber of Commerce, that:

          There's an incoherence in Haiti that has troubled me, 
        the incoherence of the way Washington's views are 
        interpreted here. Those of you who know me will realize 
        that since I arrived here as President Clinton's 
        ambassador, and then President Bush's, I've always 
        talked straight about U.S. policy and what might and 
        might not be new policy directions. But there were many 
        in Haiti who preferred not to listen to me, the 
        President's representative, but to their own friends in 
        Washington, sirens of extremism or revanchism on one 
        hand, or apologists on the other hand. They don't hold 
        official positions. I call them the chimere of 
        Washington.

    I think it's very important that we look into this. Who are 
these chimere in Washington, and what were they doing, and what 
were they saying, and what signals were they sending to Haiti? 
I think we need to respect this concern that our ambassador 
had.
    It seems to me that--over the years, we've seen a kind of 
gradual strangulation of the Government of Haiti, pushing Mr. 
Aristide and his government more and more into a corner, with 
predictable results. As your maneuvering space shrinks, 
sometimes you make bad decisions, sometimes you strike out and 
harm yourself. And with fewer and fewer resources, the 
government was left managing scarcity.
    I do disagree with Mr. Noriega, in the sense that we did 
cut off assistance to the Government of Haiti. As I understand 
it, all we have assisted has been the Haitian Coast Guard.
    With fewer and fewer resources, the government was left 
managing scarcity. And in the Haiti political reality, 
regardless of who you are, this means managing power, and it 
means turning to the gangs.
    We've seen, now, the departure of Mr. Aristide. I think the 
phrase that comes to my mind right now is a pyrrhic victory. As 
the country has descended into lawlessness, gunmen, revenge, 
and the settling of scores throughout the countryside, the 
infrastructure has also deteriorated. As bad as it was, it's 
gotten worse. We hear about the humanitarian crisis that is 
emerging. I spoke yesterday with Dr. Paul Farmer, and he has 
tremendous concerns about this, and attacks that have occurred 
on his hospital in the Central Plateau by the so-called rebels. 
We've seen the virtual Balkanization of the country into 
competing gang fiefdoms, and they're all well-armed. I'm very 
concerned that Haiti is vulnerable right now to become much 
more engaged in narco-trafficking. We've heard in past years 
that 9 to 13 percent of the cocaine that comes in to the U.S. 
goes through Haiti. Yesterday, I saw a citation that it was 25 
percent.
    I have five recommendations, but I'm just going to mention 
a couple of them, because several have already been mentioned.
    I would agree with the bipartisan approach, but I think one 
of the things we need to do to make sure we have a bipartisan 
approach is to attend our own wink-and-nod tendency toward 
Haiti. And if we're going to disarm the chimeres in Port-au-
Prince and in Haiti, I think, figuratively, we must disarm the 
chimeres of Washington, as well. We need to talk straight with 
Haiti.
    I think, as well, in terms of the issue of disarmament, 
while I applaud the initiative taken yesterday by the multi-
national force to go out and disarm, this is going to be very 
tough, because Haiti is much better armed now than it was ten 
years ago, when there were 21,000 troops and the Aristide 
government was asking for disarmament. It didn't happen then 
because our mandate was force protection.
    One thing I would point out, Haiti does not manufacture 
guns. Not a single gun is manufactured in Haiti. They all have 
to come from somewhere. Where do they come from? If we're going 
to disarm, we also have to move to stop the illicit flow of 
guns into Haiti, and there's just so much out there about the 
Dominican Republic that I think we really do have to get to the 
bottom of this.
    I'll just stop there, gentlemen, and close.

    [The prepared statement of Dr. Maguire follows:]

              Prepared Statement of Robert Maguire, Ph.D.

    Thank you, Mr. Chairman, for inviting me to speak before you and 
other members of the subcommittee. I am happy to have this opportunity 
to share my insights and analysis on Haiti. I have followed Haiti and 
Haiti-US policy issues for 25 years. Over that time I have come to know 
the country both from the ``bottom-up'' through work at the Inter-
American Foundation, a U.S. government agency, where I held 
responsibility for its grassroots development programs in Haiti, and 
from the ``top down'' through work at the U.S. Department of State in 
the Bureau of Western Hemisphere Affairs and scholarly activities at 
Johns Hopkins, Georgetown, and Brown Universities. I continue my 
involvement with Haiti as the Director of the Trinity College Haiti 
Program in Washington, DC, a program that has been supported by the 
Ford and the Rockefeller Foundations.

                             TODAY'S HAITI

    Today, in the streets of Port-au-Prince and throughout the Haitian 
countryside, we have been seeing the kind of murder and mayhem that 
characterized the country between 1991 and 1994, following a violent 
coup d'etat carried out by Haiti's army, leading to three years of 
brutal de facto military rule. Gunmen roam with impunity. Civilians are 
fired upon by armed thugs and snipers. Bodies mysteriously appear, some 
of them face down with hands bound and bullet holes in their backs. 
Rampaging mobs of civilians and erstwhile soldiers and members of 
paramilitary death squads attack public and private property, looting, 
burning and destroying in a practice that Haitians call dechoukaj, or 
uprooting. U.S. and other international troops, hustled into Haiti to 
protect the lives of their nationals and to try to stabilize this 
situation find themselves drawn increasingly into the middle of Haiti's 
muddled environment of anger, frustration, and fear, as their mission 
``creeps'' to include disarming the multitudes of Haitians with 
weapons.
    From the Central African Republic, Haiti's suddenly exiled 
President, Jean-Bertrand Aristide, insists that his removal was a 
coercive one while, concurrently, in Port-au-Prince a new, provisional 
President is sworn in under the watchful eyes of ambassadors and 
envoys, and a new Prime Minister is named by a group of citizens who 
now form a national political advisory board. All of this has this 
veteran Haiti-watcher thinking, Mr. Chairman, that we are seeing a case 
of ``deja vu all over again.''

                        MULTIPLE DISAPPOINTMENTS

    Two weeks ago, Secretary of State Cohn L. Powell stated that he had 
been ``disappointed'' with Haiti's now-deposed President, Jean-Bertrand 
Aristide. Secretary Powell is correct in this statement, as there is no 
doubt that Mr. Aristide provided much to be disappointed about. I will 
not elaborate here, as Mr. Aristide's detractors have already 
undertaken that task with much gusto.
    I wonder, however, if Mr. Powell has also been disappointed in 
Haiti's self-proclaimed democratic opposition, a group of political and 
economic leaders who have also given us much to criticize and regret. 
The single-minded intransigence of this largely ad hoc. group toward 
achieving its one, unifying objective--the removal of Mr. Aristide from 
office--has motivated it to behave rather undemocratically. Its leaders 
failed to engage in true democratic process as measured by elections 
and by negotiated solutions to political problems. Instead, 
particularly in recent months, they have appeared to practice that 
deeply rooted Haitian political practice of giving a ``wink and a nod'' 
to violence in the street if you believe it furthers your political 
objectives, emulating, unfortunately, a strategy amply employed by Mr. 
Aristide in recent years.
    And, over the past three years, they have acted with a veto from an 
empty chair at the negotiating table, repeatedly undermining or 
thwarting internationally-led attempts to find a solution to Haiti's 
political crisis. This included their rejection in late February of the 
urgings of Secretary Powell to accept the plan presented by CARICOM to 
achieve a peaceful, mediated solution to Haiti's longstanding crisis 
that would have permitted Haiti's elected President to serve out his 
term, while providing them with a shared role in the country's 
governance.
    This failure of U.S. influence when push came to shove in late 
February is doubly distressing since the personalities who comprise 
this opposition have been widely perceived as allies--even sycophants--
of Washington. Among these personalities are individuals who have 
participated for years in an array of political strategy meetings 
organized by the International Republican Institute using U.S. 
Government funds, and who have repeatedly visited Washington over the 
past three years. And, at least one of the highest profile leaders of 
this faction, Mr. Andre Apaid, is a U.S. citizen.
    As I scan this political landscape, Mr. Chairman, I get a strong 
sense of deja vu all over again, as self-styled and unelected political 
chiefs broker their way into power. In their mind's eye, again taking a 
page from deeply rooted Haitian political practice, the means justify 
the ends. And what are those ends? Allow me to state, Mr. Chairman, 
that what we have been seeing in Haiti over the past years is not a 
political struggle of competing issues, ideas, and principals. It is 
nothing more than a struggle among the political class and its allies, 
and the now-unseated government and its allies to seize, and/or to hold 
on to, power.
    Let us hope that the dust of confrontation and violence settles in 
Haiti and that moderate, reasonable voices, with viable ideas, will 
emerge from among those struggling for power, and that some true 
democratic credentials will begin to be earned. Let us hope, also, that 
new democratic voices, less tainted by participation in the tragic 
political confrontations of the past, will come forth to relieve the 
country of its largely failed leadership on both sides of the current 
political equation. Hopefully, the process currently underway to lead 
Haiti through to new parliamentary and then presidential elections will 
provide that opportunity.

                THE CONDUCT OF U.S. POLICY TOWARD HAITI

    In terms of disappointment, Mr. Chairman and members of the 
subcommittee, I also wonder whether this sense of Mr. Powell has 
extended to those who have been largely responsible for the conduct of 
U.S. policy toward Haiti since January 2001. As I have outlined in 
Trinity College Haiti Program Briefing Paper Number 8, U.S. Policy 
Toward Haiti: Engagement or Estrangement, published last November, over 
the past ten years, U.S. policy toward Haiti has evolved from one where 
our government was constructively engaged with the government of Haiti 
in an attempt to nurture democratic institutions and democratic 
practice in this country trying to find its way out of 200 years of bad 
and mostly authoritarian governance, to a policy that worked to isolate 
the Haitian government, withhold resources from it, punish it, and push 
it into a corner.
    Concurrently, as we constantly chastised that government, our 
efforts focused more and more exclusively on working with Haiti's 
opposition groups. In following this path, we sacrificed carefully 
constructed leverage and influence with Haitian elected political 
actors, many of whom are already pre-disposed to be distrustful of the 
United States as a dominant force in Haitian political reality that has 
not always made choices that have worked toward the benefit of Haiti's 
people.
    If I may, Mr. Chairman, I would like to submit Briefing Paper 
Number 8 as a part of my written testimony since it elaborates this 
analysis in much greater detail than I have an opportunity to do in 
this testimony today.
    Not all in Washington abandoned that leverage and influence we 
worked to achieve over many years. As I reminded the Honorable Cass 
Ballenger of North Carolina, at a hearing on Haiti called by his 
subcommittee last week, in March 2001, I escorted to his office several 
high Haitian government officials who had traveled to Washington only a 
month after the inauguration of Mr. Aristide to his second term in 
office to participate in a symposium on Haiti at Trinity College. Among 
them were Mr. Yvon Neptune, who at that time was the President of 
Haiti's Senate, and Mr. Leslie Voltaire, then the Minister for Haitians 
Living Overseas and currently the government's representative on the 
new tripartite commission established last week in Haiti. Also a part 
of the Haitian government delegation were two ministers who, even 
though members of the opposition, had accepted Mr. Aristide's 
invitation to join his government's cabinet. One of these ministers was 
Mr. Marc Louis Bazin, Mr. Aristide's principal opponent in the 1990 
election who, subsequently, briefly served as the Prime Minister of the 
1991-1994 de facto military regime. What better example could we have 
had of the potential for political reconciliation in Haiti than Mr. 
Aristide and Mr. Bazin working together. Sadly, because Mr. Bazin had 
rejected participation in the bitter opposition to Mr. Aristide (at 
that time called the ``Democratic Convergence''), his credentials as a 
member of the opposition working within the Lavalas government were not 
accepted by Aristide's opponents in Haiti and in Washington.
    On that same day, I escorted this high level Haitian delegation to 
the office of one of the members of this committee, Senator Dodd. Much 
to the credit of both Mr. Ballenger and Senator Dodd, they were open to 
meeting these Haitian government officials and engaging them in 
constructive conversation. And the Haitian officials were anxious to 
engage them and others.
    Sadly, Executive Branch officials in Washington reacted quite 
differently to this March 2001 opportunity for dialogue. Not only did 
ranking officials choose not to engage these Haitian government 
officials, but, in the run-up to the symposium, they urged me not to 
invite them to Washington. This, Mr. Chairman, is my own personal story 
of a golden opportunity the Bush administration lost to maintain and 
strengthen U.S. influence and leverage in Haiti, and to assist Haiti 
emerge from its dark political past. Surely, this is not the only time 
that this kind of opportunity was lost.
    Rather than taking advantage of this and similar opportunities, it 
seems to me that our government was not only busy isolating Haiti's 
elected government, but, through various intermediaries and political 
operatives in Washington, it was allowing signals to travel to Port-au-
Prince that emboldened the opposition and its ``zero option'' policy of 
intransigence by suggesting that the opposition had Washington's 
support.

                    THE CHIMERES OF WASHINGTON, D.C.

    This is not my assessment alone. This concern that presumptive 
policy signals were being sent to Port-au-Prince from Washington, and 
that those signals were highly damaging to efforts to resolve what was, 
back then, a relatively reparable political crisis, was shared by none 
other than the U.S. Ambassador to Haiti. In his farewell address in 
Port-au-Prince last summer to HAMCHAM, the Haitian-American Chamber of 
Commerce, the career diplomat who headed our embassy in Haiti, the 
Honorable Brian Dean Curran, reflected on Haiti's long-standing 
political crisis remarking:

          There is an incoherence (in Haiti) that has troubled me: the 
        incoherence of the way Washington's views are interpreted here. 
        Those of you who know me will realize that since I arrived here 
        as President Clinton's Ambassador and then President Bush's, I 
        have always talked straight about U.S. policy and what might 
        and might not be new policy directions. But there were many in 
        Haiti who preferred not to listen to me, the president's 
        representative, but to their own friends in Washington, sirens 
        of extremism or revanchism on the one hand or apologists on the 
        other. They don't hold official positions. I call then the 
        chimeres of Washington.

    And who, pray tell, might these irregular actors be? I would 
suggest, Mr. Chairman, that this subcommittee takes steps to get to the 
bottom of this. It might begin by heeding the supposition of the 
Washington Post that the International Republican Institute has played 
an important role in the ``wink and nod'' messages from Washington sent 
to the opposition. In its February 19th edition, the Post 
editorialized:

          In particular, it (the administration) has declined to 
        exercise its considerable leverage on the civilian opposition 
        parties, some of which have been supported by such U.S. groups 
        as the International Republican Institute and which have 
        rejected any political solution short of Mr. Aristide's 
        immediate resignation.

    In sum, Mr. Chairman, it seems to me that our policy--and 
practices--toward Haiti in recent years have been driven, 
unfortunately, by a deeply rooted animosity to one man--Jean-Bertrand 
Aristide--that has been held among a relatively small but powerful 
group of actors in Washington. Policies rigorously enacted under the 
auspices of this zealous group in order either to emasculate Mr. 
Aristide politically or to force him out of office, as we are 
witnessing today, have put the country and its citizens at grave risk, 
while concurrently creating potential spill-over effects both in the 
Caribbean and on to our shores.
    To achieve the narrow political goal of getting Mr. Aristide, the 
chimeres of Washington have, in essence, enacted policies that have 
devastated Haiti. What better example can one identify of being willing 
to throw out the bathwater in order to get the baby.

                          ACTS OF DESPERATION

    As I reflect on the result of these policies of isolation, non-
engagement, constant criticism and punitive action I get the sense of 
the gradual strangulation of an elected government. As the noose around 
its neck tightened, it was pushed increasingly toward ill-advised and 
desperate acts. The suspension of international assistance was a 
particularly key element of strangulation. The government of Mr. 
Aristide, like all governments in this tragically poor and resource-
starved country, was deeply dependent on external assistance in order 
to enact government programs. During his inaugural address of February 
7, 2001, Mr. Aristide took a quite unusual--perhaps even 
unprecedented--step for a Haitian President when he outlined a series 
of social welfare, infrastructure development and investment goals of 
his government, suggesting that his term in office be judged according 
to his ability to meet these goals. These plans were derived from the 
Lavalas Family party's ``White Paper'' for Haiti, an unusual attempt--
for Haitian political parties--to set forth a platform that directed 
itself toward the country's multitude of social, economic and 
environmental problems.
    Sadly, following the virtual complete suspension of bilateral and 
multilateral aid to his government as a result of the May 2000 
election's eight flawed senatorial vote counts and the Haitian 
government's bewildering failure to address this issue, few resources 
were available to the government to work toward these goals. As Mr. 
Aristide and his government were pushed more and more into a corner, 
predictable results emerged. With fewer and fewer resources to manage, 
the government was left to manage scarcity and, became increasingly 
desperate and corrupt. And, in Haiti's political reality, managing 
scarcity means managing power, with equally predictable results. Mr. 
Aristide, presiding over a resource starved government under constant 
assault from political opponents both in and beyond Haiti, took to the 
streets, aligning his government with impoverished urban youth--the now 
infamous chimeres of Haiti--who, by way of organized gangs, served as a 
means of managing the maintenance of power.
    Mr. Chairman, when I was a boy growing up in the New Jersey suburbs 
in an area that had just recently been farmland, I occasionally 
encountered a rabbit that had found its way into my back yard that was 
enclosed with a chain link fence. Sometimes, I attempted to catch the 
rabbit, gradually backing it into a corner of the fence as what I 
perceived as the best strategy to do that. I never did manage to catch 
one of those elusive critters, but I remember how the rabbits that I 
managed to back into the corner of the fence became increasingly 
desperate as their maneuvering space shrank. In fact, I recall vividly 
on one occasion how a panicked rabbit that I had edged into the corner 
acted with such desperation that bashed itself against the fence, 
injuring itself in its attempts to elude my grasp. Aghast at the blood 
streaming from the animal, I quickly backed away. This was the last 
time I tried cornering a rabbit in order to capture it. It was not my 
goal to force self-inflicted damage.
    I relate this story, Mr. Chairman, because I think of it when I 
reflect on what has happened in Haiti over the past several years. As 
the government of Haiti was increasingly backed into that corner, it 
acted more and more like that panicked rabbit of my youth, injuring 
itself in desperation. Ultimately, as its maneuvering space shrank, the 
government, in its increasing desperation to escape the trap, inflicted 
many wounds on itself. What a tragedy of huge proportions.

                           A PYRRHIC VICTORY

    The departure of Mr. Aristide, at least for now, has been achieved. 
Those who have sought it for quite some time are now rejoicing in their 
political victory. But their victory is proving to be a Pyrrhic one as 
Haiti has descended deeper and deeper on the slippery slope of 
lawlessness. Revenge killing and settling scores--in Port-au-Prince and 
elsewhere in the country--have become the new ordre du jour. Prisons 
throughout the country have been emptied, reinforcing the unfortunate 
reality of criminal impunity. Secondary cities, towns and villages 
across the land have become the domain of gang leaders establishing 
fiefdoms in what is now a balkanized country. And, with the descent 
into lawlessness comes the prospect of Haiti's emergence as a kind of 
narco-trafficking free state, as the countryside's runways and ports 
fall within the domain of the local warlords, many of whom already have 
a history of involvement in drug trafficking.
    The victory is Pyrrhic also, Mr. Chairman, because it was achieved 
through the slow strangulation of Haiti's capacity to respond to the 
humanitarian, social and environmental challenges and crises before it. 
And, in recent weeks, we have seen in particular a rash of significant 
damage to the country's already weak humanitarian and development 
infrastructure, as roads and ports have been severely damaged and 
destroyed, and public and private buildings looted and burned. This 
destruction has included attacks by marauding armed rebels on such 
medical installations as the highly-respected hospital in central Haiti 
operated by Dr. Paul Farmer's Partners in Health organization, where 
two members of the staff have been murdered, the hospital's only 
ambulance has been commandeered, and medical staff and patients have 
been constantly threatened by the bandits.
    Perhaps the most Pyrrhic element of this victory, however, has been 
its achievement at the expense of the Haitian population's faith in 
democracy. This is illustrated most vividly by the enthusiastic welcome 
given by some to the return of the gunmen. While there should be no 
doubt that this welcome has been fueled by a realistic sense of self-
preservation by those who do not have the guns, by the gratitude of 
those released from Haiti's jails and their families, and by former 
military and paramilitary figures who have been waiting patiently for 
such an opening to occur, this welcome is also fueled by another 
factor. Haiti's citizens are deeply disappointed, indeed, disgusted, 
with the comportment of all of the country's political leaders who, 
over the past decade, have been so intent on their own, personal 
struggles to maintain or attain power that they have sacrificed their 
country. To coin a phrase, Haiti's politicians have been fiddling while 
Rome has been burning.
    This disenchantment with democracy is an enormously tragic and 
dangerous development. Haitians have harbored ``dreams of democracy'' 
since the 1986 ouster of the Duvalier dictatorship. Their dreams have 
repeatedly been turned into nightmares. It is in everyone's interest in 
this room that we work together to deflect that disenchantment and 
restore faith in the resolution of disputes through participation, 
engagement, the peaceful mediation of differences, rule of law, and the 
rejection of all forms of political intimidation, violence and 
recidivism.

                     BREAKING THE CYCLE OF DEJA VU

    So, where do we go from here?
    I will leave to others the debate and the necessary investigation 
over the circumstances of Mr. Aristide's abrupt departure from Haiti on 
February 29th, 2004. Surely, the removal--regardless of how it 
occurred--of a democratically-elected leader prior to the completion of 
his term is a set-back to Haiti's democratic process and a threat to 
other nations in the hemisphere; indeed around the world. Regardless of 
whether or not Mr. Aristide is restored to the presidency to complete 
his term of office ending on February 7, 2006, however, there are 
several steps we can take, actions we can support, and principles that 
can guide us that will contribute toward a sustained resolution of 
Haiti's seemingly unending internal and external political warfare.

Bipartisanship in Washington
    First, from a Washington and U.S. perspective, we must forge a bi-
partisan approach toward Haiti. Of course, this being Washington and 
ours being a democracy, we will agree to disagree over certain 
specifics. But, even amid our disagreements, we must be prepared to 
examine our role in Haiti's affairs in a more even-handed manner that 
does not chose sides, stem from deeply rooted personal animosities, or 
seek to profit from Haiti's misfortunes.
    In this regard, it is of great necessity that the chimeres of 
Washington be removed from any real or perceived role in the future of 
U.S. policy toward Haiti. We must put an end to ``wink and nod'' 
messages coming out of Washington. These messages--and actions that 
reinforced them--have caused considerable damage not only to Haiti, but 
also to the credibility of Washington's leadership on Haiti and around 
the world. I would urge you, Mr. Chairman and members of the 
subcommittee, to examine the roles of these chimeres, who, as the U.S. 
Ambassador suggested, were aiding and abetting Haiti's tragedies.
    Specifically, I would urge you to clarify the validity of various 
allegations that have been leveled at the International Republican 
Institute for its role in exacerbating and reinforcing an atmosphere of 
political intransigence and violence in Haiti. I would urge you, also, 
to explore alleged links among Haiti's resurgent gunmen once based in 
the Dominican Republic and drug trafficking, weapons smuggling, and 
money laundering.

Political Inclusion in Haiti
    Second, I would urge us to support policies and practices that will 
reinforce the notion of political inclusion in Haiti. Let us work--
successfully this time--not to play favorites, but rather to get all 
the legitimate political actors in Haiti under its political tent. It 
is of vital importance that Haiti's once and future political actors 
all participate in the governance of their country and accept the 
responsibilities that come along with it. To this end, the framework 
offered by CARICOM that is now moving forward is an excellent one. Acts 
of dechoukaj and political intimidation aimed at politicians and their 
supporters, including appointed and elected officials of the Aristide 
government and the Lavalas party, and the urgent flight from the 
country of these political actors, is not.

Ending the Political Culture of ``Winner Takes All''
    Third, and directly related to the need to have all legitimate 
political actors gain inclusion in governance, we must support steps to 
put an end to Haiti's tried and true political practices of ``winner 
takes all'' and ``loser undermines the winner.'' In this regard, 
Haiti's electoral laws that prescribe a winner takes all approach 
toward each and every elective office should be re-examined. In my 
view, Mr. Chairman, this approach, particularly in a country that has 
had one dominant party (Fanmi Lavalas--FL) competing with many smaller 
ones, and that may now have a weakened FL competing with a newly 
fragmented political opposition, has only exacerbated polarization and 
confrontation. Some form of proportional national representation, 
perhaps in Haiti's Chamber of Deputies, would help to ensure broader 
political participation. A party that captures, say, 10 percent of the 
votes nationwide, could be awarded 10 percent of the seats in that 
parliamentary body. This would both bring that element into the process 
and force upon it the responsibilities of governance.

Putting the Genie Back in the Bottle
    Fourth, there is an immediate need to move against the armed thugs 
and convicts who have been freed from prison, as well as against armed 
street gangs of all stripes, and to reestablish some semblance of rule 
of law. In this regard, Haiti's civilian-led police will require 
immediate and long-term strengthening and support, while the country's 
judicial system requires the same. The thugs must not find their way 
into the police force. Putting this genie back into the bottle will be 
a difficult, but necessary element not only to allow the country to 
move forward, but to provide a needed push toward ending impunity. The 
return of the army and of the FRAPH gunmen and criminals is in the best 
interests of only those particular individuals, not of the Haiti, its 
citizens, and the international community.
    In this regard, Mr. Chairman, the announcement made yesterday that 
international forces already in Haiti will actively undertake disarming 
of the Haitian population is a welcome one. This task, of course, will 
be an elusive one, fraught with problems and may even lead to spates of 
violence and bloodshed, but it is a necessary one. It is quite 
unfortunate that disarmament did not take place in 1994/95, when there 
were 21,000 troops in Haiti and the restored government was asking for 
it. At that time, narrowly defined rules of engagement focused on force 
protection inhibited effective disarmament of Haiti's soldiers, 
paramilitary members and others in the population with guns. Sadly, in 
the intervening 10 years, more weapons have entered the country, making 
today's task--to be undertaken by 5,000 troops--a much more difficult 
one.
    For effective disarming to occur, Mr. Chairman, and for Haiti not 
to become immediately re-armed once it does, we must also pay attention 
to the sources of Haiti's weapons. Not a single gun is manufactured in 
Haiti. They all must come from somewhere. In this regard, it is 
important that we get to the bottom of allegations that illicitly 
acquired weapons have been flowing into Haiti from the neighboring 
Dominican Republic, as well as ``rebel commandos.''

Stay The Course
    Fifth, we need to be prepared to stick with Haiti over the long 
haul. Staying the course will mean that our attention to Haiti can not 
be merely intense and short term, as it was in 1994/95, and then 
leaving the country to its own devices, while enacting partisan-driven 
policies in Washington that harmed gains that had been made. In this 
regard, I wholeheartedly agree with the statement made yesterday by UN 
Secretary General Kofi Annan that Haiti will require a decade (or even 
more) of intense international community commitment in order to avoid 
the repeat of the ``band-aid'' scenario of 10 years ago.
    If the term nation-building gives some of this subcommittee a case 
of heartburn, perhaps it would help to think of it another way--say, 
``nation-nurturing''--where we provide active and sustained support to 
the non-governmental--and governmental--bodies in Haiti that will 
develop the country and its required institutions. In other words, we 
do not have to build Haiti, but we should have a long term commitment 
to all Haitians to help them rebuild their own country.

                           CONCLUDING REMARKS

    Mr. Chairman, the tragic developments in Haiti, some of which are 
still unfolding, are to some considerable extent the result of U.S. 
policies and practices that have sacrificed the well-being of Haiti to 
achieve a narrow political goal--the removal of one man from elected 
office. These policies and practices have not served Secretary Powell; 
they have not served President Bush; they have not served the United 
States Congress, they have not served the American people, and they 
have surely not served the long-suffering people of Haiti.
    Again, I thank you for this opportunity to share my thoughts and 
analysis with you, and I stand ready to work with all of you to help 
improve the way the government of the United States relates to and 
works with its Caribbean neighbor.
    Thank you.

                              ----------                              


       U.S. Policy Toward Haiti: Engagement or Estrangement? \1\
---------------------------------------------------------------------------

    \1\ A publication of the Haiti Program, a unit of Programs in 
International Affairs at Trinity College, Washington, DC.
---------------------------------------------------------------------------
                           DR. ROBERT MAGUIRE

    Inquiry into the size of a country, usually elicits a straight-
forward answer. In the case of Haiti, that answer, from a US point of 
reference, is generally something like, ``about the same size as the 
state of Maryland.'' The question of Haiti's size, however, when posed 
two decades ago to a wizened Haitian community leader, evoked an 
intriguing, figurative answer. ``Haiti,'' the old man stated, gesturing 
with his hands and arms, ``is like an accordion. Sometimes it is large 
and sometimes it is small.'' \2\
---------------------------------------------------------------------------
    \2\ ``Haiti: Dreams of Democracy,'' 1987, a documentary film 
produced by Jonathan Demme.
---------------------------------------------------------------------------
    From the perspective of U.S. foreign policy, Haiti over the past 
200 years has fit this pattern of a metaphorical accordion: sometimes 
large and sometimes small. And, without doubt, there have been times 
when the accordion's bellows have opened very wide. If nothing else, 
geography--that is, Haiti's proximate location to the U.S.--demands 
that American policy-makers watch their southern neighbor closely and 
maintain at least a minimal engagement.
    At times, American policy makers have watched Haiti with deep 
concern over the impact of developments there on the U.S. Certainly 
this was the case in the aftermath of Haiti's independence in 1804, 
when American leaders, particularly in its plantation South, feared 
that the Caribbean country's ``virus of freedom'' would spread to the 
slave plantations in the Carolinas, Georgia, Maryland and Virginia. 
Other times, American engagement in Haiti has evolved far beyond 
observation to direct intervention, most notably during the 19-year 
U.S. military occupation of 1915 to 1934.
    Had U.S. policy makers in the late 1980s and 1990s used the 
accordion metaphor, they would have proclaimed its bellows to be wide-
open. Great attention was paid to Haiti in the period leading up to and 
following the demise of the Duvalier family dictatorship in 1986, and 
then again in the period following the 1990 presidential election of 
Jean-Bertrand Aristide, his subsequent removal from office in 1991 as a 
result of a violent military coup d'etat, and his later restoration to 
office as a result of a UN-sanctioned and U.S.-led military 
intervention. Today, Haiti's geographical proximity, a variety of 
developments there linked to ongoing U.S. policy interests, and the 
presence in the United States of a large and growing Haitian-born and 
Haitian-American population combine to keep the bellows of that 
metaphorical accordion open.
    As much as U.S. officials and policy makers at times may have 
wanted those bellows to close tightly so Haiti would ``just go away,'' 
this simply does not happen. And it will not happen short of a highly 
improbable geological episode that will either physically displace, or 
submerge, the island that Haiti shares with the Dominican Republic!
    The exact nature of the engagement the U.S. maintains with Haiti, 
and the relationships it spawns, has varied over time since 1804 and 
among differing sets of actors. Looking at the broad sweep of the U.S.-
Haiti relationship over the past two hundred years, however, the New 
York-based National Coalition for Haitian Rights (NCHR) has concluded 
that the hemisphere's two oldest republics ``share a long, sordid love-
hate relationship,'' adding that ``unfortunately, the last three years 
have fit tragically into that pattern.'' \3\
---------------------------------------------------------------------------
    \3\ ``Yon Sel Dwet Pa Manje Kalalou: Haiti on the Eve of its 
Bicentennial,'' National Coalition for Haitian Rights, Policy Report 
September 2003, p. 34.
---------------------------------------------------------------------------
                THE ``THIRD RAIL'' OF U.S. HAITI POLICY

    Before exploring the nature of the U.S. relationship with Haiti 
over the past three years it is useful to reflect on contemporary U.S. 
policy maker's views of that country as both a foreign and a domestic 
policy issue, particularly given its proximity to U.S. shores. A key 
underlying factor of this hybrid policy focus is migration, a 
phenomenon that bridges both foreign and domestic issues and that has 
been characterized by at least one U.S. diplomat as the ``third rail'' 
of U.S.-Haiti policy. And, as those who ride mass transit systems such 
as the Washington, D.C. Metrorail know, the third rail is the hot one 
that threatens to burn those who touch it.
    Since the late 1970's brought the first significant wave of Haitian 
boatpeople onto the beaches of South Florida, migration has been a hot 
rail of U.S.-Haiti policy. To keep from being burned, a succession of 
administrations--from that of Ronald Reagan, through those of George H. 
W. Bush and Bill Clinton, to the current administration of George W. 
Bush--viewed Haitians fleeing by boat as unwelcome economic migrants 
and not political refugees. Accordingly, each developed immigration--
and interdiction--policies aimed specifically at keeping Haitians in 
Haiti, or sending them back.\4\
---------------------------------------------------------------------------
    \4\ For an overview of the evolution of U.S. immigration policy 
toward Haiti see ``Haitian Migration to the U.S.: Issues and 
Legislation,'' Ruth Ellen Wasem, Congressional Research Service (CRS) 
Issue Brief, February 28, 1992. See also, ``Haiti and Asylum Seekers: A 
Chronology of Major Events,'' Ruth Ellen Wasem, CRS Report for 
Congress, June 23, 1994.
---------------------------------------------------------------------------
    Today, the specter of Haitian boatpeople arriving on the beaches of 
South Florida puts fear not only in the minds of policy makers, but 
also in the hearts of politicians seeking either elective office in 
Florida or the American presidency. As demonstrated in November 2000, 
electoral victory in Florida is a political prize that hangs by a 
thread. How Floridians react at the ballot box to issues surrounding 
Haitian boatpeople, including policies in Washington toward Haiti that 
may be perceived as either provoking their outpouring or keeping them 
in Haiti, could be the difference between electoral victory or defeat--
in Florida and, by extension, in a Presidential race.\5\ To this end, 
issues linked to Haitian boatpeople have received unrelentingly tough 
responses from the current Bush administration, which has even 
associated the arrival of illegal Haitian migrants with U.S. terrorism 
vulnerability.\6\ In view of the weight of Florida in American 
electoral politics and of the heat generated by Haitian migration over 
the past four presidential administrations, it is easy to understand 
why migration, in terms of U.S.-Haiti policy, is viewed in Washington 
as a hot rail issue.\7\
---------------------------------------------------------------------------
    \5\ In regards to the fragility of Florida's political prize, the 
growing population of naturalized Haitian-Americans in South Florida--
and the extent of its participation at the ballot box--is potentially 
key as an electoral ``swing vote'' in the Sunshine State. According to 
2000 U.S. Census data, the number of Haitians residing in Florida is 
228,949, a 117 percent increase since the 1990 census. (``Newcomers 
from around world set up shop in Broward,'' Fort Lauderdale Sun-
Sentinel. January 12, 2003.)
    \6\ The tough response of the Bush administration to Haitian 
boatpeople was demonstrated in October 2002 with the detention and 
subsequent removal of the 211 Haitians who washed up near Miami Beach 
(a handful are still in detention). The administration has justified 
this tough and ongoing response, at least in part, by linking Haitian 
boatpeople with the illicit arrival of foreign terrorists on U.S. soil. 
For a discussion of how Haitian boatpeople have been linked with 
terrorism vulnerability, see, ``The War Comes Back Home: Can John 
Ashcroft fight terrorism on our shores without injuring our freedoms?'' 
Richard Lacayo, Time, May 4, 2003. For a discussion of Haitian 
boatpeople policy options see, ``Next Steps for U.S. Policy Toward 
Haiti,'' Robert L. Bach and Robert Maguire, November 6, 2002, posted at 
http://www.trinitydc.edu/academics/depts/Interdisc/International/
HaitiProgram.htm
    \7\ Given that the first significant wave of Haitian migrants 
arriving by boat on U.S. shores actually occurred toward the end of the 
Carter administration, an argument can be made that five successive 
administrations have been seized by the issue.
---------------------------------------------------------------------------
             THE LAST THREE YEARS: WHAT KIND OF ENGAGEMENT?

    For the Clinton administration, neighboring Haiti was certainly a 
wide-open accordion, receiving attention highly disproportionate to its 
size and to other global issues. To appreciate how large an issue Haiti 
was for that administration, think back to such developments as:

  <bullet> the efforts--and ultimate success--of Clinton to rally 
        international support around United Nations Resolution 940 that 
        sanctioned the U.S.-led multinational military intervention in 
        1994 to displace an authoritarian military regime and restore 
        democratically-elected government;

  <bullet> the creation within the U.S. Department of State of the 
        ambassadorial level post of Special Haiti Coodinator, and the 
        post-intervention shuttle diplomacy between Washington and 
        Port-au-Prince of such senior officials as the U.S. National 
        Security Advisor, and;

  <bullet> the visit to Haiti by President Clinton in 1995, the first 
        of a sitting U.S. President since that of Franklin Delano 
        Roosevelt in 1934.\8\
---------------------------------------------------------------------------
    \8\ Roosevelt visited Cap Haitien in July 1934, a month prior to 
the end of the U.S. Occupation of Haiti.

    This attention to Haiti underscores not just the country's 
dominance as a policy issue, but also that the approach toward Haiti 
under Clinton was one of direct, and sustained, engagement at the 
highest levels of the U.S. government.
    The Democratic administration's high level executive branch 
engagement did not play well with everyone in Washington, especially a 
number of key elected officials in the U.S. Congress who sat on the 
other side of the political aisle and their allies in such think tanks 
and political advocacy organizations in the nation's capital as the 
Center for Strategic and International Studies, the Heritage 
Foundation, and the International Republican Institute for 
International Affairs. While some were simply critical of the 
disproportionate attention bestowed upon Haiti by the administration 
vis-a-vis other global hot spots, others took issue with the 
administration's approach to Haiti's problems.
    These latter critics received a boost when the political balance of 
power in Washington shifted following the November 1994 off-year 
congressional elections that brought control of the U.S. House of 
Representatives to Republican lawmakers. Coming less than two months 
after Clinton's successful efforts to restore elective government to 
the coup-ravaged Caribbean country, the shift of political power in 
Washington provided an enlarged platform for critics to attack the 
administration's Haiti foreign policy ``success'' and to place 
constraints on follow-up actions. Those leading the charge against 
President Clinton and his Haiti policy tended also to be relentlessly 
critical of the highest profile beneficiary of that policy: Jean-
Bertrand Aristide.
    Verbal criticism evolved into congressional action aimed at 
constraining, stalling, or undermining Clinton's Haiti policy 
initiatives. One such action was the passage of the Dole Amendment, 
which set stringent conditions on the release of aid to the Haitian 
government.\9\ Combined with continued unsettled conditions in Haiti 
and reports of such post-intervention concerns as questionable 
legislative elections, episodic incidents of politically-linked street 
violence, increased drug trafficking, and delays in economic 
privatization, congressional actions eventually had the effect of 
limiting U.S. assistance to the Haitian government, including aid to 
support the critically important, yet exceedingly fragile, newly formed 
Haitian National Police.
---------------------------------------------------------------------------
    \9\ Section 583 of P.L. 104-107, the Dole Amendment, became law on 
January 26, 1996. It ``prohibited assistance to the Government of Haiti 
unless the President reported to Congress that the Haitian government 
was conducting thorough investigations of political and extrajudicial 
killings and cooperating with U.S. authorities in this respect.'' See, 
statement of Alexander F. Watson, Assistant Secretary of State for 
Inter-American Affairs, House of Representatives Appropriations 
Committee, March 21, 1996.
---------------------------------------------------------------------------
    Following the controversial vote-counts that accompanied Haiti's 
May 2000 legislative and municipal elections, there was little prospect 
for the Clinton administration to argue successfully before Congress 
for the continuation of direct bilateral assistance. The failure of 
Haitian officials to respond to and quickly resolve the 2000 election 
controversy added strength to those critical of the administration's 
policy and took the wind from the sails of perplexed policy makers.\10\
---------------------------------------------------------------------------
    \10\ For an analysis of the May 2000 elections see, Robert Maguire, 
``Haiti's Political Gridlock,'' Journal of Haitian Studies, Vol. 8 (2), 
Fall 2002, pp. 30-42.
---------------------------------------------------------------------------
    Republican-led legislative branch efforts to constrain the Clinton 
administration's engagement with Haiti turned out to be a type of 
preseason practice in view of the outcome of the November 2000 U.S. 
presidential election. Following the January 2001 transition to the 
administration of President George W. Bush, some individuals who had 
been highly critical of the Clinton administration's Haiti policy moved 
from legislative, advocacy organization and think tank positions into 
executive branch posts with varying degrees of responsibility over 
policy creation and oversight. Others who remained in influential 
legislative, advocacy and think tank jobs experienced heightened access 
to, and consideration from, executive branch policy makers.
    In early 2001, the U.S. approach toward Haiti began to move in a 
different direction. The new administration began its tenure by stating 
that the ``Eight Steps to Address the Post-2000 Election Political 
Crisis''--an agreement hammered out in December 2000 by then-former 
National Security Advisor Anthony Lake during his last ``shuttle 
diplomacy'' mission of the Clinton administration--was ``an appropriate 
road map to get started.'' \11\ The administration then began to scale 
back direct engagement with the Haitian government, abandoning the 
position of Special Haiti Coordinator in the State Department and 
removing such senior officials as the U.S. National Security Advisor 
from day-to-day involvement with Haiti.
---------------------------------------------------------------------------
    \11\ Testimony of Sec. Powell, Committee on Foreign Relations, U.S. 
Senate, Secretary of State Nomination, Part II, January 17, 2001.
---------------------------------------------------------------------------
    With the discontinuance of high level, direct engagement from 
Washington, the U.S. Embassy in Port-au-Prince assumed the principal 
role for direct contact with the Haitian government. Concurrently, in 
Washington, Bush policy makers, while maintaining support of the 
diplomatic efforts of the Organization of American States to resolve 
the political crisis in Haiti that flowed out of the flawed 2000 
elections, intensified their use of the OAS as a forum for strenuously 
voicing concerns about the Haitian government. Voicing those concerns 
at the OAS for the administration was a new U.S. Representative to the 
hemispheric organization, appointed to this post from the staff of 
Republican Senator Jesse Helms, one of the most vociferous critics of 
the Clinton Haiti policy.\12\
---------------------------------------------------------------------------
    \12\ Roger Noriega was appointed U.S. Ambassador to the OAS in 
2001, a post he held until his confirmation as U.S. Assistant Secretary 
of State for Western Hemisphere Affairs in July 2003.
---------------------------------------------------------------------------
    By mid-2001, a definitive trend had emerged. Washington's relations 
with Haiti had moved away from the direct engagement/dialogue approach 
of the Clinton administration toward less direct engagement through the 
embassy in Port-au-Prince and the OAS. Concurrently, several 
Washington-based think tanks and nongovernmental organizations with 
active ties to Republican leaders in the White House and on Capitol 
Hill, most notably the International Republican Institute for 
International Affairs (IRI), emerged as stronger voices addressing 
U.S.-Haiti policy issues.
    As these operational shifts took hold, other voices, critical of 
the new direction of Haiti policy, spoke out. One such voice, the 
aforementioned NCHR, has characterized the Bush administration policy 
toward Haiti over the past three years as ``a policy of willful neglect 
and containment, a policy driven by an almost pathological aversion to 
direct engagement.'' \13\ This apparent aversion to direct engagement 
created a policy dynamic in Washington that appears to be taken from a 
page in the book of Haitian political strategy.
---------------------------------------------------------------------------
    \13\ Op. cit., ``Yon Sel Dwet''
---------------------------------------------------------------------------
                      A NEW POLITIQUE DE DOUBLURE

    In the late nineteenth century, when successive, regionally-based, 
Afro-Haitian military chieftains managed to gain power in Port-au-
Prince, the capital city's own, mixed-race (mulatre) economic and 
political leaders ``easily manipulated their dark-skinned puppets,'' a 
political strategy ``Haitian historians have labeled . . . politique de 
doublure (government by understudies).'' These alliances, albeit often 
short-lived, between the puppets and the urban elites ensured a 
mutually advantageous consolidation of political and economic 
power.\14\
---------------------------------------------------------------------------
    \14\ Haiti: State Against Nation, The Origins and Legacy of 
Duvalierism, Michel-Rolph Trouillot (Monthly Review Press: New York, 
1990), p. 76.
---------------------------------------------------------------------------
    In view of recent U.S.-Haiti policy trends, a twenty-first century 
politique de doublure has emerged, only this time based principally in 
Washington, not in Port-au-Prince. Two somewhat distinct sets of 
understudies have been active over the past three years. One set of 
Washington-based U.S.-Haiti policy doublure is those whose voices are 
stridently critical of the Haitian government and supportive of its 
political rivals. These understudies, with apparent connections to the 
Bush administration and influential Republicans in the U.S. Congress, 
are listened to carefully, particularly in Port-au-Prince, where they 
are viewed as having significant influence over U.S. policy and as 
speaking for the administration.
    One Washington-based understudy that has gained particular 
prominence in this regard is the aforementioned International 
Republican Institute (IRI). The organization's determined, ongoing 
efforts to organize and support political opposition to the Aristide 
government have raised eyebrows in Washington, particularly among some 
members of Congress on the Democrat side of the aisle who have 
expressed concerns about the Bush administration's policy toward 
Haiti.\15\
---------------------------------------------------------------------------
    \15\ See, for example, the exchange between Mr. Noriega and Senator 
Christopher Dodd (D-CT), ``Hearing of the Senate Foreign Relations 
Committee, The Nomination of Roger Noriega to be Assistant Secretary of 
State for Western Hemisphere Affairs,'' May 1, 2003.
---------------------------------------------------------------------------
    The second set of understudies in Washington's world of Haitian 
doublure is those who are less critical of the government in Haiti and 
less supportive of that government's opponents. Among these 
understudies are eight U.S.-based consulting firms, or lobbyists, who, 
during the last six months of 2002, received total representation fees 
in excess of $1 million from the Government of Haiti. Their fees, 
tracked as part of the Foreign Agent Registration Act (FARA), are a 
matter of public record. Fees and funds exchanged between the first set 
of understudies and their associates in Haiti, however, are not a 
matter of public record.\16\
---------------------------------------------------------------------------
    \16\ Op. cit., ``Yon Sel Dwet,'' The NCHR notes that while it is 
possible to ascertain the amounts paid to Washington-based agents of 
the Haitian government on account of FARA regulations, it is not 
possible to ascertain the amount of support from Washington--and the 
IRI in particular--to opposition groups in Haiti (pp. 6 & 7).
---------------------------------------------------------------------------
    This second set of voices, although not speaking from positions of 
power within or aligned to the executive branch and therefore not 
generally viewed as successfully influencing administration policy, 
contributes to a cacophony on Haiti that exists in the U.S. capital and 
that bounces along a north to south axis between Washington and Port-
au-Prince. Characteristic of this cacophony is limited direct dialogue 
between policy protagonists and the tendency of various players--in 
Washington and in Port-au-Prince--to speak at each other, not with each 
other.
    The emergence of Washington's own brand of politique dedoublure has 
been noted with considerable dismay recently by a U.S. Ambassador to 
Haiti. In July 2003, in Port-au-Prince, during a farewell address to 
the Haitian-American Chamber of Commerce (HAMCHAM), the American envoy 
reflected on Haiti's longstanding political crisis, stating, ``There is 
an incoherence (in Haiti) that has troubled me: the incoherence of the 
way Washington's views are interpreted here. Those of you who know me 
will realize that since I arrived here as President Clinton's 
Ambassador and then President Bush's, I have always talked straight 
about U.S. policy and what might and might not be new policy 
directions. But there were many in Haiti who preferred not to listen to 
me, the President's representative, but to their own friends in 
Washington, sirens of extremism or revanchism on the one hand or 
apologists on the other. They don't hold official positions. I call 
them the chimeres of Washington . . . When you want to understand U.S. 
policy, you will listen to my successor, an experienced and coherent 
career diplomat, and not to the chimeres.'' \17\
---------------------------------------------------------------------------
    \17\ ``Reflections,'' Brian Dean Curran, Port-au-Prince, Haiti, 
mid-July 2003 (unpublished). In Haiti, Chimeres are partisan political 
street activists prone to taking extreme measures, including violence, 
to represent their viewpoints.
---------------------------------------------------------------------------
    The Ambassador's comments reinforce the supposition that U.S. 
engagement with Haiti over the past three years increasingly has become 
the domain of diverse Washington-based understudies. They also suggest 
that the answer to the engagement-or-estrangement paradigm posed in the 
title of this essay is neither one nor the other. Rather, U.S. policy 
toward Haiti over the past three years, viewed as part of a continuum 
of a long term, sordid love-hate relationship, has devolved into a 
particular admixture of ``estranged engagement.''

                    THE PILLARS OF U.S.-HAITI POLICY

    Following his reflections on Washington's chimeres the U.S. envoy 
to Haiti summarized his country's current policy orientation, ``(L)et 
me be clear and coherent about U.S. policy toward Haiti. The United 
States accepts President Aristide as the constitutional president of 
Haiti for his term of office ending in 2006. We believe the legislative 
and territorial elections of May 2000 were seriously flawed and that 
the government of Haiti bears the principal responsibility for 
rectifying them. We strongly supported OAS efforts to bring about a 
negotiated compromise between the parties leading to new elections . . 
. We continue to support (OAS) Resolution 822 . . .''\18\
---------------------------------------------------------------------------
    \18\ Ibid. OAS Permanent Council Resolution 822, ``Support for 
Strengthening Democracy in Haiti,'' was passed on September 4, 2002.
---------------------------------------------------------------------------
    A more complete enunciation of Bush administration policy toward 
Haiti was made in mid-2002 in a speech delivered in Washington by the 
State Department's then-Principal Deputy Assistant Secretary of State. 
``Our objective in Haiti is clear,'' the official stated. ``We desire a 
fully democratic Haiti--one that is more prosperous and more respectful 
of human rights. With a robust democracy, the Haitian people will enjoy 
a better standard of living.''\19\
---------------------------------------------------------------------------
    \19\ ``U.S. Haiti Policy: Remarks by Ambassador Lino Guitierrez, 
Principal Deputy Assistant Secretary of State,'' Dinner Discussion, 
Inter-American Dialogue Conference ``Haiti and Development 
Assistance,'' Washington, DC, May 22, 2002.
---------------------------------------------------------------------------
    The State Department official then elaborated that ``our Haiti 
policy rests on four pillars, all equally important (author's 
emphasis). We seek to:

  <bullet> ``Support efforts to strengthen democracy and improve 
        respect for human rights;

  <bullet> ``Provide humanitarian assistance to the most vulnerable 
        Haitians, and actively promote sustainable economic 
        development;

  <bullet> ``Discourage illegal migration, which threatens maritime 
        safety and the lives of those who risk dangerous sea travel; 
        and

  <bullet> ``Stem the flow of illegal drugs through Haiti to the U.S.''

    Are these four policy pillars really equal? An answer to this 
question is suggested by the NCHR in its recent report. ``It is 
clear,'' analyzes the human rights organization, ``that, while 
concerned with the political gridlock and subsequent deterioration of 
human rights in Haiti, the U.S.'s priorities--as judged by the areas in 
which it has actually poured resources and taken concrete steps to 
address the problem--are narco-trafficking and refugee flight by 
boat.'' The United States, continues the NCHR assessment, ``is quietly 
preparing for a potential implosion (in Haiti). In addition to making 
plans to build a proverbial fence around the country, in an effort to 
avoid a humanitarian disaster, the U.S. has also increased its 
emergency food aid program to the country.'' \20\
---------------------------------------------------------------------------
    \20\ Op. cit., ``Yon Sel Dwet,'' pp. 34-35
---------------------------------------------------------------------------
    Comments from U.S. government officials support this conclusion. 
The State Department official cited above acknowledged that 
``mitigating humanitarian distress is among our immediate priorities.'' 
\21\ The former American envoy to Haiti acknowledged an impending 
Haitian humanitarian crisis, linking it directly to migration, that hot 
rail of U.S.-Haiti relations. ``In the United States,'' he elaborated, 
``we also see the crisis in terms of a steadily increasing outward flow 
of illegal migrants.'' In response to this crisis and the subsequent 
migratory flow, he told his audience in Port-au-Prince that, ``(t)he 
United States this year has increased its assistance to Haiti to $70 
million. The traditional migrant source zones will be particularly 
targeted for assistance.''
---------------------------------------------------------------------------
    \21\ Op. cit. ``U.S.-Haiti Policy''
---------------------------------------------------------------------------
    In view of the current U.S. approach of less-than-direct engagement 
with the government of Haiti, at issue is how this aid is delivered. 
The U.S. Ambassador addressed this topic in his Port-au-Prince speech 
when he reminded his audience, ``As you know our assistance program in 
Haiti reflects our ongoing unwillingness to deal directly with the 
government for political reasons. U.S. assistance is delivered to the 
people of Haiti through NGOs and the private sector.'' \22\ In his 
speech in Washington, the Principal Deputy Assistant Secretary of State 
for Western Hemisphere Affairs also addressed the issue of how the 
United States delivers humanitarian assistance to Haiti, stating that 
the U.S. chooses ``to channel our assistance to the Haitian people 
through international and local non-governmental organizations.\23\
---------------------------------------------------------------------------
    \22\ Op. cit., ``Reflections''
    \23\ Op. cit. ``U.S. Haiti Policy''
---------------------------------------------------------------------------
    Several aid-related developments, however, appear to contradict 
this apparent approach of engagement with the people of Haiti 
accompanied by estrangement from their government, and to reinforce the 
supposition that all policy pillars are not created equally. The first 
of these developments, direct U.S. bilateral support of the Haitian 
Coast Guard, also suggests that U.S. assistance is even more strongly 
linked to the migration issue than alluded to by the U.S. Ambassador in 
his Port-au-Prince speech. Aid channeled to this Haitian government 
entity not only strengthens its ability to curtail migrant flows but 
also reinforces its ability to engage in surveillance and pursuit of 
drug traffickers.\24\
---------------------------------------------------------------------------
    \24\ Op. cit., ``Yon Sel Dwet,'' p. 34
---------------------------------------------------------------------------
    Second, through its support of OAS Resolution 822, the U.S. has 
cast its vote to de-link Haiti's political crisis from the suspension 
of direct, multilateral funding of the Haitian government. Although the 
U.S. maintains that its bilateral aid is not channeled through the 
Haitian government, through its support of OAS Res. 822, it now 
supports the resumption of multilateral assistance to that government 
by way of the Inter-American Development Bank (IDB) and the World Bank, 
both of which are heavily dependent on U.S. government funding. Or, as 
stated by the U.S. Ambassador in Port-au Prince, ``(W)e are encouraging 
the IDB to be prepared to move quickly, but appropriately, as soon as 
arrears are paid. The World Bank should not be far behind.'' \25\
---------------------------------------------------------------------------
    \25\ Op. cit., ``Reflections'' The Government of Haiti paid $32 
million in arrears to the IDB in July, thus opening the door for about 
$200 million in loans from that organization. In early October, the 
World Bank's private sector financing unit, the International Finance 
Corporation (IFC), approved a $20 million loan for investment in a 
trade free zone near the Dominican Republic border, the bank's first 
loan to Haiti since 1998. (``World Bank arm OKs first loan to Haiti 
since 1998,'' Anna Willard, Reuters, October 10, 2003.)
---------------------------------------------------------------------------
                  TOWARD ANOTHER U.S.-HAITI POLITIQUE?

    In recent months, several other developments have further 
complicated the picture of ``estranged engagement'' sketched out above. 
Altogether, they may be indicative of a gradual shift of the Bush 
administration away from understudies and chimeres toward more direct 
engagement with its Haitian counterparts.
    One development relates to the important policy pillar of narco-
trafficking. In a somewhat surprising move last June, the Aristide 
government arrested and expelled the alleged, notorious Haitian drug 
kingpin, Jacques Ketant. Then, in mid-October, Haitian authorities 
followed with the arrest and expulsion of another notorious drug 
kingpin, Eliobert Jasme, a.k.a. ED1, a prominent Port-au-Prince 
businessman.\26\ Both Ketant and Jasme are in U.S. custody in South 
Florida. Ketant, according to one official, is ``singing like a bird.'' 
Which tunes, exactly, he is singing, are yet to be revealed. The fact 
that Mr. Ketant is chirping loudly, however, poses considerable risk to 
President Aristide and his government, particularly if the supposed 
drug kingpin alleges, as many of his political detractors already have, 
that neither President Aristide nor his government have clean hands 
insofar as Haitian drug trafficking and the riches it brings are 
concerned.
---------------------------------------------------------------------------
    \26\ ``Haiti hands accused drug trafficker to U.S.,'' Reuters, 
October 16, 2003. in between the arrest and expulsion of Kettant and 
Jasme, the Government of Haiti arrested and expelled two other high 
profile drug traffickers, Eddy Aurelien and Carlos Ovalle (a Columbian 
resident of Haiti). They, also, are in the hands of U.S. authorities.
---------------------------------------------------------------------------
    Speculation abounds in Washington and Port-au-Prince as to why 
Haitian authorities have moved when they did to arrest and expel two 
notorious drug traffickers that the U.S. has requested for some time. 
Given the great importance of action against drug trafficking as a key 
U.S. interest in Haiti, much of that speculation revolves around the 
question of whether the government of Haiti is giving the U.S. 
something of great importance to set the stage for receiving something 
in return. Might that something be a reduction of U.S. political heat 
on President Aristide and his administration, particularly in so far as 
it relates to allegations of government collusion with drug 
traffickers, accompanied by more resolute support from Washington of 
the Aristide government's stated intentions to take steps to resolve, 
at long last, the controversial results of the 2000 legislative 
elections? In addition to lowering the political heat, one must ask, of 
course, whether or not any quid pro quo might also have something to do 
with lowering the heat along the dreaded third rail of migration, 
especially as U.S. elections appear just over the horizon.
    Concurrent with movement by the Government of Haiti on the narco-
trafficking front, are developments on the policy front linked to the 
arrival of Washington's new envoy to Haiti. \27\ In public statements 
and, reportedly, during a September 19 private meeting with President 
Aristide, Washington's ambassador has enunciated several key components 
of the U.S. stance vis-a-vis the current Haitian government, along with 
obstacles toward heightened U.S.-Haiti political cooperation. 
Specifically, the U.S. Ambassador has reiterated the legitimacy of 
Aristide's February 7, 2001 to February 7, 2006 term of office, while 
calling firmly for there to be no change vis-a-vis the Haitian 
constitutional parameters that govern presidential terms in office. 
Also, the envoy has identified U.S. administrative and security 
concerns regarding legislative elections in 2004, setting forth key 
steps to address them.\28\
---------------------------------------------------------------------------
    \27\ Ambassador James B. Foley arrived in Port-au-Prince in mid-
September, 2003.
    \28\ Key issues addressed by Ambassador Foley during his Sept. 19 
meeting with President Aristide, summarized in an article in Haiti's 
LeMonde newspaper, included changes to strengthen the objective 
electoral oversight capacity of the Haitian National Police, improved 
election security vis-a-vis steps toward disarmament of the civil 
population (i.e. ``popular organizations''), and the constitution of 
the long-awaited Provisional Electoral Commission required to oversee 
elections. The security issue included specific concern regarding 
fugitive gang-leader Amiot Metayer. Metayer was found murdered in late 
September. (See ``Un certain `plan americain' dononce mais deja en 
marche,'' Haiti en Marche, 15 au 21 Octobre 2003, XVII (37).
---------------------------------------------------------------------------
    Another recent development is linked to the involvement in Haiti of 
a well-respected and prestigious American diplomat. In the June meeting 
of the OAS General Assembly in Santiago, Chile, U.S. Secretary of State 
Powell suggested that if tangible progress had not been made soon by 
the Government of Haiti toward the achievement of steps set forth in 
OAS Resolution 822, an OAS re-assessment of the situation should 
occur.\29\ As a result, Terence Todman, a retired U.S. diplomat, and 
only one of a handful of Americans who hold the penultimate Foreign 
Service Officer rank of Career Ambassador, has been present in Haiti 
frequently since August of this year. Mr. Todman, who is also a native 
of the U.S. Virgin Islands, is working under the auspices of the 
Secretary General of the OAS.
---------------------------------------------------------------------------
    \29\ ``U.S. Commits Another $1 Million to OAS Efforts in Haiti--
Colin Powell,'' OAS Press statement GA-09-03, June 9, 2003.
---------------------------------------------------------------------------
    Whether the designation to the OAS of this prestigious U.S. 
diplomat in response to the U.S. Secretary of State's recommendation 
represents a shift in the Bush administration from its understudy 
orientation toward more direct engagement is another matter for 
speculation. While few in Washington believe that there will be a 
return to the high-ranking Washington/Port-au-Prince shuttle diplomacy 
of the previous administration, there is little doubt that this 
involvement of a senior American diplomat represents a modified policy 
approach. One indication of the potential impact of the retired 
diplomat's engagement emanates from Port-au-Prince, where his visits 
have been compared in significance with that in 1978 of then-U.S. 
Ambassador to the UN Andrew Young. Young's visit resulted in important, 
albeit temporary, gains in the respect of human rights during the Jean-
Claude Duvalier regime. Hope runs strong among at least some Haitians 
that this new U.S.-recommended initiative will be instrumental in 
breaking the seemingly endless political gridlock that is choking their 
country.\30\
---------------------------------------------------------------------------
    \30\ ``Nouvelle configuration politico-electorate,'' in Haiti en 
Marche, XVII (30), 27 Aout, 2003.
---------------------------------------------------------------------------
    As Washington and Port-au-Prince await the incorporation of Special 
Envoy Todman's findings and recommendations into upcoming reports of 
the OAS Secretary General, speculation abounds that the perspective of 
the West Indian native and senior U.S. diplomat may be inclined toward 
breaking that gridlock through increased engagement with a President 
Aristide and Haitian government that will more robustly address U.S. 
concerns. That engagement would be paralleled by less U.S. patience 
with the ``zero option'' political delaying tactics of Aristide's 
understudy-influenced opponents. Should this be the case, the currently 
stalled OAS diplomatic initiatives toward easing Haiti's political 
crisis, as written into Resolution 822, may begin to move forward.

                         A FINAL CONSIDERATION

    In reference to the tenor and direction of current U.S.-Haiti 
relations, the NCHR suggests that it is strikingly apt to consider the 
axiom that ``an ounce of prevention is worth a pound of cure.'' \31\ In 
the long run, a policy of estranged engagement that heightens the risk 
of implosion and humanitarian crisis in Haiti is in no one's rational 
interests. All this approach has accomplished is to make things worse 
for all involved, especially ordinary citizens in Haiti who are already 
suffering tremendously not just from unmet expectations, but from 
increased violence, insecurity, and deprivation.
---------------------------------------------------------------------------
    \31\ Op. cit. ``Yon Sel Dwet,'' p. 35
---------------------------------------------------------------------------
    In spite of all its faults and blemishes, ``Haiti,'' the NCHR 
points out, ``is not nearly as much of a Pandora''s Box as some of the 
world's other hot spots. Effective, respectful diplomatic engagement in 
Haiti,'' the organization states, ``does not dictate a protracted, 
prohibitively costly ``nation-building'' exercise for the U.S.\32\
---------------------------------------------------------------------------
    \32\ Ibid, p. 36
---------------------------------------------------------------------------
    In view of the ``ineffective . . . utter failure over the past 
three years'' of the U.S. policy of estranged engagement ``to compel 
positive change in Haiti,'' \33\ time is overdue for Washington to 
reassess its approach toward Haiti. Developments such as U.S. support 
through OAS Res. 822 of the de-linking of economic aid from the 
political crisis, the engagement with the OAS of Ambassador Terence 
Todman, the arrest and hand-off of drug traffickers, the reiteration by 
the new U.S. ambassador of the legitimacy of President Aristide, and--
not mentioned previously--indications of renewed U.S. consideration to 
complement the current OAS effort to assist and strengthen the Haitian 
National Police, all point in this direction.\34\
---------------------------------------------------------------------------
    \33\ Ibid, p. 35
    \34\ For an assessment of lessons learned in the creation of the 
Haitian National Police force, see, ``Building the Haitian National 
Police: A Retrospective and Prospective View,'' Janice M. Stromsem and 
Joseph Trincellito, Trinity College Haiti Program, Haiti Papers, Number 
6, April 2003.
---------------------------------------------------------------------------
    Experience as a child and a parent, a student and a teacher, and a 
worker and a supervisor have all indicated to this writer that positive 
feedback and positive reinforcement are a much more effective means of 
getting something done--and done well--than are negative steps that 
result in estrangement. In that regard, a policy of direct, positive 
and effective engagement might lead to salubrious developments for all. 
Perhaps it is still not too late, especially with Haiti's bicentennial 
upon us, for the perpetual U.S.-Haiti love-hate relationship to focus 
more on the former and less on the latter.

    Senator Coleman. Gentlemen, thank you very, very much.
    Ambassador Dobbins, I didn't get a chance to listen, but 
I've read your comments. I think you talk about the need for 
reconciliation in Washington. I was wondering whether you think 
that's possible, after watching the discussion that we just 
went through. Can we put aside some of this, kind of, ``Where 
were we yesterday,'' in order to actually do the things that 
have to be done in Haiti? Do you have a sense for whether 
that's possible?
    Ambassador Dobbins. Well, I think you can answer better 
than I can the degree to which one can put aside questions 
about the exact manner in which President Aristide left. I 
suspect, based on the discussion I heard today, that that's 
going to be difficult.
    But the question is whether you can simultaneously move 
forward, that issue aside, recognizing it's going to be 
addressed, and that may be painful, on a program which I think 
should be broadly acceptable to, you know, a wide selection of 
the country and the Congress. I didn't hear much disagreement 
in this panel or in any of the other panels about what we 
should do from here on. And so I do think it would be worth 
trying to work out something that had broad bipartisan support 
and was forward-looking, even as we, you know, continue to look 
into, and perhaps dispute, the recent history.
    Senator Coleman. And my sense, by the way, as we look to 
the future, I think there is broad bipartisan support for those 
things that have to be done.
    I know there was discussion about giving direct aid to the 
Haitian Government. And my question is, in terms of giving aid, 
talk to me a little bit about accountability, and also--if we 
continue to work with the government and continue to work with 
the NGOs--is there a sense that we just have to do both in 
order to meet the needs that are out there?
    Ambassador Dobbins. Some of my colleagues probably can give 
you a more precise answer. My feeling is that if you're going 
to help Haiti build the institutions it needs, you're going to 
have to accept lower levels of accountability, higher levels of 
diversion, and less control over how the money is spent than 
ideally you would like. It doesn't mean that you put all of 
your money through the Haitian Government. It's a question of 
proportionality. But our preference for accountability and for 
avoiding politically controversial outcomes when we provide 
assistance has, I think, led us to starve the Haitian 
Government of what it needs to develop the capacity to govern 
well one day, in order to meet our short-term political needs--
I mean, political needs to avoid being criticized for misusing 
our resources.
    Senator Coleman. Mr. Heinl.
    Mr. Heinl. Yes, I would like to add to that, to just say 
that, in the short term, the NGOs really are probably the most 
effective way just to get things going; because the state of 
paralysis in the Haitian Government is such, for whatever 
reasons, many of which have been addressed today, that it will 
not be an effective instrument in the immediate future to take 
the kinds of steps that we need to take right now to at least 
stabilize the situation and prevent it from getting any worse.
    Senator Coleman. Mr. Pezzullo, do you want to respond?
    Ambassador Pezzullo. Well, I ran a large NGO, and I do 
think they do marvelous work. But, by and large, NGOs cannot 
really help a government reorganize itself.
    Somebody mentioned, here, a change in basically the 
climate, the political climate, the culture of Haiti. I think 
that's key. In my prepared remarks, which I deviated from, 
you'll find them.
    I do think the new Haitian government would be well 
advised, early on, to open up a new dialogue with the Haitian 
people and bringing them in, in a real sense. There are all 
kinds of programs now developed at Inter-American Development 
Bank, AID--they call them transparency, and so on. But what 
they do, in effect, if you are diligent in following them, is, 
you start to bring the various segments of the society into the 
process of governing--education, training, participation of one 
sort or another. This does a lot of things for them. First, it 
builds up a sense of confidence, a sense that they're part of 
the process. It also eventually brings accountability. One of 
the great failures of most governments is the lack of 
accountability. People get into authority, they don't have a 
process to keep them accountable, and they slip off. Everybody 
slips off.
    So I think that type of program should come right out of 
the government. And I would urge them, if they're thinking of 
any initial program, to go to the World Bank or go to the 
Inter-American Development Bank and do that, and do it quickly.
    On the institution-building, this is a long process. It's 
not a rebuilding of police forces; it's building up the 
capacity within the society to fill major positions in 
government. It's just not the minister; it's all the people 
with him.
    In Haiti, they have some real problems with status 
institutions, which Aristide was urged very strongly to get rid 
of, to privatize, because they are always the focus of graft. 
That's the electric company, the port facility, the airport. 
These were great places for people to make money and to put in 
cronies. Privatize them. Let them pay taxes. Let the government 
benefit from that and demand services.
    Senator Coleman. Thank you.
    We'll have a further conversation another time--this was 
all about rule of law, and we didn't touch upon that, but I'm 
very interested in that, both in Haiti and at some other areas.
    But I would turn to my colleague, Senator Dodd.
    Senator Dodd. Well, thank you, Mr. Chairman. Let me thank 
all four of you. And, at least in the case of two you, I've 
known for some time. And Larry Pezzullo, Larry, it's a pleasure 
to see you again. We've dealt with each other a lot over the 
last 20 years. I haven't seen you in a long time. You look 
wonderful.
    Ambassador Pezzullo. Thank you. Same to you.
    Senator Dodd. Nice to have you back before the committee. 
And Jim Dobbins is someone I've admired for a long time. He's 
been a real hand when it comes to the Western Hemisphere, and 
it's nice to see you back. And I've had a chance to listen to 
you on a couple of occasions when you've testified on Haiti and 
other matters.
    Let me ask all four of you just one quick question. One of 
the discussions going on--I mean, I--again, I mean, we're all--
I think, all--there's no question that certainly President 
Aristide contributed, not insignificantly, to the set of 
problems that we have, and I don't want to keep on dwelling on 
the point, but I--maybe I'm old-fashioned, but the idea of 
standing up for democracies, I thought, was something we kind 
of tried to do, even--and if we start using a standard of 
failed leadership in countries, and that's going to be a reason 
we start undermining elected governments, we're going to have 
a--going to have a lot of work on our hands, as I look around 
the world.
    But one of the things that President Aristide did that I 
think most people applauded was to disband the army. And the 
only case I know was the case of--was Pepe Figueras, in Costa 
Rica, back in the early 1950s, when he successfully led a 
revolution there and got rid of the military, and they have a 
national police force and so forth, but, nonetheless, made the 
case, I thought, successfully, and a case can be made in a lot 
of other places around the region, that this is much of a 
rationale for it anymore.
    Now, there's talk by this interim government about 
reconstituting a military in Haiti again. And I wonder if all 
four of you would make a quick comment on the wisdom--put aside 
whether or not the interim government is a legitimate 
government to start making decisions like that, but just the 
whole idea of bringing a military force back into Haiti, given 
the history of problems that have been associated with Haitian 
military in years past. Obviously, I'm editorializing in my 
questions here how I feel about it, but I'd be interested in 
your comments on it.
    Why don't we begin with you, Mr. Heinl.
    Mr. Heinl. I think the debate over the Haitian army is much 
like the debate over the word ``marriage'' in this country. 
Everyone's focusing on----
    Senator Dodd. Don't get me into that.
    Mr. Heinl [continuing]. ----everyone's focusing on the word 
``army,'' and not focusing on what actually an army should or 
should not be doing for a country the size of Haiti. If 
President Aristide had had some sort of national force, he'd 
probably still be in power. But, instead, in 1995, he disbanded 
the army----
    Senator Dodd. I don't disagree. He probably regrets it 
dearly.
    Mr. Heinl. I'm sure. He disbanded it, because the army's 
role traditionally had been in making coups, and he had been 
ousted himself, of course, as we all know, in 1991. But whether 
you call it a national constabulary, an army--or maybe one part 
of the national police force needs to be truly national, as 
opposed to local law enforcement personnel--I suspect, in a 
country of 8 million, that there is need for more than 5,000 
keepers of the peace, and that would be how I would view 
answering your question.
    Senator Dodd. Jim.
    Ambassador Dobbins. Well, I think I tend to agree. I do 
think that it would be a mistake to try to reestablish the 
Haitian army, given its reputation for abuse and the divisive 
nature of the institution in Haiti. It would send all the wrong 
signals.
    On the other hand, the Clinton administration had to be 
persuaded to support Aristide's decision to disband the army. 
It wasn't a decision the Clinton administration had come to on 
its own. Its intent was to seek to reform and professionalize 
the army.
    I do think--I have always had reservations about having a 
single security force in a country like Haiti, or, indeed, any 
country. I mean, no country that I know of, certainly not the 
United States, would repose all of its authority and all armed 
power in a single monopoly force, which always has the 
possibility of becoming abusive. And, therefore, some division 
of labor, with a couple of whatever you call them, a 
constabulary and a local police force, or something, would 
certainly make sense, just from a, you know, good-governance 
point of view.
    The question is, Can Haiti afford it? That's the real 
question. Haiti needs a decent police force. It needs law and 
order. You don't want a bunch of guys with tanks and M-16s 
providing that. So you've got to give them a decent police 
force. Then if you've got enough money left over so that you 
can also give them a constabulary that can do rural policing 
and border patrol and that sort of thing, go ahead.
    Ambassador Pezzullo. Well, the plan that we were putting 
before--Aristide agreed to it--was to reduce the size of the 
military and really get rid of the heavy weapons company, get 
rid of the infantry company, both of which were silly, and turn 
it in, basically, to an engineering brigade that can fix roads 
and take care of public-works types of things, and rescue. 
Something like that, two or three thousand people, might make 
sense at some point. But certainly I would think that the 
interim government would stay away from this issue and tend to 
its--to try to put together the basis for, first of all, an 
election, which, I agree, is going to be very troublesome and 
difficult, and getting very good people in place in government 
ministries, so you can show that, indeed, you can govern the 
country.
    Dr. Maguire. I think, in part, this whole idea of restoring 
the army has come about because of the celebratory way that 
some of these commandos were welcomed into communities, and I 
think we need to look at that for the answer, as well. 
Obviously, there's a strong sense of self-preservation among 
Haitian people. You celebrate the guys coming in with the guns. 
And especially when they knock down all the prisons and let all 
the prisoners out, I'm sure the prisoners and their families 
were glad to celebrate that, as well. As well, of course, when 
the Haitian army was disbanded, it didn't go anywhere. It 
stayed there, and people had their guns cached away, and 
they've brought them back out, and this is maybe why we saw the 
numbers grow as the number of towns fell.
    But I look at this in another way, as well. I look at it in 
a way that I think Haitians have become very disenchanted with 
democracy and with their so-called political leaders, of all 
stripes. For the past five or six years, they've been 
squabbling, fighting for power, blocking the Congress, abusing 
power in the palace, and, in a sense, fiddling while Rome's 
burning. So I think we need to restore the faith in democracy 
in the Haitian people, and it's not going to happen through an 
army; it's going to happen by having leaders who have to act 
responsibly when they are before the Haitian people, not just 
fight over power.
    Senator Dodd. Yeah. Well, I agree with that. I appreciate 
your quick comments.
    Mr. Chairman, thank you. That's been very helpful.
    Senator Coleman. Thank you.
    Senator DeWine.
    Senator DeWine. Thank you, Mr. Chairman.
    Well, this has been a very interesting panel. Thank you all 
very much. You all have a great deal of expertise and a lot to 
bring to this discussion. And I know we can't get into all the 
details about Haiti today, and all the things that need to be 
done, but, you know, when you fly into Haiti, the first thing 
that strikes you from the air is the deforestation and some of 
the ecological problems that they have in Haiti today. And I 
wonder maybe if some of you could--maybe we'll start with Mr. 
Dobbins--could on that, because they're related to the 
agriculture problem, they're related to the feeding problem, 
they're related to the problem that so many of the people who 
live in the countryside have--for the last many years, have 
been going into Port-au-Prince and then going into Cap-Haitien 
and--you know, all these problems are related. And as the 
United States and the other countries and the new Haitian 
Government begin to try to address all the different problems, 
it seems to me that this is one of the problems that has to be 
addressed, the agriculture problem, ecological problems.
    Ambassador Dobbins.
    Ambassador Dobbins. Well, let me say, I think what's 
important in a transitional period like this, where you have an 
opportunity to make important changes, is that you have a 
strong sense of prioritization of effort, because you can't do 
everything at once.
    There is a temptation, particularly in a country as poor as 
Haiti, to put the bulk of our money into poverty alleviation 
and some of the other programs you've mentioned. I would argue 
that, at least for the next year or two, the priorities are the 
following.
    First, security. If you don't have security, you waste--
everything else you spend is wasted. So put your first dollars 
into security, into building the police and the other 
institutions of rule of law.
    Second, basic governance, just being able to provide the 
most basic public services, and not having to be dependent on 
NGOs for those public services; being--you know, creating the 
Haitian Government capacity to provide the most minimal kinds 
of government service that any government should provide.
    Third, the economic--not economic development--just the 
economic reforms that create a market environment for minimal 
investment, and the ability of people to trade and engage in 
commerce and make money.
    Senator DeWine. Such as?
    Ambassador Dobbins. Well, such as either privatizing or at 
least putting, on a commercial basis, things like the port, the 
telephone company, the electric company, and creating a 
commercial code that gives people some confidence in 
investment.
    Senator DeWine. Basic things, I might--if I could 
interrupt--basic things that were recommended to the Aristide 
government and----
    Ambassador Dobbins. And which he refused to do.
    Senator DeWine  [continuing]. ----government and were 
rejected.
    Ambassador Dobbins. Exactly.
    Senator DeWine. Or, not rejected--they weren't rejected; 
they just weren't done.
    Ambassador Dobbins. Right. Now, maybe--I mean, there's lots 
of countries that won't privatize things like this, and we have 
to respect that. But if you can't privatize it, you can 
commercialize it, you can insulate it and put it on a self-
sufficient basis.
    Senator DeWine. Right.
    Ambassador Dobbins. So something has to be done.
    The next priority is political reform, creating a civil 
society, free press, political parties, et cetera. And, only 
lastly, large-scale infrastructure and traditional development.
    Now, if you've got enough money to do them all at once, go 
ahead and do them all at once. But I would argue that if you 
have limited funds, you should prioritize them in that 
sequence.
    Senator DeWine. Good. Any other comments?
    Ambassador Pezzullo. You know, that makes good sense. I 
mean, I have no argument with that. What you, I think, all 
know, and maybe don't articulate, is the fact that the denuding 
of Haiti, the ecological disaster they have there, is due, in 
large measure, to the use of coke. They've been cutting down 
trees faster than people can plant them. I mean, if you went 
back 20 years, 30 years, you'd find AID and various 
institutions building trees like crazy. But they were cutting 
them down as fast as you grew them. So you've got to find a 
substitute for coke.
    By the way, that's a problem all through Africa, too. You 
find most of the people, you know, cutting down every damn 
shrub you can find and ruining the soil. You know, they've come 
up with solar stoves and various and sundry ideas, but if you 
don't break with that custom--and I'll bet you most Haitian 
women would not understand cooking with anything but charcoal--
you have a dilemma of major proportions that you just don't, 
you know, think away or wish away.
    Dr. Maguire. Senator DeWine, I'm absolutely delighted with 
your focus on agriculture. My first book on Haiti was called 
Bottom-Up Development in Haiti, and it focused on peasant 
farmers. One of the things I learned in doing that research was 
that I continually met people who were small farmers and had 
been for their whole lives. The only implement they had was a 
machete, and they had never once seen an agricultural field 
agent to help them do anything.
    So if we can get some investment out to the farmers, 
they'll do the same for Haiti as they've done in the Dominican 
Republic, the backbone of agriculture in that country, as well.
    I think the small farmers understand the tragedy of the 
environment. They just have very few choices. And in the best 
of all worlds, we could see people carrying the soil back up 
onto the hills, onto the terraces and making them work again.
    And, finally, I would say, in the creation of jobs--I've 
been saying this for years--but if there's some way you want to 
create jobs in Haiti, it's not necessarily to have them in the 
cities only, which is going to attract how many people for 
every single job, and create more problems in the city. If you 
give a farmer a couple hundred dollars, one of the first things 
he'll do is hire somebody to work with him.
    Senator DeWine. Good, thank you very much.
    Senator Coleman. Gentlemen, our votes have begun. We've got 
a series of stacked votes.
    I want to thank you. This has been an outstanding panel, a 
lot less discord amongst us based on what you're doing and 
saying. And, in the end, I think that's important, because we 
really do have to respond, and we have to have a vision, and 
you have been extraordinarily helpful in helping us shape that 
vision. So I want to thank you for your participation.
    The record of this hearing shall remain open for another 
ten days. I want to thank everybody for attending.
    This hearing is now adjourned.

    [Whereupon, at 5:58 p.m., the hearing was adjourned.]

 
                            A P P E N D I X

                              ----------                              


 Responses to Additional Questions Submitted for the Record by Members 
                            of the Committee



Responses to Questions Submitted by Senator Dodd to Assistant Secretary 
                         of State Roger Noriega

    Question.  What efforts are being taken by the U.S. within the 
World Bank to provide assistance to Haiti through the LICUS fund?

    Answer. U.S. officials have consulted regularly with the World Bank 
to discuss Haiti's economic situation, needs, and possible responses by 
the Bank and other donors. Bank relations with Haiti are currently 
limited by the fact that Haiti is in non-accrual status, with arrears 
of approximately $41 million as of March 31, 2004. Haiti was placed on 
non-accrual status in September 2001 and operations were suspended at 
the end of 2001. Haiti will need to clear its arrears to the World Bank 
before regular lending can resume. Haiti will need bilateral support to 
do so and as such, the World Bank has suggested that bilateral donors 
join together to support Haiti in clearing these arrears.
    U.S. officials from State, Treasury, and USAID discussed with the 
World Bank staff on March 22 the possible alternatives the Bank is 
considering. Bank staff discussed these options further at the Haiti 
Donors' Contact Group Meeting March 23. Our understanding is that Haiti 
may be eligible to receive resources as a Low Income Country Under 
Stress (LICUS), and if designated as a post-conflict country, Haiti 
could be eligible for additional assistance. The Treasury Department is 
supporting rapid development of these assistance options by the World 
Bank.

    Question.  Why has Haiti not been a recipient of LICUS assistance 
given that it is the poorest country in the Western Hemisphere and its 
citizens rank as some of the poorest in the world?

    Answer. The LICUS Trust Fund was created on Janurary 15, 2004 to 
assist Low-Income Countries Under Stress (LICUS) who are currently 
ineligible to receive International Development Association (IDA) 
assistance due to their arrears with the Bank. The resources are 
directed toward supporting urgent social needs and assisting 
governments with the implementation of reforms necessary for re-
engagement with the international community.
    Haiti is one of the 26 countries the Bank has classified as LICUS 
in FY 04, based on a rating of 3.0 or less on the Country Policy and 
Institutional Assessment (CPIA) and governance rating scales (based on 
FY 02 ratings). The Treasury Department is working with the World Bank 
on moving this forward.

    Question. What is the assessment (in dollars) of damage to the 
infrastructure of Haiti as a result of the recent civil unrest which 
brought an end to the Aristide administration? What efforts have been 
made to solicit funds from countries for the reconstruction of Haiti? 
How much money has thus far been donated?

    Answer. No official, comprehensive financial assessment has been 
made of damage to the infrastructure of Haiti as a result of the recent 
civil unrest. Reports from the Haitian business community estimate 
damage to private businesses in Port-au-Prince at $250-300 million. 
U.S. Embassy and military sources in Haiti have observed substantial 
damage, easily in the millions of dollars, to Haitian government 
buildings in Port-au-Prince and to police stations countrywide.
    Donors agreed at the World Bank Contact Group Meeting March 23 that 
a comprehensive, multi-donor needs assessment for Haiti should occur in 
May, following a donors' meeting with the Government of Haiti in Port-
au-Prince in April at which time the government will discuss its 
assistance priorities.
    On March 9, the United Nations issued a flash appeal for $36 
million in immediate assistance to Haiti. The U.S. sent an instruction 
to all embassies on March 10 to support the appeal and solicit 
additional assistance for Haiti from other countries. The UN reported 
as of March 23 some $6 million in commitments in response. Since the 
Embassy issued a disaster declaration February 18, the U.S. has 
provided over $3 million in emergency assistance to support the 
transport and distribution of food and medicines and to purchase 
medical supplies, including $900,000 to ICRC (the Red Cross), $400,000 
to the Pan-American Health Organization, and $300,000 to UNICEF.

    Question.  As outlined by the Haitian Constitution, the Prime 
Minister is to be appointed by the President from among the members of 
the Parliament. Will the Parliament of Haiti be restored with 
sufficient legitimacy to provide the next democratically elected 
President of Haiti with candidates for Prime Minister? What is the 
proposed date of the next Parliamentary election?

    Answer. We are working with the Government of Haiti, Haitian civil 
society, and the international community to ensure the legitimacy of 
the next election. The first step is for Haiti's interim government to 
form a broadly-based electoral council in line with the international 
plan of action for Haiti. That council, in cooperation with the 
international community, will set the date for elections. Although a 
recent political accord committed to local parliamentary and 
presidential elections in 2005, no specific dates for elections have 
been proposed, and some time will be needed to organize free and fair 
elections. We are engaged with the Organization of American States 
(OAS), the United Nations, and other donors to develop plans and 
support for elections in Haiti.

    Question.  Article 149 of the Haitian Constitution states that ``an 
election shall be held at least forty-five (45) and no more than ninety 
(90) days after the vacancy occurs, pursuant to the Constitution and 
the Electoral Law.'' What assistance is the U.S. Government providing 
either through bilateral or multilateral efforts to uphold the Haitian 
Constitution and ensure that a democratically elected President comes 
to power within these parameters?

    Answer. According to Article 191 of the Haitian Constitution, the 
Permanent Electoral Council is responsible for organizing and 
controlling all electoral procedures. Prior to Aristide's resignation, 
the U.S., the OAS, and our international partners were working with the 
Government of Haiti and the opposition to create a Provisional 
Electoral Council (CEP) as a first step toward elections to settle the 
then-existing political crisis. We envision that the interim government 
will continue to work with the international community to assure that a 
CEP is put in place. The lack of a CEP makes it impossible to schedule 
a free and fair election within the parameters envisioned in the 
Constitution.
    There is also a complete lack of any electoral infrastructure in 
Haiti. The international community will work with Haiti to provide the 
necessary equipment, training, and technical assistance to hold an 
election and to assure that voters are registered. While we recognize 
the importance of holding elections as soon as practicable, what is 
most important is that the elections be free and fair. It is important 
that the Government of Haiti neither rushes into elections nor allows 
itself to be pressured into an improperly run election. Haiti and the 
international community must have time to fully rebuild the electoral 
infrastructure.

    Question. What actions are being taken by the international 
stabilization force to assist in the apprehension of individuals either 
accused or convicted of human rights violations such as Guy Philippe 
and Louis Jodel Chamblain? Please report to date the number and types 
of light and heavy weapons recovered from disarming rebel groups.

    Answer. The Multinational Interim Force (MIF) in Haiti comprises 
some 3,600 personnel from Canada, Chile, France and the United States 
throughout Haiti. Its primary mission is to restore order and to 
support the Government of Haiti's efforts to re-establish public 
security. It is supporting Haitian National Police in the disarmament 
of illegally armed civilians in accordance with Haitian law. Any 
illegally armed civilians encountered by present patrols will be 
immediately disarmed to ensure force protection of the MIF. Threats to 
the protection of the MIF will not be tolerated. Additionally, when MIF 
personnel encounter any acts of violence, they will intervene to 
protect life. The Haitian National Police will remain the lead in the 
disarmament process. To date, MIF units have collected, confiscated or 
seized a total of 91 weapons, which included shotguns, handguns, CS 
grenades, knives, machetes, and night sticks.
    MIF forces will also develop intelligence and conduct missions 
aimed specifically at weapons caches owned by any of the violent 
factions inside the country. We have strongly encouraged all civilians 
to lay down their weapons and disarm to ensure the safety and security 
of Haiti. Multinational forces are there to help the people of Haiti 
and to expedite the restoration of security and stability to the 
country.
    Decisions on arresting and prosecuting human rights abusers must be 
taken by the Government of Haiti. We have made clear to the government 
that such persons should have no role in the government and that those 
who used violence for political goals must lay down their arms. Louis 
Jodel Chamblain was convicted in a Haitian court of human rights abuses 
and, thus, the question of his apprehension will be for the Haitian 
justice system. Similarly, any questions related to Guy Philippe will 
also be for the Haitian government. However, the international 
community has made clear to interim government of Haiti officials that 
persons guilty of crimes should be held accountable for their crimes.

                                 ______
                                 

    Responses to Questions Submitted by Senator DeWine to Assistant 
                    Secretary of State Roger Noriega

    Question. Public reports suggest there are links between former 
Haitian presidential security guards, and the deaths of and attacks on, 
a number of opposition members. Can you provide us with any and all 
documents that would substantiate these allegations?

    Answer. The Bureau of Western Hemisphere Affairs is undertaking a 
review to identify documents responsive to this request and will notify 
the committee, under established Department of State procedures, when 
this review has been completed.

    Question. A few years ago, USAID had a very successful Hillside 
Agricultural Program. At a relatively modest cost, the program was 
designed to sustainably increase agricultural productivity and income 
through the promotion of sound agricultural practices, the introduction 
of high-value crops, and better marketing. In other words, it was 
designed to teach the people of Haiti a sustainable way to feed 
themselves.
    Yet, while the five-year plan that was laid out in 1999 indicated 
that 228,000 farmers would be reached by 2004, clearly, in 2004, this 
objective hasn't been reached. Our agricultural development efforts 
have been completely zeroed out in recent years. Where do you expect 
these initiatives to fall in the administration's overall priorities 
for Haiti?

    Answer. We recognize the importance of the Hillside Agriculture 
Program and are pleased with what it has achieved despite cuts in 
funding.
    In Haiti's current fragile situation, our first priority has been 
to provide emergency assistance to the most vulnerable and to prevent 
the spread of communicable diseases. To this end, since the Embassy 
issued a disaster declaration February 18, we have provided over $3 
million in emergency assistance to support the transport and 
distribution of food and medicines and to purchase medical supplies.
    Our ongoing assistance programs for Haiti are focused on health and 
nutrition; about 40 percent of our assistance budget has gone to each 
of these. This assistance is designed to reach Haiti's most vulnerable 
populations, notably children up to age five and their mothers, and 
HIV/AIDS patients. This allocation also reflects relative availability 
of funding from the Child Survival and Health (CSH) and P.L.-480 Title 
II accounts.
    While funding of economic growth programs has been cut, it has not 
been zeroed out. Microfinance programs continue and are successful in 
creating Haitian-managed microfinance institutions that provide the 
means for thousands of Haitians to start or continue agricultural and 
business activities.
    Going forward, USAID is re-examining needs and assistance 
priorities in Haiti. Economic growth and job creation is clearly needed 
if Haiti is to recover from the damage incurred during the political 
crisis that preceded former President Aristide's resignation.

    Question. Even without the recent violence and unrest, 40 percent 
of Haitians have no real access to basic health care or medical 
services. What is the status of Haiti's hospitals and clinics? Are they 
all open and equipped to take patients? Are NGOs and international 
organizations able to access and deliver medicines, water, propane gas, 
and medical supplies? What are the immediate steps USAID plans to take 
to assist in opening hospitals and clinics and delivering medical 
supplies?

    Answer. Haiti's hospitals and clinics are operating but with 
reduced services dur to difficulties in transport and distribution of 
medical supplies, shortages of fuel, and the absence of some health and 
humanitarian workers due to evacuation or local insecurity.
    With the re-establishment of relative security in most parts of the 
country thanks to efforts of the Multinational Interim Force (MIF), 
these problems are being addressed, and NGOs and international 
organizations are generally able to access and deliver medicines and 
other supplies. The U.S. took the lead in the UN Security Council to 
pass UNSC Resolution 1529 on February 29, which authorized creation of 
the MIF, and has been the lead MIF participant, with over 1,900 troops 
in Haiti as of April 2.
    Since the U.S. Embassy issued a disaster declaration February 18, 
the U.S. has provided over $3 million in emergency assistance for Haiti 
to support the transport and distribution of food and medicines and to 
purchase medical supplies. This assistance has been given in the form 
of grants to implementing organizations such as ICRC (the Red Cross), 
the Pan-American Health Organization, UNICEF, World Vision, and 
Catholic Relief Services.

                                 ______
                                 

    Responses to Questions Submitted by Senator DeWine to Assistant 
                   Administrator Adolfo Franco, USAID

    Question. Public reports suggest there are links between former 
Haitian presidential security guards, and the deaths of and attacks on, 
a number of opposition members. Can you provide us with any and all 
documents that would substantiate these allegations?

    Answer. The answer to this question does not fall under the purview 
of USAID.

    Question. A few years ago, USAID had a very successful Hillside 
Agricultural Program. At a relatively modest cost, the program was 
designed to sustainably increase agricultural productivity and income 
through the promotion of sound agricultural practices, the introduction 
of high-value crops, and better marketing. In other words, it was 
designed to teach the people of Haiti a sustainable way to feed 
themselves.
    Yet, while the five year plan that was laid out for this effort in 
1999 indicated that 228,000 farmers would be reached by 2004, clearly, 
in 2004, this objective hasn't been reached. Our agriculture 
development efforts have been completely zeroed out in recent years. 
Where do you expect these initiatives to fall in the administration's 
overall priorities for Haiti?

    Answer. The Mission's economic growth program continues to target 
large numbers of the rural and urban population who fall beneath the 
poverty line. USAID provides targeted assistance to increase their 
incomes. Support for environmentally sound hillside agricultural 
production systems and improved marketing continue to receive high 
prority. To consolidate past gains, in FY 2000, the Mission made the 
strategic decision to provide more extensive technical assistance to a 
smaller number of beneficiaries covering a smaller geographic radius. 
The program builds on its most successful activities: coffee, cacao, 
mangos, and other non-traditional export crops for ethnic markets. In 
FY 2003, the hillside agricultural program increased the revenues for 
more than 35,000 farmers of targeted crops, and in the case of mango 
production, increased farm gate prices by as much as 44 percent.
    The success of this targeted approach resulted in an increase in 
Haiti's reputation worldwide, particularly in coffee and cacao, with 
both products commanding top prices, so that all Haitian farmers 
producing these crops for export are benefiting. The Hillside 
Agriculture Program has been one of the Missions' most successful 
programs and has resulted in not only increased productivity and income 
to hillside farmers, who are among the country's poorest citizens, but 
increased food security and established a growing reputation worldwide 
in Haitian coffee and cacao.

    Question. Even without the recent violence and unrest, 40 percent 
of Haitians have no real access to basic health care or medical 
services. What is the status of Haiti's hospitals and clinics? Are they 
all open and equipped to take paitients? Are NGOs and international 
organizations able to access and deliver medicines, water, propane gas, 
and medical supplies? What are the immediate steps USAID plans to take 
to assist in opening hospitals and clinics and delivering medical 
supplies?

    Answer. Not all hospitals and clinics are yet fully operational and 
receiving clients/patients. Many report difficulties, especially in 
terms of fuel for generators, lack of oxygen for surgical operations, 
lack of propane gas refills for refigerators for the cold chain, and 
lack of drugs and other medical commodities.
    Fourteen medical kits, each of which supports 10,000 patients for 
three months, have been distributed by USAID/Haiti to more than 
fourteen sites (some were divided in half so that smaller sites could 
be covered). These kits include drugs and non-pharmaceutical supplies, 
and are flown in on pallets. We have planned for 10 more kits under the 
Draft Haiti Emergency Response Plan.
    USAID/Haiti's key health partners, Management Sciences for Health, 
Family Health International, and PSI, are all working with their 
international and local NGO networks to ensure that supplies of 
propane, and other commodities that are required for making clinics 
viable are being procured and delivered. USAID food cooperation 
sponsors are all working at capacity to make sure that food aid 
supplies continue to reach those most in need.
    Under the Draft Haiti Emergency Response Plan, USAID has proposed 
several kinds of water purification methods, from the emergency tablet 
distribution, to more sustainable locally asssembled water purification 
tanks for villages, with chlorine and other purification methods.
    USAID also plans to make available, under the Emergency Response 
Plan, 3 million packets of ORT salts, serious diarrheal diseases, 
endemic in Haiti and a major threat to the lives of those under 5 years 
of age, are on the rise, and clean, potable water is in shorter and 
shorter supply.
    USAID rented aircraft have enabled early assessments and provision 
of critical supplies by USAID and its partners.
                               __________

            Additional Information Submitted for the Record

                    joint proposal & position paper

                     The Haiti Reconstruction Fund

                       prepared march 2, 2004 by

       The National Organization for The Advancement of Haitians

Statement of Interest
    Two organizations with stakes in the economic and social well-being 
of Haitians and Haitian-Americans--the National Organization for the 
Advancement of Haitians and PromoCapital Haiti S.A., a Haitian/American 
investment bank--have combined to present this statement on the 
constitution of a Haiti Reconstruction Fund and to offer our services. 
In our roles as advocates for the Haitian-American community, business 
people striving to strengthen the economic and social fabric of Haiti, 
active participants in the Haitian private sector, bridge-builders 
between Haitians and the Haitian Diaspora in the United States, we work 
with a broad spectrum of business people, chambers of commerce and 
trade associations, government officials, consumers, service providers, 
American policy makers, Haitian-American constituents, Haitian citizens 
and friends of Haiti and of the Haitian-American community.
    The National Organization for the Advancement of Haitians, Inc. 
(NOAH) was founded in 1991 as a not-for-profit, social policy 
corporation, in response to the refugee crisis resulting from political 
unrest in Haiti. NOAH serves as a national, nonpartisan organization 
dedicated to the restoration and preservation of democracy in Haiti.
    PromoCapital is a joint venture between members of the Haitian-
American Diaspora, shareholders of PromoBank (the fourth largest 
Haitian bank), and members of the Haitian business community. 
PromoCapital's mission statement reads: ``To bring together a team of 
prominent Haitian and Haitian-American leaders with adequate expertise 
and experience to create an investment infrastructure with global 
horizons and limitless potential to contribute to the future welfare of 
our community in Haiti and in America, while at the same time providing 
ethical and socially responsive investments with equitable returns and 
benefits. . . . An institution which promotes financial independence, 
autonomy and security for Haitians and Haitian-Americans.''

Recognition of Issues
    Well before the events of the past few days, the Haitian economy 
had been on the brink of disaster. Over the past 40 years, there has 
been a steady and significant erosion in the capitalization of the 
Haitian private sector due to several factors: uncertain political 
environment, uncoordinated macroeconomic policies, structural 
weaknesses of the private sector itself, high levels of corruption and 
market distortions, reckless economic incentives built into the local 
financial markets, etc.
    The recent events that started on February 27, 2004 have pushed the 
private sector much closer to the brink and portend extremely difficult 
days ahead, not only for the Haitian private sector itself, but also 
for the entire banking system, the government, Haitian consumers, and 
the country as a whole.
    The losses suffered by small and large businesses alike in the 
metropolitan Port-au-Prince area alone during these events are quite 
significant:

  <bullet> At least 12 bank branches in the Port-au-Prince metropolitan 
        area were looted and destroyed. Considering that there are less 
        than 300 bank branches in the country as a whole, and that each 
        branch represents an investment of at least $500,000, the 
        damage is quite significant. Sogebank, Unibank, Capital Bank 
        and Socabank--all private Haitian banks--were the most 
        seriously hit;

  <bullet> Over 20 gas stations belonging to private businessmen and 
        affiliated with Dinasa (successor to Shell Oil Corporation), 
        Texaco, Total and other companies were completely destroyed by 
        fire after having been looted;

  <bullet> An untold number of warehouses belonging to shipping 
        companies, importers, non-governmental humanitarian 
        organizations were looted and ransacked;

  <bullet> Three auto dealerships (to our knowledge) were looted and 
        their car fleet stolen; and

  <bullet> Stores located along John Brown Avenue--one of the main 
        commercial strips downtown--were systematically pillaged.

    And the list goes on. This is on top of the attacks on public 
institutions like police stations, buildings housing government offices 
and non-governmental organizations, etc.
    It will probably be days before a full and accurate accounting of 
the aggregate losses throughout the country can be obtained. Media 
reports have mentioned extensive damages in Cap-Haitien, Gonaives, and 
Port-de-Paix in the North. The situation in other cities, especially in 
the South, is not yet known but we can also expect that several 
businesses and public institutions were vandalized and/or destroyed.

Impact on the Country
    This catastrophe will have several negative consequences for the 
country as a whole:

  <bullet> Loss of jobs. It is expected that many businesses will be 
        unable to resume operations due to the magnitude of the losses. 
        This will also mean the layoffs of hundreds, if not thousands 
        of employees of the private sector in a country with an already 
        high unemployment rate. The effects on society as a whole will 
        be quite severe. It is estimated that, on average, each 
        employee supports four to six family members;

  <bullet> Business bankruptcies and impaired loan portfolios. The 
        extensive damage suffered by many businesses will probably lead 
        to a high rate of loan defaults, thereby impacting a banking 
        system that was already under stress. Given the hit that the 
        two largest banks, Sogebank and Unibank, themselves suffered, 
        it is quite conceivable that we could quickly experience a 
        serious banking crisis;

  <bullet> Stress on BRH, the Central Bank. Haiti does not have an 
        insurance institution like the FDIC which insures depositors' 
        money, nor does it have mechanisms in place for general 
        business insurance. Therefore, any impact of bankruptcies by 
        the business sector will be felt directly by the Banque de la 
        Republique d'Haiti, the Haitian central bank. We do not believe 
        that the Central Bank has the resources to withstand any type 
        of severe banking crisis at this point, either from a 
        management or from a financial standpoint;

  <bullet> Informal sector affected as well. The losses suffered due to 
        the looting of warehouses will impact not only the importers 
        and business owners, but also the informal sector which has 
        many roles in the Haitian economy--merchantwomen, welders, 
        mechanics, small grocery stores, photocopy service providers, 
        distributors of goods sold by wholesalers, and a whole host of 
        other micro businesses--and constitutes an important percentage 
        of the employed population. This consequence is more likely to 
        be overlooked because the informal sector in Haiti is usually 
        ignored, but the reverberations within the ranks of the 
        informal sector--and the families that are supported by it--
        will be felt much more keenly than by those in the private 
        sector;

  <bullet> Long-term deterioration of the economic fabric. The economic 
        fabric of the country, which was already weak to begin with, 
        will get even weaker if nothing is done. The effects of such a 
        weakening would become increasingly important over the long 
        term as it will speed up the business decapitalization process;

  <bullet> Negative impact on fiscal receipts by the Government. The 
        fiscal impact for the government will be significant as the 
        government can ill afford to lose the taxes it collects from 
        the private sector, which represent a substantial percentage of 
        its overall tax receipts. The budget of the country could 
        suffer, which would certainly negatively impact the development 
        of programs in public health, education, infrastructure just to 
        name those; and

  <bullet> Insurance. We are operating on the assumption that, not 
        knowing the total amount of the losses and the specific terms 
        of the insurance policies in effect, a substantial amount of 
        losses will be incurred above and beyond the potential 
        insurance payments.

Proposed Course of Action
    We are proposing the creation of the Haiti Reconstruction Fund. 
This Fund would be structured along the lines of the Fund set up for 
the reconstruction of Iraq or Liberia and would be open to the 
participation of United States agencies as well as international 
financial institutions already engaged in Haiti. In addition to funding 
emergency light infrastructure work--for the damages to public 
institutions--another of its chief objectives would be to provide 
assistance to all existing businesses (large and small, formal and 
informal) and institutions which have been impacted by the looting and 
the destruction which occurred since the end of February 2004.
    While we stress that humanitarian relief is critical at this point 
to assist the large number of low-income families who have been 
adversely affected by the political events and the attendant downturn 
in the economy, it is just as critical that attention be paid to the 
economic rebuilding of Haiti as well. The two efforts are interlinked 
and must receive the proper attention they deserve.
    We offer to take the lead on the initial assessment of the damages 
that have occurred and on the formulation of an emergency intervention 
policy.

Benefits to Haiti and to the United States
    The benefits to Haiti are evident, as the issues we have listed 
above are quite critical and must be addressed in short order. Every 
day that goes by will only increase the toll on the business community 
and on the country.
    Rightly or wrongly, there is a perceived ambivalence towards the 
nation-building effort undertaken by the United States in Haiti. The 
perception among many in the Haitian-American community, residents of 
Haiti, and the general public, is that the United States never 
completed the mission it had set for itself in 1994 and disengaged 
prematurely from the nation-building process. We believe that the 
creation of the Haiti Reconstruction Fund will go a long way towards 
restoring the confidence of Haitian-American taxpayers and Haitians in 
the sincerity of the United States to strengthen the institutions of 
that country, to contribute to the development of its economic fabric, 
and to stimulate the already substantial trade between the two 
countries. We believe that, by focusing on critical economic issues, 
all parties involved in the development of Haiti will recognize that 
economic development--and the attendant benefits--are just as important 
as political ones for the future of a more stable and prosperous Haiti. 
The Haitian Reconstruction Fund will establish in everyone's minds that 
the United States is taking a leadership position in that regards.
Closing
    We thank you for this opportunity to contribute to the reflection 
on the development of a coherent and inclusive policy towards Haiti. We 
hope these thoughts and concrete suggestions will prove beneficial to 
your work. We will aid the discussions in any way we can.

                                       Dr. Joseph Baptiste,
                                                    Chairman, NOAH.

                                           Henri Deschamps,
                              Chairman and CEO, PromoCapital Haiti.

                                 <all>


</pre></body></html>
